<html>
<title> - AERONAUTICAL RESEARCH AT NASA</title>
<body><pre>[Senate Hearing 107-1021]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1021
 
                     AERONAUTICAL RESEARCH AT NASA
=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 24, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation











                      U.S. GOVERNMENT PRINTING OFFICE

88-462                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001










       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                              ----------                              

             Subcommittee on Science, Technology, and Space

                    GEORGE ALLEN, Virginia, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        MAX CLELAND, Georgia
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 24, 2001...................................     1
Statement of Senator Allen.......................................     1
Statement of Senator Breaux......................................     4
Statement of Senator Hutchison...................................     7
Statement of Senator Rockefeller IV..............................     6

                               Witnesses

Goode, Hon. Virgil H., Jr., a Representative in Congress from 
  Virginia.......................................................     7
Warner, Hon. John W., U.S. Senator from Virginia.................    35
    Prepared statement...........................................    38
Bolen, Edward M., President, General Aviation Manufacturers 
  Association....................................................    41
    Prepared Statement...........................................    43
Creedon, Dr. Jeremiah F., Director, Langley Research Center, NASA    20
    Prepared Statement...........................................    22
Deel, Dennis, President, Lockheed Martin Space Systems Company, 
  Michoud Operations.............................................    47
    Prepared Statement...........................................    49
Goldin, Hon. Daniel S., Administrator, National Aeronautics and 
  Space 
  Administration.................................................     9
    Prepared Statement...........................................    11
Harris, Roy V., Jr., Chief Technical Advisor, NASA Aeronautics 
  Support Team...................................................    52
    Prepared Statement...........................................    53
Swain, David O., Senior Vice President, Engineering and 
  Technology; 
  President, Phantom Works, The Boeing Company...................    60
    Prepared Statement...........................................    62

                                Appendix

Aviation R&D Task Force of the Aerospace Division, Environment 
  and 
  Transportation Group Council on Engineering, prepared statement    73
Douglass, Hon. John W., President, Aerospace Industries 
  Association of 
  America, Inc., prepared statement..............................    76
Response to written questions submitted by Hon. George Allen to 
  Hon. Daniel S. Goldin..........................................    79
Response to written questions submitted by Hon. John D. 
  Rockefeller IV to:
    Dennis Deel..................................................    85
    Roy V. Harris, Jr............................................    82
    Hon. Daniel S. Goldin........................................    81


















                     AERONAUTICAL RESEARCH AT NASA

                              ----------                              


                        TUESDAY, APRIL 24, 2001

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SR-253, Russell Senate Office Building, Hon. George Allen, 

Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. The Science, Technology, and Space 
Subcommittee will come to order. We have a hearing today, and I 
especially want to welcome our esteemed and knowledgeable 
guests that we have here today, including some from the House 
and Senate, and obviously leaders in the areas of aeronautics 
which is the main focus of this hearing.
    The purpose of this Subcommittee hearing is to examine the 
technologies which are so essential for our scientific, 
economic, and technical competitiveness of the United States 
insofar as aeronautics is concerned.
    This is my first chairmanship of this Subcommittee, and I 
do want to thank Senator Brownback for yielding this 
chairmanship to me. I am pleased to be joined by the Ranking 
Member, Senator Breaux of Louisiana, as well as Senator 
Rockefeller of West Virginia, and my esteemed colleague from 
the Commonwealth of Virginia, Senator Warner, all of whom I am 
sure will have some remarks.
    I am very pleased to be a part of this and the chair of 
this Subcommittee. We worked a great deal while I was Governor 
on technology, and we had unprecedented growth in technology 
jobs in Virginia, in Northern Virginia obviously, in the 
Richmond area with Infineon Technologies, and Gateway Computers 
in the Hampton area, but also part of all of that was the 
fortunate marriage of the efforts of NASA-Langley and how that 
helps in the spinoff of jobs and indirect jobs, thanks to them.
    Now, before we proceed with this particular hearing, I 
would like to lay out to my colleagues some of the agenda that 
I see coming forward in this Subcommittee throughout the next 
year-and-a-half.
    Senator Brownback will chair two Subcommittee hearings, 
given his deep and abiding interest in certain areas. The first 
issue is carbon sinks and global warming, and the second is 
human cloning. We will be working with Senator Brownback on all 
of these important issues.
    I also would say to my colleagues on this Subcommittee, 
should you all have any particular ideas that you think are 
important and that need to be addressed through a hearing, 
please let us know. We want to make sure that science and 
technology and space are not partisan issues. I think we all 
realize how important they are to the competitiveness of our 
country and advancements therein.
    Some of the issues that I do think we will have hearings on 
will be the potential for new technologies to address some of 
the problems concerning military voter disenfranchisement, 
which was certainly made clear in the last election. I know 
there are Members of this Subcommittee, including Chairman 
McCain, who are looking for some reasonable solutions where 
technology can actually help our military folks overseas vote 
in our elections.
    We will also have the NASA reauthorization bill before us 
next year, and in the intervening period, I would like to 
explore the balance between the aeronautical programs, the 
unmanned space missions, and the manned space missions, and 
determine which are the most beneficial and which may need some 
added boosters from the Subcommittee as well as the full 
Committee.
    Other issues that may arise in this Subcommittee somewhat 
converge with those of some of the Members here who are on the 
Senate Republican High-Tech Task Force, issues such as the user 
fee diversion at the Patent and Trademark Office and the impact 
that this has on the ability of PTO to issue new patents for 
new technologies and inventions and innovations in a prompt 
way.
    There will probably be some concern about intellectual 
property protection overseas, in particular, or the lack 
thereof and how that impacts our technologies and enterprises 
in this country, privacy rules and regulations promulgated 
overseas, especially in Europe and the impact that those 
regulations may have on domestic technological market 
development.
    Also, I am sure that we will all be looking at the 
appropriate level of funding for the National Science 
Foundation. I believe every single Member here voted for the 
increased funding by putting it on a glidepath to eventually 
doubling its funding in the budget just a few weeks ago and 
recognize the importance of basic scientific research for our 
country and for our future.
    Now, Senator Breaux, who is the Ranking Member, I certainly 
do look forward to working with you and others on this 
Subcommittee in the months ahead. I do think that it is 
important that those in the aerospace area, space generally, 
technology, or in science should feel that this Subcommittee is 
their portal to the Senate. It is important that they feel 
comfortable letting us know their ideas. We do not have all the 
wisdom, all the knowledge, all the insight. You are always 
welcome to contact me or any of the Members of this 
Subcommittee if there is a matter that you think is of pressing 
concern that needs to be addressed by your Government.
    The hearing today is focused on aeronautical research at 
NASA. We hope to discuss the current status, and we also hope 
to discuss the future of aeronautics. We hope to discuss the 
process or the glide path that will take us there, and with 
that in mind, we hope to begin to answer the following 
questions: What will this glide path be, and is it going to be 
a glide path up or is it going to be a glide-path down? We want 
it to be ascending. We also want to know, with the ascension, 
what will be the potential impact of this investment on 
commerce, on our economy and jobs, and on national security 
with a particular focus on maintaining our air superiority?
    Over the past few years, there has been a great deal of 
attention that has been placed upon the space activities at 
NASA, but today we hope to review the aeronautical aspects or, 
as some call it, the first ``A'' of NASA. We have heard about 
Europe's plan to dominate the aeronautical skies in the future. 
At the same time, we have heard about a lack of attention given 
to the U.S. program for the advancements in this area. So the 
question is, does the United States intend to respond to this 
competitive challenge from the Europeans, and if so, when and 
how?
    I recognize that the aviation-related manufacturing sector 
is a net exporter representing many good-paying jobs for our 
fellow Americans. A loss of these jobs has a direct impact on 
the quality of life for our constituents.
    A study by the National Research Council states that 
continued reductions in the funding for the aeronautics 
research and development may have irreversible consequences, 
and also, once and if U.S. competitive leadership is lost, it 
is going to be extremely difficult to regain such leadership 
when one considers the logistical difficulties of reassembling 
quality infrastructure, the skilled people, and the investment 
capital that would be needed to restart a lost capable team of 
professionals and facilities.
    We have before us, obviously, key people in organizations 
that must participate in this research and development that 
will help U.S. industries respond to this challenge. Obviously, 
it is good to see Dr. Creedon, and it is great to see the 
director, Dan Goldin, the key leaders at NASA, and we look 
forward to hearing from you shortly.
    I would say to my fellow colleagues, in addition to this 
international challenge, we have a national problem as well. We 
have already heard of and experienced many of the problems at 
our airports from delayed flights or increasing ticket prices. 
We look to the near future, and what do we see? No relief in 
sight. All we see is more gridlock. The Nation, our Nation, 
cannot and should not accept this inefficient situation. It is 
clear to me that the future of U.S. aviation relative to both 
international and national concerns depends on adopting and 
developing new technologies. The need is both short term and 
long term, and we must pursue both evolutionary and 
revolutionary advances.
    The aircraft of the future, as expressed by some of the 
visionaries here, will be cleaner, it will be safer, it will be 
faster, and it will be quieter. Nanotechnology composites will 
be a part of achieving this goal. The innovation process that 
we currently utilize for aeronautics must be reviewed to ensure 
that it is operating properly and efficiently.
    Industry and Government, I think will probably have to 
establish never-before-seen types of relationships that will 
move this country in ways that no one has ever dreamt. We must 
also recognize that the most essential raw material for any 
innovation or technology development process is human capital, 
which means knowledgeable, capable, and skilled people, and I 
am alarmed to hear that the number of U.S. graduates at the 
bachelor- and master-degree levels in aerospace engineering and 
related disciplines have dropped by almost 57 percent and 39 
percent respectively since 1990. That is not the glide path we 
want as far as capable people involved in aerospace.
    This situation is further complicated by the fact that many 
of the people who are involved in aeronautics and aerospace are 
in their mid forties and obviously getting older, but the point 
is that the skilled aeronautics work force is aging and 
retiring and new workers are not choosing this field.
    Obviously, taxpayer funding or taxpayer investment is 
always an issue. The fiscal 2002 budget request includes a 7 
percent increase for the aerospace technology program at NASA. 
The majority of this increase is apparently to go toward the 
second-generation reusable launch vehicle, and I am sure NASA 
will explore a variety of ways of achieving that and making 
sure there is no waste of taxpayers' dollars and find the best 
uses of existing efforts. But I do want to applaud to this end, 
NASA Director Goldin, for his commitment to aggressively seek 
new applications for the promising so-called orphan launch 
vehicle technologies. These efforts ensure that the taxpayers 
receive maximum benefit from their investment in NASA and, most 
importantly, that promising experimental technologies continue 
to be fully utilized throughout the public and private sector.
    With regard to funding for aeronautics research and 
development, some have used the term ``crisis''--that is one of 
the reasons I wanted to have this hearing--in describing this 
current situation. I am going to personally withhold use of the 
term ``crisis'' until we are all much more fully informed, and 
I hope that our witnesses today will provide the Members of 
this Subcommittee and, indeed, the entire Senate, with the 
required evidence in their testimony that will serve as the 
foundation for future actions on this very, very important 
issue.
    So, with that, I would like to turn it over to our Ranking 
Member on the Subcommittee, Senator Breaux, for comments.

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you very much, Mr. Chairman, and 
welcome to the Subcommittee.
    Senator Allen. Thank you.
    Senator Breaux. We, on our side, look forward to working 
with you, and I am pleased to hear your comments about the 
ability for us to influence some of the hearings and receive 
suggestions as to areas we think we might need to take the 
Subcommittee.
    I want to thank you for calling the hearing today. I 
appreciate the distinguished witnesses that we have, 
particularly Dan Goldin, our NASA Administrator, and also I 
would point out Mr. Dennis Deel, who is president of Lockheed 
Martin Michoud Operations down in New Orleans. I am delighted 
to have him here as well.
    It is clear that NASA is a leading innovator in the area of 
aeronautics research. The research is essential to solve the 
growing air travel crisis of congestion, delay, noise, and 
pollution that more and more of our constituents face every day 
and complain to us about the problems. Advanced aeronautic 
technologies developed at NASA help nearly 600-million 
Americans fly safely each year. With the number of traveling 
Americans expected to even triple to .8 billion per year by the 
year 2020 and a net 3 percent of the gross domestic product 
stemming from airlines and airline manufacturing, solutions to 
these problems obviously are crucial to maintaining a healthy 
U.S. economy.
    As you have mentioned, Mr. Chairman, earlier this year, the 
European Commission announced Europe's commitment to aviation 
research and development. Their goal is quite simple, to become 
the global leader in aeronautics by the year 2002. Their own 
commission report details Europe's vision, and I quote, it 
says,

          ``In 2020, European aeronautics is the world's No. 1. Its 
        companies are celebrated brands renown for the quality of 
        products that are winning more than 50-percent share of the 
        world market for aircraft, engines, and equipment.''

    That is their goal.
    In short, Europe has committed to spend $95 billion on 
aeronautic research and development over the next 20 years to 
take over a market that this country has heretofore dominated.
    At the same time, NASA's distinguished reputation for being 
a catalyst for aeronautics discovery may soon fade. According 
to one of our witnesses, the NASA Aeronautics Support Team, 
funding for NASA aeronautics research decreased $200 million 
between 1994 and the year 2001. Also, a study last year by the 
National Research Council noted that continued reductions in 
funding for aeronautics and development may have irreversible 
consequences. Our Nation could lose the infrastructure and the 
people that we need to fuel the aerospace industry.
    Of course, the aeronautics budget is inextricably linked 
with other aerospace technologies, like the advanced space 
transportation research and development. To that end, I am 
disappointed that NASA has terminated its investment in the X-
33 reusable launch vehicle program. If successful, the X-33 
Venture Star Project would have developed the Shuttle 
successor, which would have been a more economical large 
vehicle opening space flight to more and more people. It is my 
hope that promising tank technologies like those being 
investigated and researched at Michoud will be worthy of 
further investment through the Space Launch Initiative.
    In conclusion, since the mid-1980s, the U.S. aerospace 
market share has fallen by more than 70 percent, to nearly 
half. In order to stay competitive, the United States must 
answer Europe's challenge and their commitment to aeronautics 
research and development.
    Again, Mr. Chairman, we welcome you, look forward to 
working with you, and are happy to be cooperative on issues 
that we can be.
    Thank you.
    Senator Allen. Thank you, Senator Breaux.
    Senator Rockefeller, would you care to make any comments?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I will just make a very brief comment 
because Senator Breaux said, as he so often does, much of what 
I really wanted to say. I want to particularly join him in 
welcoming you, Mr. Chairman. I am very happy for your presence. 
I thought your opening statement was important because it 
showed an enormous sort of sweep and ambition for the 
Subcommittee. I think that is terribly important, and I think 
where you come from, the work that you did as Governor, et 
cetera, all of that bodes very, very well for the Subcommittee. 
So, I particularly want to personally welcome you and say that 
we are glad that you are here. We will look forward to working 
with you, which is the last nice thing I will say, not about 
you, Mr. Chairman, but in this particular little opening.
    I agree with John Breaux when he talks about the reports, 
the so-called RG 21 reports that are coming out. They bode very 
badly for aeronautics and the aerospace industry in Europe and 
how they have reduced us by 50 percent, how they are using WTO 
illegal subsidies. This is a parallel pattern to Airbus and its 
European suppliers, their hushkit regulation-type approach to 
keeping the competition out, even though the hushkit is utterly 
irrelevant at this point since we meet all of the criteria. 
They just do not choose to admit that.
    Then there is this very interesting and, I think, rather 
scary habit of the Europeans, and that is of finding a way to 
block all mergers that could be useful in aerospace involving 
the United States while simply waving theirs on through.
    We think in terms of a $100-billion trade deficit with 
China and a $60-billion trade deficit with Japan, and both will 
be higher by the end of this meeting, but what the Europeans 
do, particularly with respect to aviation and aerospace, a lot 
that involves NASA is very, very bad and wrong.
    I also agree with John Breaux, that if we are going to 
fight back, we have got to do that with the resources, and the 
budget authority for NASA's aeronautics research and 
development program which peaked in 1994. That was 7 years ago, 
and that is a very long time. It is at $1.36 billion for the 
fiscal year 2002 budget. I am very, very concerned that, rather 
than quipping the U.S. aerospace industry to meet new 
challenges, President Bush's budget proposal calls for the 
termination of some of these programs, including the 
rotorcraft, the advanced aircraft, the intelligence synthesis 
environmental programs.
    We have got a lot to do, and all of this within the context 
of how large our budget is going to be. That makes this a 
particularly important and interesting Subcommittee, Mr. 
Chairman, and we will work to resolve problems.
    Thank you.
    Senator Allen. Thank you, Senator Rockefeller.
    Now, I would like to recognize another Member of our 
Committee who is also Chairman of the Aviation Subcommittee, 
Kay Bailey Hutchison.
    Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman, and I am very 
pleased that you are holding this hearing because this is a 
very important issue to our country. I am glad that you are 
focusing on the research capabilities of NASA.
    I just want to say that I think that aerospace research and 
the aeronautics research function of NASA is extremely 
important, and I think the work that we have done toward an 
aerospace plane could revolutionize the aviation industry and 
give us the next significant advantage over our overseas 
competitors.
    I am troubled by the statistics which accompany recent 
reports on the state of U.S. aeronautics research. Twenty-five 
years ago, the United States had over 90 percent of the world 
market for commercial aircraft sales. Ten years ago, it was 70 
percent, and today, it is 50 percent. I support efforts to make 
sure that aviation trade is fair, and we must do everything we 
can to keep our research advantage in this area.
    Our aeronautics research has always included the aviation 
industry, our military, and NASA. Those players had been 
working together synergistically for years, and we must 
continue to do that and make it a priority.
    So I am very much looking forward to working with you, Mr. 
Chairman, and with Dan Goldin who is doing a terrific job at 
NASA to making the budget numbers fit. We can set priorities 
and determine what our science research is best suited to do. 
We must keep our focus, and keep looking toward the next 
envelope that we can push.
    Thank you very much.
    Senator Allen. Thank you, Senator Hutchison.
    We have several panels here. The first panel is Congressman 
Virgil Goode from the Fifth District of Virginia, and Senator 
Warner. Congressman Goode, if you would like to come forward. I 
do not know where Senator Warner is. He was here a moment ago, 
but we will hear from you first.

            STATEMENT OF HON. VIRGIL H. GOODE, JR., 
           A REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    Mr. Goode. Thank you, Mr. Chairman.
    Senator Allen. Thank you.
    Mr. Goode. Mr. Chairman, Members of the Subcommittee, thank 
you for allowing me the opportunity to speak on a subject that 
is of great concern to me and to many Americans.
    The name ``NASA'' is a household word. Yet, many overlook 
the first ``A'' in NASA. That ``A'' stands for aeronautics. The 
history of NASA is rooted in aeronautics and aeronautics 
research.
    There was a time when NASA was the world's leader in 
aeronautics research. Increasingly, though, over the past 
quarter century, NASA has focused more on its space initiative, 
and other nations have climbed into the lead in aeronautics 
research. Do not misunderstand me. I support NASA and its work 
in exploring the frontiers of space, but our military and our 
civilian travel on Planet Earth deserve fair consideration in 
funding in NASA's budget for aeronautics research.
    For instance, in the last several years, NASA's basic 
aeronautics research funding has declined steadily. Today, it 
is about 40 percent of what it was 4 years ago. The civil and 
military advantages brought about by 80 years of research and 
the dynamics of flight are now being scaled back at a time when 
we need to focus on aeronautics more than ever.
    The aeronautics segment of NASA's budget has long been a 
fraction of NASA's total budget. It has dropped by several 
hundred million in the past few years. Aeronautics research is 
critical to maintaining market lead and air superiority. The 
toll on our economy and on our national security of NASA's low 
priority on aeronautics research has already alarmed many of 
us.
    The crisis in our air transportation system--congestion, 
delays, cost, incursion, noise, and emission--is well known to 
most Americans. Without dedicated research and commitment, this 
is a situation which will only worsen with time.
    I am deeply concerned about the decline in the U.S. world 
aircraft market share. It was once 90 percent. Today, it 
approaches half of that. Likewise, I have a deep concern about 
our ability to sweep the skies with our military aircraft. Both 
of these concerns, which are shared by many, are affected 
directly by the extent of NASA's advanced research and 
technology programs.
    Let me reiterate, I do not oppose space exploration. 
However, I believe that the following questions should be asked 
about NASA's priorities and the consequences for our Nation and 
for the lives of many Americans in case little or no additional 
money is added to the request in the President's budget of 
$14.5 billion for NASA. Those questions are: With millions of 
Americans affected directly by accelerating problems associated 
with air travel, why has NASA reduced funding for basic 
aeronautical research by between 40 to 50 percent? Two, how 
will the huge cost overrun of the space program affect NASA's 
allocation of funds for aeronautics research? Three, should 
NASA be providing hundreds of millions of dollars in 
collaboration with Russia to train cosmonauts and to provide a 
safe, comfortable tourist destination for a few Americans when 
millions of average citizens are dealing with the costly, 
overwhelmed, hub-and-spoke air transportation system which is 
in serious need of NASA's research help? Does not NASA need to 
give more support to small aircraft transportation system 
research, which would have an enormous benefit to rural 
districts such as mine, all across America, thereby bringing 
access and economic development opportunities to rural America? 
Should NASA's budget allocation for advanced research and 
support of military applications be curtailed after many years 
of commitment and collaboration?
    In closing, Mr. Chairman and Members of the Subcommittee, 
thank you for your time, and I hope that NASA in the future can 
provide adequate aeronautical research that can help to make 
life in our own country safer and effective in terms of 
everyday air travel and business opportunities.
    Thank you.
    Senator Allen. Thank you, Congressman Goode.
    You posed some very good, tough questions, which I am sure 
the Subcommittee will want to address, and I hope you will 
address them on the House side as well.
    I know that you were down in Danville last week or fairly 
recently, the last 10 days, with some advancements as far as 
the airport there in Danville. I congratulate you and commend 
you for your important leadership for Southside, Virginia, but 
also with the advancements of aerospace and technology to 
improve job opportunities for folks in Southside, Virginia. So 
thank you for taking time to share your insight with us.
    Mr. Goode. Thank you, Mr. Chairman, and thank you for your 
help in Southside.
    Senator Allen. Thank you.
    Senator Warner had to start the Foreign Relations Committee 
meeting, and he will return. So I suggest that we just proceed 
with Panel I, which is a number-one panel, led by the Honorable 
Daniel S. Goldin, the Administrator of NASA, and Dr. Jerry 
Creedon, Director of Langley Research Center of NASA.
    If both gentlemen would please come forward.
    I would like to first proceed, of course, with our esteemed 
and beloved Administrator of NASA who has a very difficult 
task, but nevertheless has showed great wisdom and creativity 
in keeping NASA afloat and hopefully going to new heights. So 
we would first like to hear from you, Mr. Administrator.

      STATEMENT OF HON. DANIEL S. GOLDIN, ADMINISTRATOR, 
         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Goldin. Mr. Chairman and Members of the Subcommittee, 
in late May or early June of this year, the flight of the X-43 
will be, for the first time, a non-rocket engine that has 
powered a vehicle to hypersonic speeds. The concept of a scram 
jet has been around for decades. Yet, it has been technically 
infeasible until now.
    NASA is turning visionary possibilities into incredible 
realities. Unfortunately, this potential may go unrealized. 
U.S. aerospace is in trouble. Domestic investment in both 
technologies is low. Technology pull from the military has 
faded. Commercial markets are constrained and beginning to 
stagnate. Aviation, which was once value-priced, is now 
becoming a commodity.
    Foreign competition and capability are surging. The U.S. 
aviation system is reaching full capacity and delays are 
increasing. Evolutionary technology is not the solution. 
Companies that do not change will not survive. When the markets 
are constrained, opportunities arrive for revolutionary 
technologies to break through market barriers and create a new 
playing field. This is the history of innovation.
    It happened when semiconductors replaced vacuum tubes. It 
happened when airlines replaced railroads, and it will happen 
in aerospace. The question is: Will it be the United States or 
another Nation that succeeds?
    NASA's job is not to help industry compete at the margines 
of a constrained market. NASA's job is to enable a future that 
continues to meet the economic and security needs of our 
Nation.
    Here is our strategy. First, we will focus on aerospace 
technologies. We should not maintain separate technology 
efforts for both aeronautics and space.
    Second, we are focussing on the public good such as 
mobility, aviation safety, and noise reductions, not the 
maintenance of yesterday's industrial base.
    Third, we are focussing on revolutionary leapfrog 
technologies. Information technology, nanotechnology, and 
biologically inspired technology will be integrated into the 
traditional aerospace sciences to open up new pathways for 
innovation and American leadership worldwide.
    Fourth, we will develop a new era of engineering tools. An 
intuitive high confidence, highly networked engineering design 
environment will allow us to design from atoms to aerospace 
vehicles with higher quality and much shorter time spans.
    Fifth, we must inspire and train the next generation of 
scientists and engineers to unleash the incredible range of 
innovation and opportunity that is possible in future aerospace 
systems.
    Mr. Chairman, I might tell you, we have twice as many 
people over 60 as under 30 at NASA. It is chilling.
    So let me reiterate, we are not interested in yesterday. We 
are here to create tomorrow.
    Let us take a quick look at our vision. NASA and the FAA 
have a longstanding partnership to develop and transition 
advanced air traffic management technologies. As part of this 
partnership, NASA is developing 16 cutting-edge sensor and 
decision support technologies to increase capacity and overcome 
weather-related delays. If fully implemented, we believe we 
could increase capacity by 30 percent and reduce delays by 50 
percent in the next 7 to 8 years.
    We will continue to pursue this approach in the near term. 
However, within the next decade, even this increased capacity 
will be outstripped by rising demand. The long-term solution is 
the transition to a new revolutionary system. America has had 
the existing system for half-a-century.
    Today, about 80 percent of passenger traffic is handled by 
a little more than 1 percent of the Nation's airports.
    Plus, aerospace is under-utilized. We must increase the 
capacity of our Nation's airports, fully link all our airports 
to a more distributed system, and decrease the impact of bad 
weather. As a first step, NASA will pioneer high-fidelity 
modeling and simulation of the airspace system. It will provide 
in-depth understanding of how to implement new technologies and 
will support trace studies for new space system architectures 
and be a tool for this Subcommittee to help make decisions on 
future funding.
    NASA will ultimately provide the basis for an R&D and 
transition strategy. NASA will maintain its commitment to our 
investment for the public good in the near term. Our programs 
in aviation safety, quiet aircraft technology, and ultra-
efficient engine technology will provide key technology 
advancements, but we will transform our basic research efforts 
to pioneer a new era in aerospace. Future airframes and engines 
will rely on emerging technologies that build a system from the 
molecular or nanoscale, known as nanotechnology. Revolutionary 
carbon molecules have the promise to be 100 times stronger than 
steel and only one-sixth the weight. Our future materials will 
be intelligent with embedded sensors and actuators. Sensors 
like the nerves of a bird will measure the pressure over the 
entire surface of the wing and direct the response of the 
actuators, the muscles. The materials will be extremely 
flexible, allowing the wing to reform to optimal shapes, remain 
extremely resistant to damage, and potentially self-heal. The 
vehicles monitor their own performance, their environment, and 
their human operators for improved safety.
    The vision I have described is possible, and we at NASA are 
focusing our technology program on it and Mr. Creedon will 
present some more details of where we are going with the 
leadership at Langley.
    If we are successful, we will transition into an integrated 
air and space transportation system. The fleet of vehicles will 
be seamlessly spanned from personal aircraft to launch 
vehicles, and we will be back to value-pricing instead of 
commodity-pricing.
    I have a 74-second video which I think will describe 
exactly what we are doing. You may recognize the narrator.
    [Videotape presentation.]
    Mr. Goldin. Mr. Chairman, we are now working with the 
Department of Defense and Department of Transportation. We 
intend to have a blueprint available by September to help in 
the process for the 2003 and 2004 budget process. We will 
factor what we learn from this hearing into that planning, and 
we thank you for holding this historic hearing. It has been 
almost a decade since we have addressed the subject of 
aeronautics in this panel.
    [The prepared statement of Hon. Daniel S. Goldin follows:]
 Prepared Statement of Hon. Daniel S. Goldin, Administrator, National 
                  Aeronautics and Space Administration
    Mr. Chairman and Members of the Subcommittee:
    In late May or early June of this year, a B-52 that was designed in 
the early 1950s will take-off from Edwards Air Force Base in Southern 
California and head to a test range over the Pacific Ocean. Mounted 
underneath the starboard wing will be a Pegasus rocket that was 
designed in the 1980s. Fitted onto the Pegasus in place of the nosecone 
will be the X-43, a small experimental scramjet (supersonic combustible 
ramjet)-powered vehicle designed at the Langley Research Center in the 
mid-1990s. Over the test range, the B-52 will drop the Pegasus, which 
will fire its rocket engine and accelerate to Mach 7. At that point, if 
all goes well, explosive bolts will fire and a ram will push the X-43 
into free flight. Shortly thereafter, its scramjet will ignite and we 
will receive combustion data for ten seconds. When its fuel is spent, 
the X-43 will continue on its flight path before plunging into the 
Pacific Ocean.
    Flight of the X-43 vehicles will be the culmination of over 20 
years of scramjet research and the first time a non-rocket engine has 
powered a vehicle at hypersonic speeds. And while the concept of a 
scramjet engine has been around for decades--nearly as long as the B-52 
that is carrying it to the test range--it has not been technically 
feasible until now. The talent and vision of the people at our NASA 
Research Centers are making it feasible, turning visionary 
possibilities into incredible realities. NASA's job is to envision the 
future and make it a reality. This is our history and it is our future.
    I am confident, even excited about the future we can create. It is 
incredible and I will describe it to you. Dr. Creedon and I will 
explain how these exciting possibilities can be made reality through 
revolutionary technologies we are working on today. But let me be very 
clear, the aerospace industry is facing serious challenges, our air and 
space transportation systems are constrained and not meeting the needs 
of our society, and NASA must transform itself to lead the transition 
to this new future by managing within the resources provided to us by 
the American people.
                      the importance of aerospace
    First, let me discuss why aerospace is so important. Aerospace is 
critical to National security, transportation mobility and freedom, and 
quality of life. Air superiority and the ability to globally deploy our 
forces are vital to the National interest. The role of air power in 
winning the Gulf War is a clear reminder of the importance of aircraft 
in major conflicts. Aviation is a unique, indispensable part of our 
Nation's transportation system, providing unequaled speed and distance, 
mobility and freedom of movement for our Nation. Air carriers enplane 
over 600 million passengers and fly over 600 billion passenger miles, 
accounting for 25 percent of all individual trips over 500 miles, 50 
percent over 1000 miles and 75 percent over 2000 miles. Air freight 
carries 27 percent of the value of the Nation's exports and imports and 
is growing at over ten percent annually. Global communications, 
commerce and tourism have driven international growth in aviation to 
five to six percent annually, well beyond annual Gross Domestic Product 
(GDP) growth.
    Aviation employs 800,000 Americans in high quality jobs, second 
only to trucking in the transportation sector. Driven by technology, 
annual growth in aviation labor productivity over the past 40 years has 
averaged 4.6 percent, compared to two percent for U.S. industry as a 
whole. For example, technological advances over the past 40 years, many 
of them first pioneered by NASA, have enabled a ten-fold improvement in 
aviation safety, a doubling of fuel efficiency with reductions in 
emissions per operation, a 50 percent reduction in cost and an order of 
magnitude reduction in noise.
    Aviation manufacturing is a consistent net exporter, adding tens of 
billions of dollars annually to the Nation's balance of trade. Aviation 
produces and uses a broad base of technologies--from computing and 
simulation to advanced materials--supporting the high technology 
industrial base of the country. Defense aviation provides fast, 
flexible force projection for the U.S. Our military aircraft are 
unparalleled globally because they employ the most advanced technology.
    Aviation is central to personal freedom, security of the citizenry 
and the global movement of people and goods in the new economy. 
Mobility is a prerequisite for freedom. The ability to move freely and 
efficiently from place to place is a right highly valued by U.S. 
citizens. Mobility requires transportation that is inherently safe, 
available on-demand, and affordable. National security and the economic 
health of the country are heavily dependent on aerospace systems.
    The U.S. is the global leader in aviation. From every aspect--
technology, products, services, aviation standards and procedures, and 
National defense--the U.S. sets the mark.
                    the aerospace environment today
    Sustaining our leadership and the National benefits we derive from 
it is far from assured. Both military aerospace research and 
development (R&D) and procurement have declined, reducing the 
``technology pull'' from the military sector. In past decades, the 
primary motivation for advances in aerospace technologies was dominated 
by military needs. The partnership among NASA, Department of Defense 
(DoD) and industry rapidly advanced, matured and integrated aerospace 
technologies. These technologies were then appropriated for commercial 
use, with great success. Examples of this process abound. The turbine 
engine introduced on the B-707 was originally designed for military 
aircraft. The Pratt & Whitney J-57 and the General Electric J-79 
engines were also originally developed for military use before leading 
to commercial derivatives. Beyond this, Boeing's Model 367-80, the 
``Dash 80,'' was the prototype for both the KC-135 military tanker and 
the Boeing 707. In the mid-1960s, the U.S. Air Force initiated work 
that led to the C-5A military transport. Shortly thereafter, the 
companies in competition to develop the transport all introduced wide 
body civil transports--the Boeing 747, McDonnell Douglas DC-10 and the 
Lockheed L-1011. In an additional significant development, 
revolutionary fly-by-wire flight controls were developed and first 
adopted for U.S. military aircraft and the Space Shuttle, and Boeing is 
now incorporating fly-by-wire into its newest commercial aircraft.
    Although the increasingly competitive marketplace demands an 
accelerating pace of technological innovation, the opportunity for 
commercial industry to draw on defense-related R&D is decreasing. The 
military aerospace sector is a much smaller share of the overall 
aerospace market. Furthermore, recent military spending has been 
focused more on sustaining the current fleet and less on research and 
technology. According to the Aerospace Industries Association, in 1971, 
the military accounted for 55 percent of the overall market and by 1998 
it was down to 31 percent. For turbojet engines, the decline is even 
more dramatic. For example, General Electric Aircraft Engines shifted 
from 70 percent of their business being military to about 20 percent. 
And for Pratt & Whitney the situation is very similar.
    Furthermore, during the 1950s, there were 45 aircraft development 
programs--during the 1990s, there were only six. Far fewer developments 
with protracted design and acquisition schedules--an 80 percent 
increase in the development time for major DoD systems from 5.2 years 
during 1965-69 to 9.3 years during 1990-94--are the result of 
increasing system complexity and inefficiencies in design, development 
and manufacturing. With fewer aircraft developments, there are fewer 
opportunities for the Nation's declining engineering workforce and 
experience base to develop design and production skills, crucial in 
light of the increasing system complexity. A sharp decline in the 
enrollment in our universities' aerospace engineering departments has 
paralleled this decline in aircraft development programs. The National 
Science Foundation reported that between 1992 and 1997 enrollment 
dropped by 25 percent, and while there has been a slight upturn since, 
this decline further exacerbated the loss of engineering talent.
    The market shift from the military to the commercial sector as the 
major buyer of aerospace products dictates a corresponding shift in R&D 
strategy. Industry consolidation--from 25 aerospace corporations two 
decades ago to four today--has contributed to the substantial reduction 
in the infrastructure that supports aerospace research and technology. 
R&D in the aerospace industry is typically in the range of three to 
five percent of sales. Much is focused on evolutionary product 
development. This contrasts with other industries. For example, in 
1999, the pharmaceutical industry invested 10.5 percent of its sales in 
R&D and the computer industry invested 26.3 percent of sales. 
Therefore, at NASA, we shifted our technology development toward 
revolutionary long-term, high-risk civil needs, while maintaining 
strong partnerships with DoD and industry to ensure the sharing and 
application of technologies across military and commercial 
requirements.
    Commercial markets are projected to be extremely large over the 
next decade. These projections are based on the assumption that the 
current aviation system can support unconstrained growth. But, just as 
the Nation (and the world) becomes more dependent on moving people and 
goods faster and more efficiently via air, important obstacles have 
emerged. The air traffic and airport systems in both the U.S. and 
overseas are reaching full capacity. Delays are increasing. Experts 
agree that the congestion and delay problems experienced throughout the 
U.S. last summer will only get worse unless drastic action is taken. 
Each year, airlines must add more ``padding'' to their schedules to 
maintain on-time performance and the integrity of their scheduling 
systems, while facing more congestion in the system. At the same time, 
legitimate concerns over environmental issues (e.g., noise and 
emissions) are preventing additions to physical capacity. In 1998, 
airline delays in the U.S. cost industry and passengers $4.5 billion--
the equivalent of a 7 percent tax on every dollar collected by all the 
domestic airlines combined. With demand projected to double over the 
next decade, NASA estimates, based on a computer model of operations at 
the Nation's top 64 airports (80 percent of enplanements), that in the 
absence of change, annual delay costs will grow to $13.8 billion by 
2007 and $47.9 billion by 2017. But growth in airport infrastructure 
that might offset this problem is not likely in the foreseeable future. 
Several key airports are unable to gain approval for projects to expand 
infrastructure because they are in non-attainment areas, where National 
objectives to reduce emissions have not been met. Therefore, we are 
seeing constraints to growth that could threaten the commercial 
prospects of our aerospace industry as well as impact the integrity of 
our transportation system.
    Beyond these numbers lies another serious problem. Because of the 
networked nature of air transportation, as the system gets closer to 
its capacity limits, it has less flexibility to deal with unexpected 
but inevitable events. When the system is operating at its limits, an 
isolated problem within the system, such as a thunderstorm, creates 
missed connections, severe delays and canceled flights that ripple 
throughout the system. This loss of flexibility to deal with unexpected 
events cuts to the heart of the National imperative to have a 
dependable transportation system.
    Today, these problems are even more acute than in the past. 
Shortfalls in capacity (i.e., airports, air traffic control and vehicle 
capability) and problems with the environment are not easily addressed 
in the private sector. The resulting delays, and noise and emissions 
pollution are not priced in the market place. These problems are termed 
``externalities'' since, unlike other costs, no market participant pays 
directly for them. As a result, the private sector has inadequate 
incentives to address the very real problems imposed by aviation on 
third parties. NASA is making progress in a number of programs, 
including Aviation Safety and Aviation Systems Capacity that directly 
address these externalities.
    As the long-haul jet transport has in effect become a commodity in 
the marketplace, commercial operating margins have become razor-thin. 
And, although the dollar value of the U.S. share of the world aerospace 
market has been increasing, from $84 billion in the mid-1980s to $114 
billion in the late-1990s, the U.S. share of the total market has been 
markedly declining. From about 70 percent in the mid-1980s, it is about 
50 percent today, in part because of the development of new programs 
overseas. Future market share could decline even further as European 
competition becomes more aggressive. The Aerospace Industries 
Association recently announced that the aerospace trade balance is down 
$14.8 billion, or almost 35 percent from the record high in 1998 of $41 
billion. This includes a drop of $6 billion in civil transport exports 
and a $2 billion increase in the imports of civil transports.
    America should not be lulled into the false security that the U.S. 
will continue to be the leader in aerospace. The Europeans have reached 
parity in civil transports, and have laid out a potential path to forge 
ahead of the U.S. The Japanese have shown significant interest in 
supersonic transports. If we lack the vision, we run the risk of: 
constraining our ability to meet the demands on our Nation's aviation 
system, losing the premier position of our civil industry, fighting 
battles with out-dated technology, and relying on foreign transports 
for our personal and business travel.
    Anyone who doubts this should read the European plan for 
aeronautics. The following is an excerpt from ``European Aeronautics: A 
Vision for 2020'':

          ``In 2020, European aeronautics is the world's number one. 
        Its companies are celebrated brands, renowned for the quality 
        of products that are winning more than 50% shares of world 
        markets for aircraft, engines and equipment. They enjoy the 
        considerable benefits flowing from Europe's fully integrated 
        single market, especially the access to efficient capital 
        markets and the ability to recruit from Europe's pool of well 
        educated and trained professionals. For the European 
        aeronautics industry, gradual realization of our ambitious 
        vision must be facilitated by an increase in public funding. 
        European aeronautics has grown and prospered with the support 
        of public funds and this support must continue if we are to 
        achieve our objective of global leadership. Although it is a 
        preliminary estimate, total funding required from all public 
        and private sources over the next 20 years could go beyond 100 
        billion Euro.''
                  a vision and strategy for the future
    Evolutionary technology is not the solution to these problems. The 
manufacturers and airlines that do not grasp the impact of constrained 
markets and revolutionary technologies will not survive. This is not 
meant to be a harsh criticism; it is simply reality. When markets are 
large and develop constraints, opportunities arise for new companies or 
companies that can reinvent themselves to utilize new, revolutionary 
technologies to breakthrough the market barriers and create a new 
playing field. This is the history of innovation in the United States. 
It happened when semiconductors replaced vacuum tubes. It happened when 
airlines replaced railroads. And it will happen in aerospace.
    In this environment, NASA's job is not to perpetuate the past and 
help industry better compete within a constrained market that does not 
meet National needs. NASA's job is to focus on the National good and 
enable a future that can continue to meet the needs of our Nation--for 
transportation, mobility, and security. That means pioneering 
revolutionary technologies that break through today's market barriers.
    But NASA has its own challenges. Like any Government agency, we are 
responsible to the taxpayer and seek the highest return with the 
resources we have available. For the past several years, NASA has had 
to live within a relatively flat budget. This has required hard 
decisions about research priorities. Since the mid-1990s, the hard 
decisions we made resulted in the cancellation of the High Speed 
Research Program, the Advanced Subsonics Technology Program, and, most 
recently, the Rotorcraft Program.
    In the case of High Speed Research, the program was cancelled on 
its merits. Our largest industrial partner, The Boeing Corporation, 
concluded that the program was not going to lead to a market-viable 
design and essentially canceled its investment. The facts are that the 
program was not addressing one of the most critical issues--supersonic 
flight over land. Without the technology to reduce the overpressure of 
the sonic boom, the vehicle would be limited to over water operation, 
restricting the market and limiting the viability of the aircraft.
    Additionally, jet noise reduction for take-off and landing 
operations was not going to meet the likely Stage 4 noise limits. While 
the vehicle would beat current Stage 3 limits by a reasonable margin, 
the vehicle would have to meet the ever more stringent noise rules. 
Moreover, to achieve the Stage 3 noise levels required large ``box 
car'' nozzles to diffuse the jet noise. These nozzles added weight and 
cost, further limiting the viability of the vehicle.
    So, while we were rightfully proud of the progress the program was 
making, we had to agree with Boeings conclusions. We made the hard 
decision to cancel the program.
    In the case of the Advanced Subsonics Technology Program, we took 
the program apart, cancelled the nearer-term elements and transitioned 
the longer-term, public good elements to other programs. In this way, 
we maintained our efforts in noise reduction, emissions reduction and 
aviation system capacity improvements.
    Most recently we canceled the Rotorcraft Program. It was cancelled 
because it was too near-term and not sufficiently focused on the 
advanced concepts that might allow vertical flight to play a critical 
role in our future air transportation system.
    I do not want anyone to conclude from this that these vehicle-
classes are not important or that NASA is not pursuing some research in 
these areas. For example, in the area of supersonics, we have developed 
a new partnership with DARPA to aggressively address the most 
significant challenges to sustained supersonic flight over land. Rather 
than a big, point-design program that characterized the High Speed 
Research Program, this is a pre-competitive study to address the core 
issues--efficiency, engine jet noise, sonic boom overpressure, and 
emissions. The approach is to consider revolutionary technologies that 
address the fundamental physics of these issues. Once we have a 
sufficiently explored a broad range of promising technologies, we'll 
work to develop and fund a more substantial industrial partnership.
    There are those that for the health of the industry want us to fund 
a multi-billion dollar initiative now. This may provide short-term gain 
to the industry, but that is not NASA's role. And I will not agree to 
that approach.
    Let me be crystal clear--we aren't going to look out the back 
window of the bus dreaming fond memories of the way things were. Fond 
memories do not get us to the future. Instead, we will be driving the 
bus--looking forward, making tough decisions and determining our 
future.
    So, let me describe our strategy for moving forward. First, we will 
focus on aerospace. We must solve the most critical problems across the 
board in aerospace--but do it once. We are not going to maintain 
separate technology efforts, in structures and materials for example, 
for both aeronautics and space.
    Second, we are focusing on the public good--not the maintenance of 
yesterday's industrial base. When we do this we create new 
opportunities. For example, NASA is focusing on the mobility of the 
U.S. people in our Small Aircraft Transportation System (SATS) program. 
Let me describe SATS. Over 90 percent of the U.S. population lives 
within 30 miles of an airport. However, most of the airports are small, 
non-towered and without radar surveillance. We also do not have a very 
small, smart, safe and efficient fleet of aircraft to use this network 
of airports. In other words, most of the U.S. airport infrastructure 
falls outside the modern air transportation system. But this does not 
have to be the case. Utilizing GPS, a relatively inexpensive suite of 
electronics and sophisticated software we can turn these ``dumb'' 
airports into ``smart'' airports that would allow them to actually 
leapfrog into a new era of intelligent, flexible airport facilities. It 
is also possible to enable a new generation of aircraft that can 
support this network of intelligent small airports. The first steps 
down this path are being made by new companies like Eclipse Aviation 
using NASA technologies to produce inexpensive, safe small jets that 
will provide air taxi service point-to-point to small airports. The 
SATS program is focused on enabling this future. So, in focusing and 
innovating on mobility NASA is creating new opportunities for U.S. 
industry and we are already seeing new companies being formed. The 
future is unfolding before us if we choose to look.
    Third, we are focusing on revolutionary ``leap-frog'' 
technologies--this means integrating radical new technologies such as 
information technology, nano-technology and biologically-inspired 
technologies into the traditional aerospace sciences to open up new 
pathways for innovation. For example, we can now envision a wing that 
``morphs'' its shape, a structure that heals itself, and a control 
system that senses and controls its own operation down to the molecular 
level.
    Fourth, we will develop a new era of engineering tools and 
processes. Assured safety, high mission confidence, fast development 
times, and efficiency in developing revolutionary aerospace systems 
must become the benchmarks of our future engineering culture. To meet 
these needs, NASA will develop the tools and system architecture to 
provide an intuitive, high-confidence, highly-networked engineering 
design environment. This interactive network will unleash the creative 
power of teams. Engineers and technologists, in collaboration with all 
mission or product team members, will redefine the way new vehicles or 
systems are developed. Designing from atoms into aerospace vehicles, 
engineering teams will have the ability to accurately understand all 
key aspects of its systems, its operating environment, and its mission 
before committing to a single piece of hardware or software. We will 
drive the design cycle time back down from the 9-plus years it takes 
today to 3 to 4 years while increasing the quality of design.
    Fifth, we must train the next generation of scientists and 
engineers. If we are to truly develop an entirely new approach to 
aerospace engineering and our aerospace transportation systems, we must 
motivate our students by focusing on the incredible range of innovation 
and opportunity that is possible and educate them so they can make it 
reality.
    So, let me reiterate--we're not interested in yesterday, we are 
here to create tomorrow. This is not your father's or your mother's 
NASA. So, even with a tight budget, we are reinvesting for the future. 
We have a vision for a 21st Century Aerospace Vehicle to focus our 
investments on the new functionality and performance enabled by the 
revolutionary technologies I described. We have augmented our Aviation 
Capacity Program to focus on new aviation system architectures and the 
sophisticated modeling and simulation required to support it. And we 
have consolidated efforts to create a new Computing, Information and 
Communication Technology Program to focus on more revolutionary 
information and nano-technologies and their application to aerospace 
systems.
    So, let me now describe what is possible when you focus on the 
issues of mobility and transportation and apply this new technology 
paradigm.
    Improving and Ultimately Revolutionizing Air Traffic Management--
While the addition of new airport infrastructure will be limited and 
costly, the existing system can be improved by leveraging technology 
advances in digital communications, precision navigation, and 
computers. Currently the FAA is replacing aging computer, display and 
navigation equipment in an effort to modernize the infrastructure upon 
which the ATC architecture operates. Within that architecture, air 
traffic controllers need improved computer aids to help them plan and 
manage air traffic more efficiently. As an example, through the FAA 
Free Flight Program, the FAA implemented the NASA developed Center-
TRACON Automation System (CTAS) at the world's busiest airport, Dallas-
Fort Worth, to support daily operations in all weather conditions, 24 
hours a day, 7 days a week. CTAS provides computer intelligence and 
graphical user interfaces to assist air traffic controllers in the 
efficient management and control of air traffic. The system has allowed 
a 10 percent increase in landing rate during critical traffic rushes. 
These improvements have translated into an estimated annual savings of 
$9M in operations cost.
    In fact, NASA and the FAA have a long-standing partnership on air 
traffic management systems. NASA uses its unique technical expertise 
and facilities to develop advanced air traffic decision support tools, 
improve training efficiency and cockpit safety through human factors 
research, and develop advanced communications, navigation and 
surveillance systems. The FAA defines system requirements and applies 
its operational expertise to ensure that the technically advanced 
airborne and ground equipment, software and procedures developed by 
NASA are operationally useful, efficient, safe and cost effective. The 
FAA performs complementary research in the application of new 
technologies in addressing airborne and ground-based communications, 
navigation, and surveillance needs and in new decision support tools 
for strategic management of the system.
    Overall, NASA is currently working on a suite of 16 technologies, 
of which CTAS is a subset, to improve gate-to-gate air traffic 
management to increase capacity and flexibility and to overcome airport 
capacity constraints due to weather. Most of these are Decision Support 
Tools that increase the efficiency of operations within the current 
infrastructure. And while these tools will add critical capacity and 
improved flexibility over the next several years, the capacity 
increases they provide will soon be outstripped by increasing demand. 
They will not fundamentally solve the capacity crisis, reverse the rise 
in delays or prevent the disruptive, chaotic behavior of the system.
    The remaining technologies that NASA is working on add new 
capability beyond the current system for the worst delay problem: 
airport delay in adverse weather. These technologies rely on 
transitioning to satellite-based surveillance and navigation utilizing 
the National Airspace System (NAS) implementation of DoD's Global 
Positioning System (GPS). This implementation is under development but 
has not yet been achieved for full system operation. A critical element 
of this deployment is implementing a Wide Area Augmentation System 
(WAAS) to ensure reliable signal availability over the entire U.S. 
Realistically, however, it will be several more years before the 
current issues associated with FAA's required WAAS can be solved. 
Therefore, this suite of tools will not be available until GPS/WAAS is 
available.
    NASA models indicate that these technologies fully implemented 
across the system would increase operational capacity by about 30 
percent and reduce future predicted delays by about 50 percent. 
However, we should note that full implementation of the entire suite of 
technologies is not within the scope of the FAA Free Flight Program.
    It is absolutely critical to aggressively pursue this approach in 
the near term. However, we must go beyond the near-term and achieve 
transition to a new system that is revolutionary in its scope and 
capacity. The current system structure, where most passengers and cargo 
are carried by tens of air carriers through tens of airports, must be 
revised to permit the continued long-term growth of the system. The 
thousands of airports distributed across this country are a true 
National asset that can be tapped with the right technology and the 
right Air Traffic Management (ATM) system. Also, ``airspace,'' one of 
the nation's most valuable national resources, is significantly 
underutilized due to the way it is managed and allocated. Therefore, 
the airspace architecture of the future must increase the capacity of 
the Nation's major airports, fully tie together all of our Nation's 
airports into a more distributed system, and create the freedom to fly 
in a safe, controlled environment throughout all of the airspace.
    One thing that will remain constant is that free market forces will 
drive the air transportation system. Therefore, the future system 
architecture must be flexible to respond to various transportation 
system possibilities, not constrain them. The airline industry must 
have the flexibility to move and expand operations to be responsive to 
transportation demands. This is the highest level guiding principle for 
the future ATM system. The next tier of system requirements are 
robustness (a system that can safely tolerate equipment failures and 
events such as severe weather) and scalability (the ATM system 
automatically scales with the traffic volume). One possibility for 
achieving scalability would be achieved by building the ATM system into 
the aircraft, so that as you add aircraft to the fleet the ATM system 
would automatically scale to accommodate them.
    The system will be built on global systems, such as GPS, to allow 
precision approach to every runway in the Nation without reliance on 
installing expensive ground-based equipment, such as Instrument Landing 
Systems at every airport. However, the robustness of the global 
communication, navigation and surveillance (CNS) systems must be such 
that the system can tolerate multiple failures and still be safe. This 
is a significant challenge upon which the new architecture depends.
    If we are successful at meeting the challenge of a robust global 
CNS, then with precise knowledge of position and trajectory known for 
every aircraft, it will no longer be necessary to restrict flying along 
predetermined ``corridors''. Optimal flight paths will be determined in 
advance and adjusted along the way for weather and other aircraft 
traffic. This fundamental shift will allow entirely new transportation 
models to occur. For example, with precision approach to every airport 
in the U.S. and a new generation of smart, efficient small aircraft, 
the current trend of small jet aircraft serving small communities in a 
point-to-point mode could be greatly extended.
    Airborne self-separation will become the dominant method of 
operation. Each aircraft will become capable of coordinating and 
avoiding traffic. They will have full knowledge of all aircraft in 
their area and will be able to coordinate through direct digital 
communication with other aircraft. The pilot will be able to look at 
his flight path at different scales--from a strategic view of the 
entire origin to destination route showing other aircraft and weather 
systems, to a tactical view showing the immediate surroundings and 
flight path over the next few minutes. Aircraft will employ synthetic 
vision--which uses advanced sensors, digital terrain databases, 
accurate geo-positioning, and digital processing--to provide a 
perfectly clear three dimensional picture of terrain, obstacles, 
runway, and traffic.
    By empowering the pilots to control their own flight paths, the 
system can operate at maximum efficiency and will change the role of 
the air traffic controller to more of an airspace manager who will 
manage the traffic flows and system demand. The air traffic ``manager'' 
will have a full three dimensional picture of all aspects of the 
airspace system. The highly compartmentalized ``sectorization'' of the 
airspace would be largely eliminated. Through direct interaction with 
the three dimensional, high-fidelity representation of the system, they 
will dynamically reconfigure the airspace based on weather systems, 
equipment failures, runway outages, or other real-time problems. 
Intelligent systems will provide expert support to such decision 
making. This real-time airspace redesign will be uplinked to aircraft 
to recompute flight trajectories. They will also manage the allocation 
of scarce resources, such as runways when there are conflicts that 
cannot be resolved between aircraft directly.
    Eventually, the entire system will be fully monitored for faults 
and other risks. The system will move from a paradigm of being 
``statistically safe'' to real-time knowledge of risk and safety. In 
addition, with pilots and air traffic managers having full data and 
situational awareness of the system, a new level of collaboration can 
occur allowing them to work in close partnership to correct anomalous 
situations.
    The future system will truly be ``revolutionary'' in scope and 
performance, but it must also be implemented in a mode that allows 
continuous safe operations to occur, even in the face of unpredicted 
events. In designing the future airspace system, a systems engineering 
approach must be used to define requirements, formulate total 
operational concepts, evaluate these operational concepts, and then 
launch goal-oriented technology activities to meet requirements and 
support the operational concept.
    This is an extremely complex problem. The system is dynamic and 
real-time. At the same time, system integrity is absolutely essential. 
It can not be turned off and it is highly interconnected. At the 
present time, we believe it will take a substantial public-private 
partnership to tackle such a large and difficult problem. And yet the 
payoff from a capacity, efficiency and safety perspective is absolutely 
enormous.
    A Revolution for Aerospace Vehicles.--Revolutionizing the airspace 
system alone is not enough. An entirely new level of vehicle 
efficiency, functionality and environmental compatibility must be 
achieved to meet the challenges of safety, noise, emissions and 
performance required in this new aviation system. The aircraft of the 
future will not be built from multiple, mechanically connected parts. 
The aircraft will have ``smart'' materials with embedded sensors and 
actuators. Sensors--like the ``nerves'' of a bird--will measure the 
pressure over the entire surface of the wing and direct the response of 
the actuators--the ``muscles.'' These actuators will smoothly change 
the shape of the wing for optimal flying conditions. The control 
surface will be integrated with, instead of an appendage of, the wing, 
as they are today. Intelligent systems made of these smart sensors, 
micro processors, and adaptive control systems will enable vehicles to 
monitor their own performance, their environment, and their human 
operators in order to avoid crashes, mishaps, and incidents. 
Distributed as a network throughout the structure they will provide the 
means for embedding a ``nervous system'' in the structure and 
stimulating it to create physical response and even change shape. They 
will also serve as the means for sensing any damage or impending 
failure long before it becomes a problem.
    These future structures rely on an emerging technology that builds 
the systems from the molecular, or nano-scale--known as nanotechnology. 
Revolutionary carbon nanotubes have the promise to be 100 times 
stronger than steel and only \1/6\ the weight. We are at the leading-
edge of this technology, transitioning from fundamental physics to 
building actual macroscopic materials. Much work remains to be 
accomplished. If we are successful, an aircraft made from this material 
could weigh as little as half a conventional aircraft manufactured with 
today's materials and be extremely flexible allowing the wing to re-
form to optimal shapes, remain extremely resistant to damage, and 
potentially ``self-heal.'' The high strength-to-weight ratio of these 
nano-materials could enable new vehicle designs that can withstand 
crashes and protect the passengers against injury.
    The application of high temperature nano-scale materials to 
aircraft engines may be equally dramatic. Through successful 
application of these advanced lightweight materials in combination with 
intelligent flow control and active cooling, thrust-to-weight ratio 
increases of up to 50 percent and fuel savings of 25 percent are 
possible for conventional engines. Further advances in integrating 
these technologies might result in novel engine concepts that simplify 
the highly, complex rotating turbomachinery. Other future concepts 
include alternative combustion approaches and the potential to move 
toward hybrid engines. Combined with intelligent engine control 
capability, such approaches may enable integrated internal flow 
management and combustion control. It also has the potential to 
integrate both the airframe and engine systems for unprecedented 
efficiency and directional control capability.
    To take full advantage of nano-materials, new computational tools 
using advances in information technology are required. Tools that take 
advantage of high-speed computing will enable us to develop large-scale 
models and simulations for the next generation of vehicles. High-
fidelity, collaborative, engineering environments with human interfaces 
will enable industry to accurately simulate an entire product life 
cycle, dramatically cutting development costs and schedules. The 
increasing performance demands and system complexity require new tools 
to adequately predict the risk and life cycle costs of new aircraft. 
New computing techniques and capabilities can be exploited to develop 
robust designs by capturing knowledge and identifying trends to 
anticipate problems and develop solutions during design rather than 
after development. These simulations require tools that deal with the 
increasing complexity of future systems and could offset the 
diminishing design team experience base in this country. No longer will 
we design the engine and airframe independently, but rather the 
computational tools could allow fully integrated vehicle-engine design, 
integrated health management, and management of the total vehicle air 
flow both inside the engine and outside the aircraft. These new 
integrated propulsion and vehicle technology advancements could not 
only optimize subsonic flight regimes, with twice the thrust-to-weight 
ratios, but also enable sustained supersonic flight with minimal impact 
due to sonic booms or other environmental concerns for both civilian 
and military applications.
    In the very long term, comparable advances in electrical energy 
storage and generation technology, such as fuel cells, could completely 
change the manner in which we propel aircraft. Future aircraft might be 
powered entirely electrically. In one concept, thrust may be produced 
by a fan driven by highly efficient, compact electric motors powered by 
advanced hydrogen-oxygen fuel cells. However, several significant 
technological issues must still be resolved to use hydrogen as a fuel, 
such as efficient generation and storage of hydrogen fuel and an 
adequate infrastructure necessary for delivering the fuel to vehicles. 
Success in this effort could end the Nation's dependence on foreign 
sources of energy for transportation. Revolutionary technologies such 
as these are prime areas for significant university involvement.
    If we are successful, what will the vehicle of the 21st Century 
look like? It will be radically different from the commercial transport 
of today whose basic configuration has not changed since the 
introduction of the Boeing 707 and turbojet engines in the late 1950s. 
The design flexibility that the revolution in materials and computing 
technologies provides could enable aircraft whose shape could change to 
meet a range of performance requirements, for example, range, 
maneuverability and radar cross-section. With new fuel cell power 
systems, zero emissions may be possible, and the only noise would be 
that generated by the air flowing over the vehicle. The wing shape may 
be changed during flight to control the vehicle, eliminating the need 
for flaps and conventional control surfaces and their associated drag, 
weight and complexity. These aircraft could be flown in an air 
transportation system with unparalleled safety that allows hassle-free, 
on-demand travel to any location. The beneficial variations are 
potentially limitless--truly revolutionizing air vehicles, not only 
commercial and military aircraft, but also personal air vehicles and 
the utilization of more of the 5400 airports thus providing service to 
small communities and rural regions that today do not have easy access 
to air travel.
                           the nasa challenge
    So, now I return to where I started. NASA's job is to envision the 
future and make it a reality--that is, to make the possible feasible. 
This is our history and our mission. It is about America's future. The 
vision I described is possible and we at NASA are focusing our 
technology program on it.
    We take this very seriously--we believe it is our responsibility 
and will do everything within the resources we are allocated to make it 
happen. I'm not here to claim this is easy or without risk. But the 
American people expect NASA to take that risk and be pioneers.
    We are taking the following actions. We must partner with the FAA 
and the Department of Transportation to improve and ultimately 
revolutionize air traffic management.--NASA is a key partner with the 
FAA in the future of the air transportation system. Through the unique 
talents and history of the Agency, we have become the National leader 
for research and technology for air traffic management. NASA is 
prepared to continue this leadership and to be a catalyst for positive 
change. We will also ensure a smooth hand-off through product 
development and certification. We will work with the FAA to get the 
maximum capacity out of the current system. We believe it is absolutely 
essential that the Nation take a long-term perspective and begin now to 
enable the high capacity, distributed system we need for the future. 
Within the next few weeks, FAA Administrator Jane Garvey and I will 
reaffirm this partnership in a joint letter to Secretary of 
Transportation Norm Mineta, who is providing bold leadership in 
addressing the challenge.
    We must invest our available resources in the revolutionary 
technologies that will enable this vision for aerospace vehicles.--The 
government's role is not to subsidize industry. However, it is 
unreasonable to expect the private sector to make the necessary high-
risk, long-term, decadal, investments to achieve the vision. Government 
will need to reinvest existing evolutionary aeronautics research and 
technology resources in the basic research necessary to enable a 21st 
Century aerospace vehicle. Government aerospace research will focus on 
public good and leap-frog technologies.
    We must strengthen our public-private partnership.--The 
reinvestment of evolutionary technologies to revolutionary technologies 
results in significant changes in NASA and will cause disruptions in 
our current partnerships. Therefore, we must restructure our 
partnerships to ensure appropriate cooperation and technology transfer. 
This is imperative if we are solve the problems, remove the constraints 
to growth and break through current market barriers.
    We must form partnerships with academia and the entrepreneurial 
sector to reverse the decline in expertise.--There is a looming crisis 
in U.S. expertise--from relatively inexperienced design teams to 
reductions in research and development to reduced enrollments at 
universities. Leadership is required to reverse this trend. We, in 
partnership with the academic community, must begin developing a new 
generation of scientists and engineers that blend traditional 
competencies, such as aerodynamics, material and structures, and 
guidance and controls, with the emerging competencies in 
nanotechnology, biotechnology and information technology. We must also 
develop the design tools and environments that will allow us to 
integrate fewer and more specialized scientists and engineers into 
effective teams capable of designing highly complex integrated 
aerospace systems. Very soon, we will establish several university 
engineering research centers to provide the environment and learning 
required for this next generation to be ready.
    We must identify the National facilities that support this vision 
and eliminate the rest.--Over the past several years many reviews have 
been performed relative to our National aeronautical facilities. There 
have been closures and changes. However, more needs to be done to avoid 
the perpetuation of marginal facilities through small, evolutionary 
change. We are optimistic that looking to the future and a 
revolutionary vision will provide the framework necessary to define the 
facilities, new and existing, integrated together with computational 
tools in virtual space will enable a new era in aerospace.
    Thank you, Mr. Chairman and Members of the Subcommittee. I commend 
you for taking on this issue, and appreciate the opportunity to testify 
today and describe our vision and the actions we are taking for the 
future of this Nation in aerospace technology.

    Senator Allen. Thank you, Mr. Administrator. We will have 
some questions, but we will first hear from Dr. Creedon.
    Dr. Creedon.

        STATEMENT OF DR. JEREMIAH F. CREEDON, DIRECTOR, 
           LANGLEY RESEARCH CENTER, NASA, HAMPTON, VA

    Mr. Creedon. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to speak today. The Administrator 
has provided a very challenging vision for air traffic 
management and a long-term vision for revolutionary vehicles. 
Our role at Langley and at the other NASA research centers is 
to turn these visions into reality. This is our role, and it is 
our heritage. Our mission is to take on long-term, high-risk, 
high-payoff challenges that are behind the risk limit or 
capability of industry, and to deliver validated technologies 
that meet these challenges.
    Today, I will describe three such technologies and make a 
comment on our budget. The scientists, engineers, and 
technicians at Langley have never been afraid to tackle 
problems thought to be too difficult to solve. An excellent 
example is wind shear, a phenomenon responsible for half of all 
aviation fatalities from 1975 to 1985.
    Wind shear is a spatially, very concentrated downward flow 
of air which, in effect, pushes aircraft into the ground. What 
makes wind shear especially hazardous is that there is often no 
visual clue of its presence. Langley, in cooperation with the 
FAA, undertook a program to develop a sensor that could look 
out ahead of the aircraft, detect a harmful wind shear, and 
enable the airplane crew to safely fly around the hazard. At 
that time, the general view was that this problem was 
technically too tough to be solved. It was certainly beyond the 
risk limit of commercial enterprises.
    Nevertheless, in a relatively short time, sensors were 
developed, and using NASA's Boeing 737 flying laboratory, the 
sensors successfully demonstrated the ability to detect wind 
shears and give the crew adequate warning.
    There are now 4,000 aircraft worldwide using this 
technology. This is an example of the payoff of the NASA 
research centers, a high-risk, high-payoff task, brought into 
everyday use. The point here is that we can accomplish very 
difficult technological tasks.
    I want to talk about noise reduction. The noise produced by 
commercial traffic landing in airports must be dramatically 
reduced if we are to meet the quality-of-life expectations of 
people living near these airports.
    Without going into specific technologies, I will use a map 
of the area around Chicago's O'Hare Airport to show the impact 
of the results achieved to date in our noise reduction program.
    The large blue area that you can see in this map represents 
the locations subjected to a level of outdoor noise exposure 
that exceeds the EPA standard for public health and welfare. 
Over 600,000 people live in this area.
    Our objective is to reduce the objectionable noise to 
within the airport boundary, an area indicated by the red dots 
near the center of the diagram. We have already made terrific 
progress. If every aircraft operating into O'Hare Airport was 
equipped with the technology we have already developed, the 
boundary of the objectionable noise would be reduced to the 
area shown in green, and over 400,000 fewer people would be 
subjected to this noise level. And that is just in Chicago.
    Much of what we do significantly improves the Nation's 
quality of life. The Administrator has called on us to create 
technology for revolutionary aerospace vehicles. If we can 
emulate the characteristics present in nature, then we will be 
able to develop the ability to achieve revolutionary civil and 
military aircraft. Rather than optimizing the vehicle shape for 
just one phase of flight, we could have an aircraft, such as 
was shown in the video that preceded my testimony, that could 
effectively and continuously change its shape to obtain optimal 
performance at all flight conditions.
    The visual shown here is an aircraft shape. The grid 
pattern represents locations where to obtain optimal 
performance, sensors, and actuators would be located, and the 
actuators, like the feathers on a bird, could be individually 
deployed.
    In the past several years, we have developed two types of 
piezoelectric actuators at Langley, actuators that could be 
used for the purpose of making these deflections. Each of these 
earn the prestigious IR-100 Award for being an outstanding new 
technology.
    We are now seeing a simulation of an actual flight of a 
vehicle of this type where the control is obtained just by 
using actuators like the one I talked about earlier to make 
little bumps that disturb the airflow at appropriate places on 
the wing. This film clip shows--and next year, we plan to test 
this out in that wind tunnel--that we are on the path to 
achieving the vision the Administrator described. Because we 
are on that path, revolutionary capability advances in civil 
and military aircraft are soon to follow.
    Let me close with a brief comment on the budget. We accept 
and support the budget the country has provided. Within that 
budget, we have tightened our belts. We are operating 
efficiently, and we have prioritized our efforts to pursue the 
highest-payoff items. We are accomplishing excellent high-
payoff research goals that will benefit the quality of life in 
the country through enhancements and safety, increases in 
airspace system capacity, reductions in noise and emissions, 
and through contributions to the preeminence of military 
aircraft.
    The resulting program represents a viable effort. Hearings 
such as this serve as a useful tool for increasing the 
understanding within the Congress and in the Nation of this 
very important subject.
    I am happy to have been able to contribute to the 
discussion. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Creedon follows:]
       Prepared Statement of Dr. Jeremiah F. Creedon, Director, 
                      NASA Langley Research Center
    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to speak about NASA's technology 
development in support of the bold new aeronautics vision outlined by 
our Administrator, Daniel Goldin.
    For the past 50 years we have been flying commercial transport 
aircraft that fairly closely resemble the Boeing 707, the first 
commercial jet transport, and we have been operating an air traffic 
control system based on centralized control concepts developed over 50 
years ago. Significant advancements have been made to improve the 
performance and efficiency of 20th Century aircraft and our national 
airspace system over these five decades. Despite these enhancements, 
the public expects better performance and better performance is 
required to maintain and improve their quality of life. Our citizens 
want to fly more often, go to more locations, arrive on time, and be 
assured of improved safety and security. Airport neighbors want reduced 
noise and emissions. Businesses need affordable, on-time, secure 
delivery of freight virtually anywhere in the world.
    Mr. Goldin has described both a bold new vision for the future of 
aeronautics in meeting these quality of life needs and a strategy for 
attaining this vision. He has presented a revolutionary approach to air 
traffic management and described a new perspective on revolutionary 
aerospace vehicles. The strategy he has set forth requires the 
simultaneous development of technologies to help improve the 
performance and safety of the existing aircraft and airspace traffic 
management system and technologies that achieve the longer-term visions 
he described.
    The mission of the people at the NASA Research Centers is to turn 
these visionary possibilities into realities. Today, I want to tell you 
about some of the exciting new aeronautical technologies being 
developed at NASA that support the Administrator's vision for what 
NASA's aeronautics research can contribute to the Nation.
    Langley Research Center (LaRC) is one of five NASA field centers 
providing the primary contributions to achieving the research goals of 
the Aerospace Technology Enterprise. Ames Research Center is focused on 
Information Technology, Glenn Research Center is focused on Power and 
Propulsion, Dryden Flight Research Center is focused on Flight 
Research, Marshall Space Flight Center is focused on Space Launch 
Vehicles, and Langley Research Center is focused on Aerospace Vehicle 
Technologies for atmospheric flight. While the areas listed are their 
primary focus, all of the Centers are engaged in a broad range of 
research activities that support the agency goals.
    I will concentrate on the research being done at Langley. The 
examples I will discuss are typical of the excellent work also being 
done at the other NASA Research Centers.
        langley research center contributions to quality of life
    As Director of the Langley Research Center, I am proud that our 
researchers are engaged in many research tasks that substantively 
contribute to the Nation's quality of life. They are studying the 
composition and evolution of Earth's atmosphere as an aid to 
policymakers, providing technologies for planetary exploration to 
extend the space frontier, working to reduce the cost of access to 
space, and helping assure the superiority of our military aircraft. The 
innovation inherent in Langley's efforts is underlined by the fact that 
the Center's researchers have been awarded over 200 patents in the last 
5 years and have received over 30 of the prestigious ``IR 100 Awards'' 
given annually by the Research and Development magazine as one of the 
one hundred most-significant new technical products of the year. We, at 
Langley, also ensure that the benefits of our research are shared with 
non-aerospace firms and have licensed almost sixty technologies in the 
last few years.
    The mission of the Langley research center is to take on long-term, 
high-risk, high-payoff technical aerospace challenges that are beyond 
the risk limit or capability of industry and to deliver validated 
technologies to address these challenges. The Administrator has 
provided a very challenging vision and our role at Langley and the 
other research centers is to turn it into reality. The vision he has 
articulated may seem very difficult to attain; however the scientists, 
engineers and technicians at Langley have never been afraid to tackle 
and master problems thought too difficult to solve and we welcome this 
challenge. An excellent example of this culture is seen in the Center's 
contributions to eliminating the impact of wind shear on aviation 
safety.
    Wind shear is a spatially very concentrated and often very intense 
downward flow of air. From 1965 to 1985 this phenomenon was the most 
significant single factor responsible for aviation fatalities. Langley, 
in conjunction with the FAA, undertook a program to develop a sensor 
that could look out ahead of the aircraft and detect a wind shear with 
enough advance notice to enable the crew to fly around the hazard. At 
that time, the general view was that this problem was technically too 
tough to be solved. It was certainly beyond the risk limit of 
commercial enterprises. Nevertheless, in a relatively short time, 
sensors were developed, and using NASA's B-737 flying laboratory, the 
ability to detect wind shears and give the crew adequate warning to 
safely fly around the hazard was successfully demonstrated. There are 
now 4,000 aircraft worldwide using this technology. This is an example 
of the payoff of the research performed at the NASA Research Centers--a 
high-risk, high-payoff accomplishment brought into everyday use.
    Military aircraft also directly benefit from our research. The F-18 
E/F production was threatened when the aircraft exhibited ``wing rock'' 
(a severe un-commanded roll maneuver of the aircraft) during flight 
tests. The solution to this problem was a ``porous wing fairing'' which 
had been conceived and validated by researchers at Langley. When the F-
18 E/F aircraft were retrofitted with this fairing, the ``wing rock'' 
was eliminated, thus avoiding a costly redesign or program 
cancellation.
                improving the air transportation system
    Anyone who travels by air knows that our national air 
transportation system is approaching gridlock. Flight delays totaling 
three million hours were recorded in 1996. Studies indicate that those 
delays will rise to over 9 million hours by 2007 and to 25 million 
hours by 2017. In FY 2000, the National Business Travel Association 
estimated the annual cost of delays at $5 billion with a loss of 1.5 
million work-hours. As time increasingly becomes the ``scarce 
commodity'' of the information age, the demand for aviation 
transportation is outpacing the capacity of today's hub-and-spoke 
system. Thus, when speed is at a premium, the nation's doorstep-to-
destination travel speeds are getting worse, not better.
    In accordance with the strategy expressed by the Administrator, 
research efforts at NASA are simultaneously addressing improvements to 
the existing system as well as trying to provide breakthrough system 
concepts that will change the air traffic management paradigm. Two 
technological improvements to the existing system are related to 
reducing the capacity-limiting aspects of wake vortices, and improving 
the capacity of airports in conditions of poor visibility.
    Wingtip vortices--the turbulent wakes generated by an aircraft--can 
cause a loss of control by an airplane following too closely behind the 
aircraft generating the wake. A recent successful demonstration showed 
NASA's ability to predict both the strength and decay characteristics 
of aircraft wing tip vortices created during take-offs and landings. 
When this improved knowledge of wake vortex characteristics has been 
demonstrated to the level of certainty required for daily use in the 
air traffic management system, the spacing between aircraft can be 
safely reduced and capacity increased. Studies have shown that peak 
airport capacities could be increased between 6 percent and 12 percent 
depending on the specific mix of aircraft types at a given airport. 
This level of capacity increase is significant because of the 
leveraging effect between capacity changes and delays. When a system is 
operating near saturation, small changes in capacity result in very 
large changes in delay.
    Many of the nation's busiest airports have closely spaced parallel 
runways. Under clear weather conditions aircraft using these runways 
can operate independently. As visibility decreases, aircraft cannot be 
seen well enough to ensure there will be no conflicts as a result of 
one of the aircraft departing from its appropriate flight path. In this 
situation, safety requirements demand controllers stagger the positions 
of aircraft operating on parallel runways. In some cases, operations 
using one of the runways are eliminated entirely. In either case, 
capacity is reduced. NASA's B-757 was used to demonstrate the technical 
feasibility of a system in each aircraft that senses the precise 
location of neighboring aircraft approaching on the closely spaced 
runways and issues appropriate warnings or evasive maneuver 
instructions to the flight crew as warranted by safety considerations. 
With this Airborne Information for Lateral Spacing technology in place, 
the reduction in capacity can be safely avoided.
    The Ames Research Center has conceived, developed, and deployed 
many software support tools to aid air traffic controllers in obtaining 
improved capacity and traffic handling performance. These tools assist 
controllers in providing efficient runway surface operations and runway 
use, scheduling and metering aircraft into terminal areas at a rate 
that equals airport capacity, and sequencing and spacing arriving and 
departing traffic. They have been deployed and evaluated in the 
existing air traffic management system and have provided excellent 
support to the controllers in organizing and efficiently controlling 
the flow of aircraft. The tools are now being readied for more 
widespread application.
    In addition to these improvements in the capacity of the existing 
Air Traffic Management System, we are participating in developing a 
breakthrough approach to provide enhanced mobility by utilizing this 
country's more than 5000 public use airports.
              small aircraft transportation system (sats)
    The past 7 years of investment by NASA in small aircraft 
technologies coupled with changes in liability legislation have led to 
the emergence of a new generation of small aircraft. The NASA 
contributions to this new generation of safe and affordable aircraft 
were made through the Advanced General Aviation Transport Experiments 
(AGATE) Alliance and the General Aviation Propulsion (GAP) Program. The 
technologies developed, coupled with the Generation Aviation 
Revitalization Act of 1994 and with burgeoning market demand, have 
supported a dramatic industrial recovery over the past 5 years (1995-
2000). The combined impact of these factors has resulted in more than a 
300 percent growth in aircraft deliveries, more than a 350 percent 
growth in industry billings, over 20 percent improvement in fleet 
safety, recovery to about 20 percent of export deliveries, with about 
10 percent annual growth of jobs in this sector.
    New aircraft currently going into production have greatly benefited 
from NASA research. The aircraft include twin turbofan-powered, four- 
to six-place pressurized aircraft, and several new single-engine 
aircraft. These new aircraft possess near-all-weather operating 
capabilities and are compatible with the modernization of the National 
Airspace System. However, these new aircraft will not make the new 
transportation innovation fully available to the general public unless 
new concepts for airspace architecture and operations can be developed.
    Fortunately, more than 98 percent of the U.S. population lives 
within a 30-minute drive of one of the over 5,000 public-use landing 
facilities. This infrastructure is an untapped national resource for 
mobility. The concept of a Small Aircraft Transportation System (SATS) 
offers a safe travel alternative, freeing people and products from 
transportation delays by creating access to more communities in less 
time. SATS is based on a new generation of affordable small aircraft 
operating in a fully distributed system of small airports serving 
thousands of suburban, rural, and remote communities. The safe, 
efficient utilization of smaller aircraft and smaller airports can 
provide a revolution in community accessibility and in public mobility. 
The system of enabling technologies can be developed and integrated to 
give the nation near-all-weather access to virtually every runway of 
these public-use facilities.
    Today, small aircraft operating in airspace typical of small 
community airports are limited to ``one-in, one-out'' in low-visibility 
conditions. Air traffic controllers limit only one aircraft at a time 
in the airport vicinity due to the lack of both radar coverage and 
reliable communications. The SATS concept integrates high bandwidth 
wireless communications and Global Positioning System (GPS) 
technologies to enable multiple aircraft to land and takeoff at 
community airports. This capability will exist even under reduced 
visibility weather conditions, and without the need for expensive 
control towers and ground-based radar systems.
    NASA is working with the FAA, industry, universities, and state and 
local governments to demonstrate the SATS concept. Once this concept is 
proven, we can work cooperatively with state and local governments to 
transition this capability across the nation to benefit all of our 
citizens. SATS technologies have the potential of reducing inter-city 
travel times by half in many markets, while increasing ten-fold the 
number of communities served by air transportation.
           improving safety in the air transportation system
    The worldwide commercial aviation major accident rate (as judged by 
hull losses per million departures) has been nearly constant over the 
past three decades. Although the rate is very low, increasing traffic 
over the years has resulted in the absolute number of accidents also 
increasing. The worldwide demand for air travel is expected to increase 
even further over the coming 2 decades--doubling or tripling by 2017 
with the estimated requirement for up to $1 trillion in new aircraft 
deliveries. Without an improvement in the accident rate, such a traffic 
volume could lead to 50 or more major accidents a year--a nearly weekly 
occurrence. Given the very visible, damaging, and tragic effects of 
even a single major accident, this large number of accidents would 
clearly have an unacceptable impact upon the public's confidence in the 
aviation system and impede the anticipated growth of the commercial 
air-travel market. The safety of the general aviation (GA) system is 
also critically important. The current GA accident rate is many times 
greater than that of scheduled commercial transport operations. With 
the GA market also poised to grow significantly in future years, safety 
considerations must be removed as a barrier if this growth is to be 
realized.
    As is the case in system capacity, NASA has ongoing research in 
safety enhancing technologies for nearer term application in the 
existing air traffic system as well as more revolutionary technologies 
for improving safety. In the last calendar year, LaRC demonstrated 
several capacity and safety related technologies at the Dallas Fort 
Worth (DFW) airport.
    Runway incursions, which are conditions where two aircraft are 
operating on the same runway, are a growing national concern. 
Incursions have more than doubled over the past 6 years. Last year, we 
saw a new high of 429 recorded runway incursion incidents. A technology 
demonstration in October 2000, at the Dallas Fort Worth Airport, 
illustrated new methods to eliminate two-thirds of these incursions, 
specifically those caused by pilot errors. If made reliable enough to 
warrant installation on aircraft, these methods would allow the crew to 
positively and independently verify which runway they were on and 
indicate the presence of any other aircraft either on, or about to use, 
that runway. This capability would go a long way to eliminate the 
serious threat of, and the tragedy resulting from runway incursion 
accidents.
    A more revolutionary approach to improving safety involves 
providing a synthetic vision system for the pilot. Limited visibility 
leading to controlled flight into terrain is one of the greatest 
contributing factors in fatal airline and general aviation crashes. 
Last October, again using NASA's B-757, an early version of a synthetic 
vision system was demonstrated at the Dallas Fort Worth Airport. This 
type of system would use terrain data maps and, eventually, fog-cutting 
sensors to give the crew a clear-weather view of the world outside the 
cockpit no matter what the weather or time of day and thus eliminate 
controlled flight into terrain accidents. One evaluation pilot 
commented during a demonstration flight, ``The terrain picture--the 
synthetic vision display--is just terrific. I find myself forgetting 
that that's not the real world I'm looking at.'' While a significant 
amount of effort is still required to make these systems a reality, 
they do represent a breakthrough for safe flying.
                             reducing noise
    The projected increase in demand for air travel, coupled with our 
citizens' quality of life expectations require significantly improved 
aircraft noise reduction technologies. NASA's noise reduction program 
is focusing on three technical areas: engines, airframes such as 
landing gear and flaps, and aircraft operations. Major strides have 
been made in new approaches to reducing engine noise.
    Not long ago, during the 1990s, as research limiting engine noise 
was being accomplished, airframe noise, the noise that the airframe 
itself makes as it moves through the air, was thought to be a barrier 
that would limit further overall aircraft noise reduction progress. 
Researchers at Langley and Ames took up this very difficult challenge, 
developed an understanding of the fundamental flow characteristics 
leading to the generation of airframe noise, and are now able to 
identify design modifications to substantially reduce airframe noise.
    We have made significant progress, but public expectations are 
high, and our job is not done. NASA's ultimate goal is to develop 
technology to contain all objectionable noise within the airport 
boundaries. In this way we can achieve our citizens' expectations for 
their quality of life, for quiet neighborhoods and homes. Containing 
objectionable noise within the airport boundary will also enable the 
projected demand-driven increases for air travel to allow our citizens 
full access to all of the goods and services provided by our air 
transportation system.
           revolutionary new vehicles for a new era in flight
    Revolutionizing the airspace system alone is not enough. To meet 
the challenges of safety, noise, emissions and performance an entirely 
new level of vehicle efficiency, functionality and environmental 
compatibility must be achieved.
    We stand at a unique time in technology evolution--a time where 
numerous advanced technologies have been developed or are on the 
horizon that will break the current ``tube with wings'' shape paradigm 
for aircraft. The significant advances in biotechnology, 
nanotechnology, and information technology are opening the door to a 
new era in aircraft development resulting in designs that will be 
radically different from today's aircraft. The continued viability of 
aviation is not through evolutionary or near-term approaches alone, but 
through development of revolutionary advances utilizing these emerging 
technologies.
    As Mr. Goldin has pointed out, the aircraft of the future will not 
be built of traditional, multiple, mechanically-connected parts and 
systems. Instead, aircraft wing construction will employ fully 
integrated, embedded, ``smart'' materials and actuators that will 
operate more like a bird's wing. If we can emulate the characteristics 
present in nature, then we will be able to use these characteristics to 
develop revolutionary civil and military aircraft.
    Rather than optimizing the vehicle shape for just one phase of 
flight (perhaps with some mechanical motion to achieve enhanced 
performance at a limited number of other conditions) we could have an 
aircraft which, like a bird, constantly changes its shape to achieve 
optimal performance at all flight conditions. Able to respond to the 
constantly varying conditions of flight, sensors will act like the 
``nerves'' in a bird's wing and will measure the pressure over the 
entire surface of the wing. The response to these measurements will 
direct actuators, which will function like the bird's wing ``muscles''. 
Just as a bird instinctively uses different feathers on its' wings to 
control its' flight, the actuators will change the shape of the 
aircraft's wings to continuously optimize flying conditions.
    Intelligent systems composed of sensors, actuators, 
microprocessors, and adaptive or neural controls will provide an 
effective ``central nervous system'' for stimulating the structure to 
effect an adaptive ``physical response.'' The central nervous system 
will provide many advantages over current technologies. Proposed 21st 
Century aerospace vehicles will be able to monitor their own 
environment, performance, and even their operators in order to improve 
fuel efficiency, minimize airframe noise, and enhance safety. They will 
also have systems that will provide safe takeoffs and landings from 
short airfields enabling access to this country's more than 5,400 
rural/regional airports.
    Researchers at NASA Langley Research Center are exploring these 
advanced vehicle concepts and revolutionary new technologies.
                 new materials, actuators, and sensors
    Langley Research Center has made pioneering contributions in 
composite technology development. We have recently initiated research 
activities on the development of nanostructured and biologically 
inspired material concepts. These new classes of materials have the 
potential to mimic the attractive attributes of biological systems 
including self-assembly, self-diagnostics, self-repair, and multi-
functionality. The emergence of computational material analysis 
capabilities will give engineers the ability to design materials to 
achieve the desired functionality leading to ultra-lightweight, 
structurally efficient aerospace vehicles. Using physics-based computer 
simulations, Langley researchers have shown that carbon nanotube 
reinforced composites have the potential to be three times stronger and 
four times stiffer than even the composite materials used on aircraft 
such as the B-2 stealth bomber and the Boeing 777. Such new materials 
could reduce the vehicle structural weight by about 50 percent and the 
required fuel by about 25 percent. The gains in a next generation 
reusable launch vehicle would be even more dramatic because the new 
nanotube reinforced composite material would be replacing conventional 
aluminum. In this case the predicted vehicle dry weight could be 
reduced by a factor of four. These materials are an enabling technology 
for developing a single stage to orbit reusable launch vehicle, which 
is essential in achieving the goal of reducing space launch cost by an 
order of magnitude.
    All flying vehicles rely heavily on effective sensing systems to 
ensure the safety and control of the vehicle. Thus far we have 
developed fiber optic sensors that can be embedded throughout large 
areas of the aircraft skin for health monitoring. Recent breakthroughs 
in this sensing technology has allowed us to put hundreds of sensors on 
a single optical fiber and sense a spectrum of stimuli including 
temperature, loads, and the presence of hazardous chemicals. These 
fiber optic sensors have been deployed on several large structures 
including X-33 prototype cryotanks and full scale wing box test 
structures. For a recent wing box load test 3000 fiber optic strain 
sensors on only four optical fibers were used to provide high-density 
strain data over a large area with negligible weight penalty. Thus we 
are able to reduce the weight and complexity of sensing systems while 
increasing the number of places on the vehicle we can make 
measurements. We have also designed fault tolerant systems that are 
impervious to electromagnetic interference. These technology advances 
are poised for integration into an advance aircraft control system that 
mimics the human central nervous system. In addressing our future 
vision, we are developing concepts that will combine these technologies 
into an advanced control system that can respond to sensed stimuli and 
seamlessly adapt the vehicle to unexpected flight conditions.
    In addition to sensing systems, aerospace vehicles also rely upon 
actuators for vehicle control. Langley researchers have used smart 
materials to develop embeddable actuators that can be used to control 
aerodynamic and structural motion. Two such actuators ``Thunder'' and 
the ``MicroFiberComposite'' actuators have won IR 100 awards. In the 
area of innovative structural control, we expanded the performance 
envelope of engines by developing structural concepts that change shape 
using advanced smart metals to reduce fuel burn and cost. We have also 
used Langley developed piezoelectric materials to control vibration on 
an F-18 model resulting in increased service life and reduced cost. For 
the future we are currently developing new smart materials that can be 
used to control and move the aircraft structure on command to 
continually optimize performance throughout flight.
                        aerodynamic performance
    To improve aerodynamic efficiency Langley engineers have conceived 
and demonstrated concepts for ``porous'' wings and small riblets on 
wing skins to dramatically reduce drag and improve performance. We have 
conceived new innovative concepts that allow us to effectively re-shape 
the wing of an airplane using micro devices to create a virtual new 
wing shape--one formed by both air flow and hardware. This micro-flow-
control technology can improve the performance of aircraft engines, 
wings, and tails.
    Langley has pioneered research in microflow control technology. 
Riblets are micro-grooves on a surface, which when aligned with the 
flow, can reduce the skin friction drag. This technology was flight-
verified for a 6 percent reduction in skin friction drag. Another 
technology called Passive porosity allows the skin to breathe and 
redistributes the pressure field to potentially control flow separation 
for improved maneuvering capability. The U.S. Navy used this technique 
on the F-18E/F to solve its' wing drop phenomenon. Micro-vortex 
generators (MVG's) are small wing surface devices that energize the 
flow near the surface to help prevent flow separation. Test results 
showed that MVG's dramatically enhanced aerodynamic performance 
including a 10-percent increase in lift, 50-percent decrease in drag, 
and a 100-percent increase in lift-to-drag ratio. During flight tests 
conducted in 1996 and 1997 by Gulfstream, the micro-vortex generators 
outperformed conventional vortex generators, and Gulfstream now 
incorporates MVG's on the outboard upper surfaces of its' airplane 
wings for enhanced cruise performance. With the MVGs installed, the 
Gulfstream V was able to achieve a higher maximum cruise speed, extend 
its operational range capability, and exhibit better controllability. 
The Gulfstream V aircraft has set numerous domestic and world speed and 
performance records and was named the winner of the 1997 Collier Trophy 
presented by the National Aeronautic Association.
    New technologies are currently being pursued in active microflow 
control. Microactive flow control is a very multi-disciplinary 
integration of technologies including advanced aerodynamics, smart 
materials, advanced structural integration, and new system control 
theory. In the past flow control has utilized steady actuation 
techniques such as steady blowing or suction. Further advances are 
possible by utilizing pulsed or unsteady actuation devices. Unsteady 
devices allow aerodynamicists to accomplish the same performance 
benefits as steady devices at two orders of magnitude less energy 
consumption. An example of an active flow-control device is the 
synthetic jet, a device that acts like a tiny electrically driven pump. 
It consists of a vibrating membrane placed in a chamber below the wing 
surface. These devices can be very small and operate on the micro-
scales of the vehicle to achieve macro-scale results. As an enabling 
technology, active flow control technology benefits have not yet been 
fully explored. Langley is considering a variety of areas to apply 
these technologies to enable vehicles such as that portrayed in the 
NASA vision. These include active flow control in engine inlets to 
improve efficiency and reduce noise, new concepts for pneumatic flaps 
or ailerons to eliminate the need for existing high-lift or flight 
control surfaces. Other applications include drag reduction concepts, 
noise reduction concepts, and flight-maneuverability concepts.
                           high speed flight
    The value of time as a commodity is also evident in air travel over 
long distances. Intercontinental travel at current commercial transport 
speeds can be grueling and potentially unhealthy. The investments made 
to date by the U.S. government and industry have made the dream of a 
environmentally acceptable, economically viable supersonic aircraft 
nearly a reality. NASA is cooperating with DARPA to explore noise 
reduction technologies and low sonic boom designs. Langley engineers 
have also explored modifying the physical shape of the aircraft 
utilizing numerical optimization. These optimized vehicles demonstrate 
improved aerodynamic efficiency, and much lower sonic boom levels at 
supersonic speed. Continued effort is needed to explore new 
technologies in these areas, and others including improved efficiency 
and longer aircraft life.
                         technology integration
    Although I've addressed four technological areas separately, the 
technological advances in one area often beneficially affect other 
technology areas. By integrating advanced technologies we feel that 
more efficient and adaptable aircraft are in our reach. This year we 
are conducting tests to demonstrate simplified flaps on aircraft using 
small synthetic jets with smart materials to control the flow over the 
wings. This technology blends advanced materials, control systems, 
micro electronics, and aerodynamics to enable shorter take off and 
landing, lighter weight flaps, and reduced fuel burn and noise. In the 
next several years we look forward to demonstrating concepts for 
dramatically improving the safety of aerospace vehicles using self-
healing materials and electrical systems. We envision aircraft that are 
optimized to improve functionality for the entire flight regime 
specifically addressing safety needs while reducing fuel burn and 
noise. These technological advancements will benefit the breadth of 
flight vehicles from vehicles that fly in the atmosphere to space 
transportation vehicles.
    Achieving the Goals
    NASA's vision for revolutionizing air traffic management and 
developing revolutionary new aerospace vehicles is sufficiently 
ambitious to undoubtedly cause some to wonder whether or not it is 
achievable. Efforts of this level of difficulty represent the proper 
role for NASA, which is to undertake activities beyond the risk limit 
or capability of industry, and to deliver validated technologies. My 
belief is that the goals inherent in the vision are achievable. The 
belief is based on both on our long-term track record and on the 
recent, demonstrated progress made toward achieving our goals.
    It is imperative that we aggressively pursue attainment of the 
technology advances required by the vision. The pace of technology 
development is increasing very rapidly and the only way to achieve 
world leadership in an area is to out run the competition. Moreover, 
one of the most effective ways to maintain and increase the quality of 
life for our Nation is to provide for the enhanced safety, efficiency 
and environmental compatibility of our air transportation system as 
quickly as possible. NASA is uniquely positioned to conduct the 
research required to develop revolutionary new air vehicles and a 
revolutionary new approach for air traffic management. We do not 
believe, as some might suggest, that these are maturing areas of 
technology. We believe that our 21st Century future is as full of 
promise today as was the 20th Century to our predecessors.
    We are accomplishing excellent, high-payoff research activities 
that will benefit the quality of life in the country through 
enhancements in safety, airspace system capacity, noise and emission 
reduction and contributions to the pre-eminence of military aircraft.
    Hard choices have been and are being made. The NASA Aerospace 
Technology Enterprise has reprogrammed a significant portion of its 
research funding to enhance efforts to achieve the highest priority 
products. The reprogramming efforts have taken place within our 
existing funding and have thus necessitated stopping some ongoing 
efforts. The agency is also emphasizing aerospace research rather than 
Aeronautics and Space activities to help achieve all the synergies that 
are available. The Agency has embarked on a detailed study to determine 
which facilities it requires for the future, to eliminate the 
facilities it no longer needs, and to ensure it has adequate funds to 
maintain and renew the facilities it requires
    Hearings such as this one today will help the country with this 
debate, I am happy to have been able to contribute some input to the 
discussion.

    Senator Allen. Thank you, Dr. Creedon and Administrator 
Goldin, both of you. We probably could listen to you for an 
hour each.
    Let me ask some questions here. I will go first and then 
turn it over to Senator Breaux.
    For Administrator Goldin, I had many things I was going to 
be asking you. I will be looking forward to that blueprint, 
which will be, I think, very important, because, clearly, NASA 
has a lot of multiple centers where the research is going on. 
You have to get them all working somehow together and a maximum 
utilization of those capabilities of the skilled people as well 
as the facilities.
    One thing that I think would be helpful, if you could, when 
you come up with your blueprint of how you use your research 
centers, how do you measure? Fortunately, you have been at NASA 
for a while, so you do not have to get up to speed. You 
understand the challenges. How do you measure the value of 
investment, taxpayers' dollars, budgets, appropriations? How do 
you measure the value of the decisions you are making between 
aerospace, space, aeronautics, and so forth? How could we 
measure the performance, the investment, the bang for the buck? 
What is a measurement that we could utilize?
    I think we all recognize this research and development 
needs to continue. We are behind. The statistics that 
Congressman Goode and Senator Hutchison brought up about 
falling behind as far as the world market, we are competitive 
folks and we want to get back ahead and start doing it in a 
reasonable way, but how do you have an objective measurement 
that we could look at to say this is worth it, these billions 
of dollars are doing, A, B, C, or whatever unit measurement you 
would have?
    Mr. Goldin. In most of the areas of NASA, in fundamental 
science, we could take a look at a number of different 
measures, but one is how many papers are published, how much 
fundamental knowledge have we generated.
    In the area of aeronautics, it is a little different.
    Senator Allen. Right.
    Mr. Goldin [continuing]. Because there it is very 
specifically public good in two primary areas. One, for the 
military, have we had an impact on the future defensive 
capabilities of the Nation? There, the best judge is the 
Department of Defense. In the area of commercial aviation, 
there are two areas where we could have an impact. One is in 
our interface with the Department of Transportation and how 
effectively have we developed technologies, transferred them to 
the Department of Transportation and the companies building the 
equipment so they could be certified, and over the next decade, 
did we help the Department of Transportation increase their 
capacity 30 percent--I am throwing that number out here today--
and cut delays by 50 percent?
    Now, clearly, we have to make sure that the Department of 
Transportation has the adequate funding in their budget to 
fully implement the things we are developing, and, by the way, 
we do have these 16 technologies fully documented. I did meet 
with Secretary Mineta, and in the next few weeks, Administrator 
Garvey and I will be sending a letter to Secretary Mineta 
clearly calling out the things that we could do.
    Then, how well do we come up with a revolutionary system, 
we have a vision for that. At the present time, the old system 
has thousands of individual segments that have to be tracked. 
It is very cumbersome. It has been in place for 50 years.
    The new system needs to be measured, and we could give you 
a measurement by showing you how different technologies apply 
against our simulation tools in the next few years. You could 
track us. You could see where it goes.
    My final point is, in the area of commercial aircraft, 
America now has only one long-haul jet transport company, 
Boeing. We have two engine companies, Pratt-Whitney and GE, 
but, in addition to that, we have a general aviation industry, 
and Mr. Bolen is going to talk to that industry.
    Just 7 or 8 years ago, that industry was down to 600 planes 
a year. They are now back to 1,000 and 2,000 planes a year, and 
we took a goal that within a decade, they will be selling 
10,000 planes a year. You could measure us.
    We have been working with them on technology. There are a 
whole host of new planes coming out, Highway in the Sky, glass 
cockpits, and these are going to make a huge difference. You 
need only go to the air show in Oshkosh each year to see the 
impact NASA is having on general aviation.
    And, finally, not just the planes, but we have to measure 
and work with each State in this Nation to implement the small 
air transportation system. We have a demonstration program, and 
in the next few years, we will measure that and report to this 
Subcommittee. Within a year or 2, I think it will then become 
time to see how whether the Department of Transportation or 
NASA or some other funding agency ought to be implementing that 
approach. It will revolutionize life in America.
    Those would be my measurables.
    Senator Allen. Thank you, and we look forward to following 
and working along with you in that regard. Thank you for a very 
insightful and convincing answer.
    Dr. Creedon, some of the practical developments that have 
come from NASA-Langley, such as detection of wind shear and the 
reduction of the noise footprint, in particular, are all very 
important for commercial as well as some of the military jet 
bases. Do you have any insight as to what we could do better or 
if there could be any help from the Congress insofar as a 
commercialization of any of the developments or spinoffs from 
your research there at Langley? Is there anything that Congress 
could do to be more helpful to you in the commercialization 
of----
    Mr. Creedon. Do you mean in non-aerospace areas?
    Senator Allen. In aerospace, aeronautics. Well, yes, and if 
you could explain or share with us some indirect benefits from 
your research.
    Mr. Creedon. OK, certainly. At NASA-Langley, we judge our 
effectiveness to the extent to which people actually use the 
research products that we come up with. So that, any activity 
that we undertake, whether it be long term, as the 
Administrator has described, or somewhat nearer term, our 
objective is to have the technology that we come up with used 
by someone. In fact, there is virtually no civil or military 
aircraft flying today that does not have some technology in it 
that came from NASA Langley Research Center.
    As far as commercialization, there are really two aspects 
of that. One is in the aerospace industry, and the other is 
spinoffs, as you called it, into the non-aerospace area.
    Let me address the latter one first. We have a very 
aggressive program to spin off the technologies that we come up 
with into the non-aerospace area. We have come up with 
technologies that have been able to ameliorate some of the 
effects of diabetes. We have come up with technologies for 
aerospace application which, when put to a novel use, could 
serve other purposes in the health arena. For example, we 
developed the sensor to develop the ability to very minutely 
detect turbulence of air. This turns out to be very, very good 
in application of fetal heart rate for pregnant women, and with 
that, actually the fetal heart rate can be sent over a phone 
line so that the woman does not even have to enter the doctor's 
office.
    We are finding that we have the tools that we need to do a 
very effective job in that. So I am not sure that in that area 
we really need any additional help from the Subcommittee.
    In the main transfer of our technology to aerospace 
activities, as I said before, that is why we exist is to take 
the technologies, and we have set our goals to be that we 
measure our success by the extent to which it is used. I think 
we have been very effective in that area. So, if there is help 
that we need, it is probably not in the area of additional ways 
to make this possible.
    Senator Allen. Thank you very much.
    In fact, I think it may have come from you. I was just 
speaking to the president of VCU, and I believe NASA-Langley 
somehow has been working with the military for telemedicine. 
Was that something that was started at NASA-Langley? When you 
were going into the fetal heart rates of phone lines and 
diabetes detection, was that something that came from----
    Mr. Creedon. From NASA-Langley, yes, it did.
    Senator Allen. It did?
    Mr. Creedon. We are working very closely with VCU. Mr. Sam 
Morello of NASA-Langley is on a committee that is helping. He 
is in charge at Langley of taking aerospace applications and 
seeing that they get useful application in the non-aerospace 
arena, and he is working with VCU on that project.
    Senator Allen. As I understand it, telemedicine--in 
particular, as a military application, say someone is on the 
battlefield or out at sea or wherever they may be, not near a 
hospital, but needing the expertise and proper diagnosis and 
prompt treatment--actually came from you all.
    Mr. Creedon. Well, the particular VCU application. There 
are a lot of efforts in telemedicine, and there are other NASA 
centers that play a major role in this area as well. The 
particular application that we talked about did come from NASA-
Langley, but there are many other applications within NASA.
    Senator Allen. Thank you very much.
    I would like to turn it over to Senator Breaux for any 
questions he may have.
    Senator Breaux. Thank you, Mr. Chairman.
    I thank the panel members for their testimony.
    Let me try to figure out where we are. The briefing memo 
says that the fiscal 2002 budget request for aerospace 
technology is $1.36 billion, a $120-million increase over 
fiscal year 2001. I take it that in research and development, 
that your aeronautics research is included in that part of the 
budget?
    Mr. Goldin. Yes.
    Senator Breaux. I am trying to find out how much is 
available for aeronautical research and development.
    Mr. Goldin. The budget number I recollect is $1.5 billion. 
I do not recognize that $1.36 billion. Let me just double-check 
here.
    Senator Breaux. It says the fiscal year 2002 budget request 
for aerospace technology is $1.36 billion, a $120-million 
increase over fiscal year 2001, and NASA's aeronautic research 
is included in the aerospace technology program. I am trying to 
figure out, are we doing less or more?
    Mr. Goldin. OK, I got it. The full budget for the 
enterprise is $1.5 billion, but that leaves out some commercial 
activities.
    The Authorization Act of 2000 told us to merge our 
technologies in launch and aeronautics. It is very hard to pull 
the two of them out. For example, if we work on materials and 
structures, if we do it separately for aeronautics and 
separately for launch vehicles, we are doing work that is going 
to be wasted. If we do work on avionics, if we do work on 
nanotechnology, it is hard.
    Senator Breaux. So the private sector comes up and says, 
``Look, we are really dependent on aeronautics research by 
NASA, and we are concerned that they are going to be spending 
less than they did last year. What is the answer?
    Mr. Goldin. The answer is I think with this year's budget, 
in effect, we will be spending more, but it is not on the 
things that we used to do, and let me give you some examples.
    With any budget, we had no huge rises in the NASA budget. 
We had to make tough decisions: Should we work on things that 
are near term and evolutionary, or should we work on 
revolutionary things? We made a decision to cancel the 
rotorcraft program. I know there are some very unhappy people 
in the rotorcraft program, but the fact of the matter is we 
have been working on this for a long, long time, and with the 
exception of making them a little quieter and making rotorcraft 
a little faster, we have achieved our primary goals and it was 
time to do something different. So we decided to cancel that, 
and we put that money into nanotechnology in advanced systems 
like we showed here.
    We freed up $730 million by canceling a variety of programs 
that we felt were not cutting-edge and fell into an area that 
got closer to product development than basic research.
    Senator Breaux. What was the reason for terminating the X-
33 project?
    Mr. Goldin. The X-33? We had to make a basic decision, 
could Lockheed Martin give us additional work that merited the 
additional money. They were in a competitive activity, and 
their proposal did not measure up to other proposals. It was a 
significant amount of money that--I cannot answer that 
question.
    Let me say that after we make the final source selection in 
the Space Launch Initiative, it might be more appropriate for 
me to answer that, but the basic bottom line that I can say 
today, Lockheed Martin did not give us value-added for the 
amount of additional money they proposed. We signed a contract 
with them for $930 million. They put in about $300 million, and 
they required a significant fraction of the additional money 
that we put into the program to go ahead and just do a test 
launch on that vehicle, that it was at a much lower speed, and 
it did not meet the kind of technical criteria we were looking 
at. So it was a very tough, hard decision, and right now we are 
working with the Air Force.
    I just sent a letter to General Eberhart today to see if we 
could hand over that technology to the Air Force, that has a 
much less demanding mission than NASA has, to help transition 
it.
    Senator Breaux. Have you all had discussions with DOD on 
that proposal? I know you all probably just did not ship it 
over there without making some inquiries as to whether they 
would be interested in receiving it or not.
    Mr. Goldin. I have had discussions with General Eberhart 
who is CINC Space, and we are going to be setting up a series 
of meetings. We will be getting together over the next month or 
two, and we are going to try and see if there could be value-
added for the taxpayer to do it.
    But the dilemma we have at NASA is our budget did not grow 
over the last decade. It has been flat. In fact, I would like 
to show you a chart here to show you why we have to make tough 
decisions.
    Could I have that budget chart?
    Senator Breaux. We did not rehearse this.
    Senator Allen. No. That is a good leading question.
    Mr. Goldin. This is a normalized budget to 1993. So in 
1993, which is at the extreme left, you can see a one. NASA is 
the blue curve, and it dropped below one up until the year 
1999, and then it came up, and we are back where we started 
when I came to this agency, in effect, at about $14.5 billion. 
The green line is the defense budget, which is up about 15 
percent, and that orange line is the other non-defense 
discretionary spending, which is up 37 percent. NASA, unlike 
almost any other agency in the government, where we have to 
launch things in space and they have got to work, have been 
given a flat budget. When you get a flat budget, you do not 
make popular decisions to make people happy. You live within 
that budget as it is given to you.
    If we were blessed with more money, we would know how to 
spend it. Given the constraints of that budget, I think we have 
done a phenomenal job. We have tripled the number of launches 
and divided by three the cost per spacecraft. We took $1 
billion a year out of the shuttle and it is four times safer. 
We have people in space right now building the space station. 
So all I can say is it was a tough, hard decision on the X-33, 
but we could not afford the additional money that the Lockheed 
Martin Company wanted, and we could not justify the additional 
dollars against the marginal improvements they give us in 
performance. That was the dilemma we had.
    Senator Breaux. May I have one final comment and question. 
I guess what is a wake-up call--or it should be to this 
Congress and to this Subcommittee and everyone--is what the 
Europeans are telling us they are getting ready to do. They are 
preparing to invest a public and private combination of funds 
that amounts to approximately $95 billion. Here in this 
country, we are looking at, by some estimates, a reduction of 
over half-a-billion dollars over the next 5 years in 
aeronautics research. I am not sure where that is going to 
leave this country in that particular area. If we are going to 
be looking at long-term research, and near-term research is 
going to the left up to the private sector, without any public-
private partnership, how can we compete?
    Mr. Goldin. Well, first, if the Europeans are going to make 
small, marginal improvements with what we are seeing here, we 
will whip them. Money is not the magic ingredient, the 
partnership is. It is absolutely clear. We have been talking to 
Boeing and working with Boeing, and I think it's important you 
talk to the Boeing representative, David Swain, here today. We 
have been talking to Pratt Whitney and GE, who are the backbone 
of our commercial aviation.
    They do not want us to do the near-term things that will 
impact the next 5 years. The die is cast for the next 5 years. 
The things we have already done are into their products, and we 
are now looking what can we do now for a decade from now. If 
you look to NASA to impact the sales of Boeing planes and GE 
engines and Pratt Whitney engines in the next 5-7 years, the 
die is cast. What we are talking about is moving out 
aggressively in a real partnership.
    One of the other problems we have, Senator Breaux, is that 
there is a misconception about what NASA does in aeronautics. 
We almost lost that program a couple of times. There are 
certain independent groups who call what we do corporate pork. 
They make very strong inroads and they call it corporate 
subsidy, and they do not understand the criticality of what 
NASA does to the defense of the Nation and the criticality of 
what NASA does for the critical companies, like Boeing, Pratt 
Whitney and GE.
    Year after year, a lot of people from these outside 
organizations made unbelievable gains with the people, over in 
both Democratic and Republican administrations, they do not 
understand this criticality. That is another reason for the 
downward pressure on our budget. It is very, very tough.
    As I said, this hearing today--the people at NASA were 
cheering when we got the call, that we actually had a hearing. 
It is the first time in this Senate in about 9 years that we 
have had such a hearing. So we need to face these issues and we 
need to work it as a Team America. We need to work with 
academia. We need to work with the large and small companies, 
long-haul jet transports and general aviation, with the States, 
to get this new transportation system in. One of the biggest 
problems Boeing is facing is how do you sell planes when there 
is gridlock in the airways? They are worried about it. Boeing 
set up a whole new organization that is trying to deal with air 
traffic and the airspace system. So it is complicated, but my 
point is if we have a vision, Team America always comes across, 
and honing that vision and then seeing how we address the 
resources in the next year or two is important.
    But another measure, Mr. Chairman, is when the industry 
cost-shares with us. One of the reasons that the NASA budget 
came down a couple of hundred million dollars a year is on the 
high-speed civil transport program, the Boeing Company said, 
you know, because of the market pressures, we will not have 
money available for the next two decades to do revolutionary 
planes, and they were going to cost-share with us literately 
billions of dollars.
    So when our industrial partner came to us and said, ''Look, 
we have got to get supersonic shocks suppressed over land, this 
program will not do it just yet, and we have got to build 
lightweight engines with small diffusers so we can meet the 
Stage 4 noise requirements, this program will not do it, we 
step back. So another measure of the partnership is the money 
going in, and in talking to Pratt Whitney, GE and Boeing, 
looking at a futuristic program like that, where the government 
does the high-risk, high-payoff research, and then transitions 
to industry, they say that they are interested. So it is a 
complicated thing, but it will not happen in the next 5 or 10 
years. The die is cast.
    Senator Allen. Thank you, Senator Breaux, and thank both of 
these gentlemen for your very insightful, passionate, and eye-
opening comments, and thank you for the other aspects of it. It 
is good that Senator Breaux asked you that question so you 
could show those charts to us.
    Mr. Goldin. I was hoping he would.
    Senator Allen. Even if he did not, you found a way to make 
that part of the answer, but that is perfectly, perfectly fine. 
That is the reason for this hearing, for us to be more 
informed. Senator Warner has come back from the Foreign 
Relations Committee. I know he may want to make a statement. I 
was wondering why you were going to Foreign Relations.
    Senator Warner. I am conducting another hearing.
    Senator Allen. If you would like to make a statement----

               STATEMENT OF HON. JOHN W. WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Just a very short one, Mr. Chairman, and I 
thank the Ranking Member. Twenty-three years ago, I was a 
Member of this Subcommittee, and I must say I regret having 
moved on elsewhere, but anyway, I am glad to be back again, and 
seeing you in the chair is a very special privilege for me. I 
just wanted to say to our good friend here, Administrator 
Goldin, and to Dr. Creedon, how much I appreciated your coming 
to Virginia. I presume Congressman Goode addressed--has spoken 
to that event, and I was a part of it, so I will not go into 
more details. But it was an extraordinary day, not only for my 
State, but I think for civil aviation and the alleviation of 
the congestion, and I am just going to ask that my statement be 
put in the record, Mr. Chairman.
    Senator Allen. Without objection.
    Senator Warner. But over the past several years, 
Administrator Goldin and I have had a very friendly discussion 
on the allocation of funds between aerospace and space, and 
despite the fact that we are privileged in Virginia to have 
Langley, I have taken an objective view about it, and I have 
visited Langley and I have talked to many of the people 
involved in the aerospace industry. I have to say I presume you 
have covered the decline in the spending levels in the 
aerospace sector, Mr. Chairman. I do not wish to go over it, 
but----
    Senator Allen. That is all right. Administrator Goldin 
mentioned it in a more general sense, but just a sub-category.
    Senator Warner. Am I correct, Administrator Goldin, in this 
statistic which my research reveals, that the Federal funding 
for NASA's aeronautical research is only 40 percent of what it 
was 4 years ago?
    Mr. Goldin. I do not know if it 40 percent, but I can tell 
you it is about $200 million a year less.
    Senator Warner. Well, all right. I have to say to you, and 
I say it most respectfully. I have the greatest personal 
admiration--and professional--for you, but we do have our 
differences of views. This Nation is in the grip of the most 
extraordinary problems associated with the commercial aviation 
industry, and I will not enumerate them. I presume this hearing 
has covered some of those problems. I just have to ask you, as 
an old trial lawyer, I think the burden of proof is on you to 
show that this very significant reduction in your budget for 
aerospace has not been a contributing factor to the problems 
being encountered today by our traveling air passengers.
    Mr. Goldin. I would say, in fact, that we have gone more 
than the distance. Let's take the aerospace system, which I 
think you are referring to. Five or six years ago, we at NASA 
became concerned about that, and we proposed a program of $480 
million, called AATT. I cannot remember what it stands for, but 
it is advanced air traffic control systems. Based upon the work 
we have done there, we developed 16 new tools, decision support 
tools that we have tested in some of the airports around the 
country. In fact, Senator Hutchison was here, and we tested one 
of the tools that allows the air traffic controllers to vector 
planes into the airports. It increased the capacity by 10 
percent at the peak travel period and saved $9 million a year 
at Dallas-Forth Worth. We are testing a number of these tools 
around the country.
    The issue is does the Department of Transportation have the 
budget to transition these tools and certify them and then 
distribute them around the country? So from a technological 
standpoint, I will stand before any trial judge in this 
country, anyone who wants to ask me the question. We reprogram 
that money out of space resources, and when we reprogrammed the 
money, there were those that did not want us to do it, because 
the question was why is NASA, not the FAA, developing 
technology for air traffic management? At the present time, I 
just had a meeting with Secretary Mineta, and we talked about 
the fact that we need to have a near-term and a long-term 
approach.
    In the near-term, we have proposed 16 different tools that, 
if we are successful, fully implemented, we could increase the 
capacity 30 percent without building one new runway, with 
information systems, decisionmaking systems and sensors, and we 
think we could accomplish this if there is adequate funding to 
implement these tools within the next 7 years.
    Senator Warner. I think that is exemplary, and it is an 
example of one program, but with a 60 percent reduction, could 
there not have been other programs brought to bear? I think the 
entire Federal Government should go to, as we say in the 
military, general quarters about the plight of the civil 
aviation industry. We cannot shift this heavy traffic to the 
already congested streets and highways of America. They are 
clogged and practically stagnated, particularly in our region 
here in the greater metropolitan area. So we have to rely on 
our air transportation to alleviate the congestion in surface 
transportation, certainly the automobiles.
    So I plead with you to revisit whether or not the cuts have 
been too severe on the aeronautics side of your house. Space is 
exciting. It is every child's dream to participate someday in 
this. But at the same time, the parents are struggling to meet 
their daily commitments, whether it is family, work or 
whatever, in terms of surface transportation and in air 
transportation. Maybe we just better pace ourselves a little 
bit in space and stretch it out, and rebuild our transportation 
system here on Earth, so that we can coexist and live and enjoy 
a better lifestyle.
    Mr. Goldin. I am with you, but I say there are other 
elements besides increasing the budget. We are developing a 
relationship with the FAA and the Department of Transportation 
that was essential. And I will say in open--5 years ago, there 
were some folks in the FAA that went to the Congress to try to 
cancel the half-billion dollars that we tried to reprogram 
because it was a bureaucratic problem, but we have worked it 
out.
    The point I made before you came in, and I showed a chart, 
NASA's budget total has not increased a nickel in 9 years. Non-
defense discretionary spending has gone up 37 percent, and in 
spite of the problems that DOD is having, their budget went up 
15 percent. We have had to live with making hard decisions, and 
in making those hard decisions, I think with the budget we had, 
we did the right things. We are going through a transition. 
There is only one airframe manufacturer left in America. So the 
problem is more than the issue of NASA. There is no competition 
among American companies and Boeing has chosen to go the 
evolutionary route for the next few decades. NASA cannot change 
that fact of life, that they have made a business decision, and 
we respect it.
    We were working on a high-speed civil transport. Boeing was 
putting in significant money into that. They had market 
pressures from Airbus, which caused them to say, ``We better 
focus on the near-term.'' So they made a decision that we 
concurred with. We were putting in a billion dollars over 4 
years into high-speed civil transport. When they backed out, we 
had no industrial partner. So all I am saying is we recognize 
that. We want to look into the future, but we are going to have 
to do some radical things to help the American aerospace 
industry, and we have begun that restructuring with Boeing. We 
have begun talks with Pratt Whitney and GE, and we are looking 
at not making three and 5 percent improvements in fuel 
efficiency; we are now talking about 25-40 percent improvements 
in fuel efficiency, so we could go take on companies like 
Rolls-Royce, which are selling engines like commodities.
    So it is a broader issue than just adding the money, and 
this is why we would like to work with this Subcommittee and 
the companies and academia to address the problem. If we were 
to get just a few hundred million dollars a year, I am not sure 
by ourselves we would spend it wisely. But if we sat down with 
the industry and academia and set national goals over the next 
year or two, we could make a huge difference. The other issue 
that has really hurt us is if you go back to the 1970s, late 
1970s, GE sold 70 percent of their engines to the Department of 
Defense. Today, they sell about 20 percent of their engines to 
the Department of Defense. So where they had that huge momentum 
of the high-tech defense budget, they now do not have it, and 
they could make an improvement in the engine. They spend a few 
billion dollars, and it takes them 20 years to get a payback.
    So the market conditions have changed, and one of the 
concerns we have at NASA is, for the future defense of the 
Nation, if we do not strengthen the commercial sector, it is 
the commercial sector where the high-volume production is going 
on, that is going to come back and impact defense. I met with 
Secretary Rumsfeld about it. I expressed my concern about it, 
and that is why we are developing a blueprint between now and 
September, to see how we could work with the Department of 
Transportation and the Department of Defense to come out with a 
vision for Team America, and then I think it is time to talk 
about money.
    Senator Warner. Well, I respect your views on this, and you 
are better informed than I. This is not an area in which I 
spend a considerable portion of my time. I do on defense, and I 
know what you mean about the cutbacks in those engines by GE. 
That is because for 13 consecutive years, we reduced the 
defense budget, up until a year ago, when it was turned around, 
and I think President Bush is now going to further enhance the 
defense budget, after you take certain important preliminary 
steps of analysis of the department. But I come back to this 
question: We are now, as of the last year and this year, facing 
an exponential problem in civil aviation, of a multifaceted 
nature, and I simply say, with all due respect, if you could 
increase your budget in the aerospace part of your 
responsibilities, it would be my hope that that would be 
contributory to alleviate this problem.
    I had not heard problems--such as those we are learning 
about today--3 years ago, 4, 5 or 6 years ago, at the time you 
were declining in these budgets toward aerospace, but they have 
suddenly started now and they are very, very serious, and could 
be life-threatening to the ability of this country to once 
again have a resurgence in its economy, which I am hopeful will 
take place under the administration of our President in due 
course. I thank you for respectfully listening, and you know 
you and I will always be able to do business together. You do a 
good job. I appreciate it. Congratulations on your most 
successful results in space. It is quite astonishing.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]
   Prepared Statement of Hon. John Warner, U.S. Senator from Virginia
    Thank you Chairman Allen.
    Mr. Chairman and Members of the Subcommittee, thank you for 
allowing me to testify before you on this very important subject--
NASA's aeronautics research programs.
    First, I would like to commend Administrator Goldin--he has been 
doing a very fine job.
    As you all know, the NASA Langley Research Center in Hampton, 
Virginia, is a world-class center for aeronautics technology that helps 
the United States maintain and improve its position in commercial and 
military aviation. NASA researchers are currently developing 
technologies to make aircraft safer, quieter and more energy efficient. 
Unfortunately, federal funding for NASA's aeronautical research is only 
40% of what it was 4 years ago.
    I believe the United States stands at a crossroads in the 
development of our transportation network. Our air transportation 
system is at, near, or over capacity--take your choice. Congestion, 
delays, and cancellations are all too familiar to anyone who flies. 
NASA's aeronautical research is providing the technology necessary to 
help relieve these growing problems. But, I believe, it can do more. 
The dedicated people are in place--they stand at ``the ready'' to do 
more. The increase in funding allocations within NASA is the focal 
point!
    Here is a fine example. I was recently at the Danville, Virginia 
airport with my colleague, Congressman Goode, to witness a 
demonstration of the NASA ``SATS'' program: the Small Aircraft 
Transport System.
    This is a program that shows progressive and innovative thinking. I 
applaud Administrator Goldin for this program. NASA's SATS research is 
intended to develop navigational technologies that will help relieve 
congestion in our nation's overcrowded skies. It will allow citizens to 
fly using the under-utilized small airports and the growing fleet of 
small aircraft as an alternative to flying on overcrowded commercial 
airlines.
    SATS research will focus on small airports without total reliance 
on air traffic controllers and on small, private aircraft. This type of 
innovative solution could help relieve the pressure on the hub and 
spoke air transportation system and create increased access to rural 
communities.
    Mr. Chairman, and Members of the Subcommittee, thank you again for 
allowing me to speak to you on this important issue. The aeronautical 
research performed by NASA is critical to maintaining the United 
States' position as a leader in aviation for commercial and military 
aviation. I urge the Members of this Subcommittee to support this 
important research.

    Senator Allen. If you would stay here, the questions that 
Senator Warner raised, and some of them in answering--one of 
the reasons none of this has ever been raised before is 
Administrator Goldin says there has not been a hearing in the 
Senate for 10 years, to have a decision on this, for the Senate 
to understand it, direct testimony, cross-examination and so 
forth. Now, from what Senator Warner said in his cross-
examination or questioning of you, the way that you see the 
United States beating the Europeans is with this morphing-wing 
plane. Is that your revolutionary approach--how we will compete 
and kind of leapfrog over the Europeans? Was that what you were 
saying?
    Mr. Goldin. Well, let me say it a different way. Boeing has 
announced they are going to build this subsonic cruiser. They 
do not have time for technology developments.
    Senator Allen. I understand. They are going to be 
evolutionary.
    Mr. Goldin. So there are a whole variety of techniques. We 
need to get the engines to be, not 3-to-5 percent more fuel 
efficient, but 25-40 percent more fuel-efficient. We need to 
figure out how to reduce drag. Right now, we have an airframe 
on a plane that is the same as the 707 was, almost 50 years 
ago.
    Senator Allen. Is this research between NASA and GE, or 
Pratt and Whitney?
    Mr. Goldin. It needs to be a team research, and it needs to 
be where NASA does the leading-edge work. I came from corporate 
America. If I ever went in to the chairman of the board and 
said, ``Boss, I need a billion dollars, and I have an idea that 
we may hit with 50 percent probability, to improve the fuel 
efficiency by 25 percent, see you in 10 years,'' could not be 
done. That is what government needs to do. So we ought to do 
the front-end research, and at a reasonable point of majority, 
hand it over to GE or Pratt Whitney, preferably both. With 
Boeing, we need to look at new ways of building wings, new 
tools, so they can get the cycle time down by factor of two. 
The cycle time is too long for building planes.
    In the automobile industry, they have got it down to a 
year, a year-and-a-half. In spacecraft, it used to be 5 years. 
Boeing, their commercial communications and spacecraft division 
is now putting out spacecraft in 12-14 months. That leaves the 
cost--getting to penetrate markets. So we need design tools, we 
need new technologies, and these are the things that we need to 
be working on, and that is the government's role. So if we, 
NASA, were to go off by ourselves, I think we would be baying 
at the moon. But NASA, working with the leading American 
companies, doing things they cannot afford to do, having a 
commitment from them that they will transition it and pick up 
the transition costs and prioritize it, is, I believe, the key. 
We need to engage the universities, because of the lack of 
young people going in. So it is those three things, and that is 
why I came back to the word Team America.
    Senator Allen. I wish Senator Warner were still here, but 
he was talking about the difference--how much you allocate out 
of the pie going to NASA. How much goes to space and all the 
different components of space, whether it is manned, unmanned, 
Mars and all the rest, aerospace versus, say, aeronautics? How 
do you determine what is the appropriate level, out of that 
whole budget going to NASA, as to what should be going to, say, 
aeronautics research versus space?
    Mr. Goldin. Well, we thought we had a good equation, up 
until about 3, 4 years ago, when the bottom started falling 
out. It just happened a little bit at the time, and we 
allocated a significant amount of money to focus programs, 
which we did with the Boeing Company, Pratt Whitney, GE 
Company, and then to basic research. Our basic research program 
is about the same, but our focus programs have changed. Given 
the situation we have now, I believe we are going to have to 
take a relook at it, and I would like to be able to throw a 
number at you, but I am hesitating, because we need to know 
where the DOD is going.
    They are a major player in this. Right now, there is not a 
major new engine program on the books at the Department of 
Defense. After the joint strike fighter, there is not a major 
development program on the books at the Department of Defense. 
So if we go off by ourselves, we are not going to help anyone. 
In a similar manner, the Boeing Company is now developing their 
strategy for the 21st century. For NASA to go to tell the 
Boeing Company, that is going to be the ultimate beneficiary, 
``Here is what you ought to do,'' is the wrong thing.
    So, in a hearing, it would have been easy for me to say 
let's do A, B, C, D, but I think we are going to have to take 
the time, given the change in the marketplace, given the threat 
from Europe--and by the way, the Japanese are absolutely 
determined to get into the aeronautics business 10, 15 years 
from now. So what we need to do is set our vision out 10, 15 
years, divvy up the work so NASA does its front-end in 
partnership with the DOD, have a commitment from the engine 
companies, the avionics companies, the companies that do air 
traffic management, the general aviation industry, so we all 
know our roles and NASA does the leading-edge work, and we have 
those handover points. I think this is going to take a year or 
two. It will not happen in months, and I wish I could give you 
a better answer, but that is the only honest answer I could 
come up with, and it is going to take the House, the Senate, 
the administration and the parties involved, over the next year 
or two, to sort this through.
    I view this as--I did not want to use the C-word--but I 
view this as a very serious challenge to America, and 10, 15 
years from now, if you are 10-20 percent of market share and a 
crisis breaks out, and we do not have the kind--we used to have 
45 programs. When I was going to high school, this Nation had 
45 aircraft programs. Today we have one, in the government, the 
joint strike fighter. So if commercial is going to carry the 
day, it is crucial that we have a national strategy on 
commercial. That is why I am hesitant to say. I could give you 
this answer, that answer. It would be easy now. It would be 
popular, give us more money, but in the end, I am not sure it 
is the right answer.
    Senator Allen. Thank you. Thank you. It is nice to hear a 
government administrator giving such a statement. I am sure 
President Bush is pleased, as well. Thank you, both of you, Dr. 
Creedon, Administrator Goldin, so much for your very probative, 
insightful testimony. It is not going to be another 9 or 10 
years, if I have anything to say about it. This Subcommittee 
will be working with you on the NASA budget authorization, as 
we go into budgeting in the years to come. We look forward to 
working with you and we appreciate your very credible 
leadership. Thank you.
    Mr. Goldin. Thank you. I will submit in writing answers to 
Mr. Goode. I thought they were excellent questions. I think 
they are very, very deserving of an answer, and I know you need 
to get on with the rest of the hearing, but for the record I 
will submit formal responses to them.
    Senator Allen. Let it be said that both gentlemen submitted 
testimony. Your testimony, as submitted, will be made part of 
the record, and in the event that other Members of the 
Subcommittee or committee have any questions, I hope you will 
be willing, which I know you will be, to answer their questions 
in writing. Thank you both. Thank you, gentlemen.
    Mr. Goldin. Thank you for holding this hearing.
    Senator Allen. You are welcome. Let us proceed with our 
second panel. The order that we have it, unless you wanted to 
speak in a different order, is Mr. Ed Bolen, President of the 
General Aviation Manufacturers Association; Mr. Dennis Deel, 
President, Lockheed Martin Space Systems, Michoud Operations; 
Mr. Roy Harris, Jr., Chief Technical Adviser, NASA Aeronautics 
Support Team; and then, cleanup hitter, David Swain, Senior 
Vice President, Engineering and Technology, and President, 
Phantom Works, the Boeing Company. Is that OK, gentlemen, in 
that order?
    We would first like to hear from Mr. Bolen, who is, for the 
record once again, President of the General Aviation 
Manufacturers Association.

   STATEMENT OF EDWARD M. BOLEN, PRESIDENT, GENERAL AVIATION 
                   MANUFACTURERS ASSOCIATION

    Mr. Bolen. Thank you very much, Mr. Chairman. It is an 
honor to be here today. As has been said by you and others so 
far today, the U.S. is the undisputed world leader in all 
aspects of aviation. The benefits that come from that include 
high-paying, good manufacturing jobs; a positive impact on our 
Nation's balance of trade; and the largest and the safest air 
transportation system in the world.
    I think sometimes these benefits can be taken for granted. 
However, I think the other countries that have looked at the 
United States clearly recognize what we have, and they have 
decided that they want that for themselves. It is evidenced by 
the Europeans' 2020 statement, which has been mentioned so far 
today several times.
    I will say that U.S. companies are not just giving up their 
pre-eminence lightly; U.S. manufacturers invest very heavily in 
research and development. Over 10 percent of our sales revenues 
go into R&D projects. That is an extraordinary commitment. 
According to the U.S. Department of Commerce, other industries 
and other manufacturing companies typically spend between 3-4 
percent of their sales revenues on R&D. So U.S. aviation 
manufacturing companies are extremely committed to new 
technologies, to research and to development. But private 
sector investment alone is not enough. NASA's research programs 
are absolutely critical to our ability to remain the world 
leader in aviation.
    We need the basic research that NASA is doing. Armed with 
it, private sector companies can then invest millions, even 
billions, of dollars, and take that basic research and turn it 
into the development and application of new products for the 
marketplace. NASA's proposed aviation budget, as has been 
talked about today, is about half of what it was just a few 
years ago. It is at an historically low standard, and that is a 
mistake. We should be investing more, not less, in NASA's 
research programs.
    There are a number of NASA aviation programs that are 
critical, not just to the aviation community, but to our Nation 
as a whole, and I think they have been touched on a little bit 
today. Senator Warner talked a lot about capacity and the 
situation we have, where our roads are clogged and our 
commercial hub airports are crowded. NASA has a program called 
SATS, the Small Aircraft Transportation System, that looks at 
trying to enhance the use of general aviation to alleviate some 
of that congestion on the highways and in the commercial 
airports. It is a very positive program that we at GAMA are 
very excited about.
    General aviation is a mainstream form of transportation, 
but we can do more to utilize its benefits, and some of the 
technologies that they are working on in SATS, including the 
Highway in the Sky, some of the synthetic vision programs and 
so forth, are really positive and can really increase the use 
and utilization of general aviation as a way to alleviate some 
of our capacity problems. They also have the program that was 
touched on earlier--it is called AVSTAR--and they use it to do 
complex air traffic control modeling, to help us better 
understand traffic flows so that we can find efficiencies and 
increase capacity from changes in procedures.
    Another issue that was touched on, obviously, it is not 
enough just to increase capacity. We want to improve safety, 
and NASA is doing work in that area. Their entire aviation 
safety program is along those lines. The AWIN program helps 
safety in terms of better understanding the weather, better 
matching weather conditions to pilot abilities and airplane 
capabilities. They have programs to enhance vision, to help us 
see better through different types of weather. Weather is a 
primary cause of accidents in aviation. Helping us better 
understand weather and working our way through it is going to 
have a substantial safety benefit, and it is something we 
depend on NASA for.
    If we are truly going to expand aviation capacity to meet 
the growing demand for air transportation and reap the benefits 
from that, we have to recognize that aviation must be more and 
more environmentally friendly. Administrator Goldin touched on 
a couple of key programs in that respect, including the quiet 
aircraft technology program and the ultraefficient engine 
program. These again are all programs that NASA is working on 
in terms of aviation, which benefit not just the aviation 
community, but our Nation as a whole. They should be a priority 
for us. We should invest in these.
    I think when you look at the President's budget for NASA, 
and you look at what NASA is doing, you have to walk away 
concluding everything in there is very important. It is 
absolutely essential, and, in fact, we should be doing a lot 
more than just what we are doing. I think we should be pursuing 
supersonic transport technologies. It is something that we need 
to look at. I think there are things that we could be doing to 
look at wake vortices, understanding better the wake that 
follows aircraft so perhaps we can find ways to reduce 
separation standards and increase capacity.
    But I will tell you, Mr. Chairman, that the aviation 
community is interested in working with NASA, and going beyond 
just working with NASA, but doing what Administrator Goldin 
said, and that is combining the resources of NASA with the DOT, 
with the FAA, and with the aviation community, so we can make 
sure that the products lead to development and lead to 
certification and lead to procedures that go with it, so that 
we can all recognize and receive the benefits of increased 
capacity and increased safety, and increased environmental 
friendliness.
    Thank you very much.
    [The prepared statement of Mr. Bolen follows:]
           Prepared Statement of Edward M. Bolen, President, 
               General Aviation Manufacturers Association
    Mr. Chairman, Senator Breaux, and Members of the Subcommittee, my 
name is Edward M. Bolen and I am President of the General Aviation 
Manufacturers Association (GAMA). GAMA represents approximately 50 
manufacturers of general aviation aircraft, engine, avionics and 
component parts located throughout the United States.
                            general aviation
    As everyone on this Subcommittee well knows, general aviation is 
defined as all aviation other than commercial and military aviation. It 
is the backbone of our air transportation system and is the primary 
training ground for the commercial airline industry. It is also an 
industry that contributes positively to our nation's economy.
    General aviation aircraft range from small, single-engine planes to 
mid-size turboprops to the larger turbofans capable of flying non-stop 
from New York to Tokyo. These planes are used for business purposes and 
recreation, as well as everything from emergency medical evacuations to 
border patrols and fire fighting. They are also used by individuals, 
companies, state governments, universities and other interests to 
quickly and efficiently reach the more than 5000 small and rural 
communities in the United States that are not served by commercial 
airlines.
                growth in general aviation manufacturing
    Since passage of the General Aviation Revitalization Act (GARA) in 
1994, general aviation manufacturers have posted 6 straight years of 
increased billings and increased shipments. That is quite an 
accomplishment.
    Product liability reform has allowed general aviation manufacturers 
to allocate valuable resources toward research and development of new, 
exciting, safe and environmentally friendly products to the market. In 
addition to private research being conducted by many GAMA member 
companies, we are working in conjunction with NASA on their research 
programs for general aviation.
                   nasa research is critical to u.s.
    NASA research plays a critical role in the future of the U.S. 
aeronautics industry. The U.S. has maintained its world leadership in 
aeronautics because we have long understood that basic scientific and 
technical research is an appropriate government function.
    It is especially important to understand now that the Europeans 
have published a public document, ``A Vision for 2020'', stating their 
goal to wrest the leadership in aeronautics research from the U.S. They 
have proposed a broad range of research and development programs and 
educational efforts recommending $93 billion be invested in the next 20 
years.
    At GAMA, we believe NASA research is critical to our nation's 
competitiveness. This type of research is long term, very high risk, 
and would not normally be justified by any commercial company. It is 
undertaken well before commercial products are developed, at the ``pre-
competitive'' level. In fact, experience has shown that a company may 
still need to invest hundreds of millions of dollars to take a NASA-
developed technology and bring it to the marketplace.
    One example that may be helpful to you in understanding the 
competitiveness issue is in the area of high-speed civil transport. 
Supersonic speed is largely viewed as the next frontier for 
intercontinental business jets. However, due to budget shortfalls, NASA 
is no longer funding this program. Meanwhile, France, Russia and Japan 
are each pursuing a supersonic business jet program.
    NASA aeronautics research is an investment in the future, and the 
primary beneficiary is the traveling public, who benefits from a safer, 
more efficient, environmental and economical air transportation system. 
But as the nation's air transportation system continues to grow, so do 
environmental concerns.
    This year's NASA budget funds two programs worth mentioning here. 
First is the Ultra Efficient Engine Technology program. It is focused 
on researching advanced technologies to reduce emissions. Second is the 
Quiet Aircraft Technology program. This important program seeks to find 
solutions for reduced jet noise. Both should continue to receive 
Congressional support. NASA research will make revolutionary changes in 
both areas possible.
    Other beneficiaries of NASA research are the employees of aerospace 
companies holding the high-paying jobs needed to produce these new 
products. And as the result of NASA's research eventually enters into 
the public domain, manufacturers based outside the U.S. also reap the 
benefits of NASA's investment.
    Given the benefits NASA's research provides to the nation's 
economy, we strongly support the continued allocation of general 
taxpayer dollars to the NASA Aeronautics budget.
                       benefits of nasa research
    In my testimony today I thought I would talk about the benefits we 
have already received from NASA research programs, as well as some of 
the technologies that are being developed as a result of NASA's focus 
on general aviation.
    The Advanced General Aviation Transport Experiment (AGATE) was a 
NASA cost sharing partnership with industry to create the technological 
basis for revitalization of the U.S. general aviation industry. The 
goal of the program was to develop affordable new technology as well as 
the industry standards and certification methods for airframe, cockpit 
and flight training systems for next generation single pilot, 4-6 
place, near all-weather light airplanes.
    AGATE focused attention on moving technology that had been 
available only to commercial air carriers to general aviation aircraft. 
NASA and industry worked closely with FAA to bring electronic display 
regulations into line with current technology. As a result, we will 
soon see new avionics in general aviation aircraft that are cheaper, 
more reliable and provide better information to the pilot, advancing 
the safety of our industry.
    Another success of AGATE has been the streamlined certification 
standards for composite materials. Composites are lighter weight than 
steel and provide unique benefits for fuel efficiency.
    NASA's General Aviation Propulsion (GAP) program aimed to develop 
revolutionary new propulsion systems for general aviation. 
Historically, it is new engines that have brought about the greatest 
changes in aircraft design and performance. At the entry level of 
general aviation, some very exciting new engines are on the verge of 
reaching the market.
                        new engine technologies
    One of the most exciting engine developments is from Williams 
International, the new FJX-2 turbofan engine. Planned to weigh one 
hundred pounds or less, it will produce at least 700 pounds of thrust. 
With an extremely economical price, the Williams engine could be a 
feasible choice for even the smallest airplane.
    Teledyne Continental Motors and Textron Lycoming are developing a 
new generation of internal combustion engines, with distinct advantages 
over current piston-powered engine designs. First, the number of moving 
parts is greatly reduced, simplifying both engine production and 
maintenance. This also reduces weight and engine noise while improving 
reliability. Equally as important, these engines will be able to use 
jet fuel. The result will be an engine with better performance and high 
reliability, but much lower cost.
    Teledyne Continental Motors' engine is due in part to the Internal 
Combustion Engine Element of NASA's GAP program. The goal of this 
element of the GAP program was to reduce engine prices by one half 
while substantially improving reliability, maintenance, ease of use, 
and passenger comfort.
    In addition to new engines, these manufacturers are also developing 
new electronic engine controls that will not only add to the 
performance of new engine designs, but could greatly improve 
performance of the existing piston-engine fleet. Single-lever power 
controls will simplify engine operations and reduce the potential for 
operator error. Teledyne Continental Motors is developing a new Full 
Authority Digital Engine Control system, or FADEC, which incorporates 
an innovative microprocessor architecture designed to provide a high 
degree of redundancy. This product has been developed as a result of 
AGATE.
    Another engine control product, developed outside of the AGATE 
Consortium, is Lycoming and Unison Industries' Electronic Propulsion 
Integrated Control system, or EPiC program. EPiC is a completely 
integrated digital propulsion system for new certified piston-powered 
aircraft that will provide exact engine propulsion management.
    Likely to complement the new engines are new propeller designs by 
companies like Hartzell. These new propellers will not only improve 
efficiency, but they will also make smaller airplanes even quieter than 
they are today.
    But what benefits to our aviation system will these new engines 
bring? The future general aviation engines will have dramatically 
reduced emissions and noise and will be extremely fuel efficient at a 
low cost. Their reliance on jet fuel is a major breakthrough given the 
environmental concerns over continued use of leaded aviation gasoline 
in today's general aviation piston engines. Last, although certainly 
not least is safety. The new engine technologies will bring a greater 
measure of safety to flight through enhanced reliability and easier 
maintenance due in part to the fewer moving parts found in these 
engines.
                       new avionics technologies
    Building on the FAA's National Airspace System (NAS) modernization 
plan and the Global Positioning System (GPS), general aviation 
manufacturers have been busy developing new products that will 
dramatically increase safety and efficiency of the current aviation 
system.
    NASA also makes significant contributions to advanced air traffic 
control procedures and equipment. We are pleased that the FAA and NASA 
have worked closely to coordinate their ATC research activities, and 
avoid duplication of efforts and leverage resources as much as 
possible. This NASA-FAA partnership is working, and should continue.
    Once the Wide Area Augmentation System (WAAS) is certified by FAA, 
a new generation of GPS/WAAS receivers from companies like GARMIN, 
Honeywell and UPS Aviation Technologies will be brought to market. 
These receivers will offer fast and easy access to basic navigation 
functions, and there will be standard function labels and abbreviations 
regardless of equipment manufacturer.
    As our industry continues to benefit from laptop computer-display 
research, we can expect cockpit displays in smaller aircraft to become 
even more sophisticated and less expensive than they are today. As a 
result, advanced multi-function displays (MFD) similar to the ones 
currently manufactured by Avidyne, Rockwell Collins, Honeywell and 
others will be ubiquitous.
    When coupled with a GPS/WAAS receiver, these new multi-function 
displays will not only depict a moving map, but also nearby terrain, 
engine operating parameters and other important information such as 
actual fuel burned versus the amount planned. The basic attitude and 
heading displays of the aircraft will be depicted in such a way that 
IFR flight can be easily accomplished. These technologies are being 
developed due in part to NASA's AGATE Consortium.
    BFGoodrich, Honeywell, and Universal Avionics have announced 
Terrain Awareness and Warning Systems, or TAWS, for small GA aircraft. 
Controlled Flight Into Terrain (CFIT) is a leading cause of general 
aviation accidents. With situational awareness technology in the 
cockpit, pilots will have information at their fingertips about the 
terrain over which they are flying.
    Also to help address CFIT accidents, NASA and the FAA are 
cooperating on a 5-year program to develop synthetic vision systems. 
Synthetic vision combines GPS with a precise terrain database to 
provide the pilot with the equivalent of daytime, clear weather view of 
the surrounding terrain even if the pilot is actually flying in 
nighttime, bad weather conditions.
    Companies like Avidyne, GARMIN, Rockwell Collins and Honeywell are 
working on products that will allow near real-time weather and weather 
forecasts to be displayed in the cockpit via ground-to-air or satellite 
datalink. Weather is the leading cause of general aviation accidents. 
Datalink will provide timely weather information in the cockpit so 
pilots can make better decisions about whether or not to proceed to 
their destination. NASA's Aviation Weather Information System (AWIN) is 
focused in these areas.
    The FAA is field testing in the Ohio Valley and Alaska ADS-B 
products by UPS Aviation Technologies that will allow traffic 
information to be automatically displayed via air-to-air datalink from 
nearby aircraft. This new technology allows pilots in the cockpit and 
air traffic controllers on the ground to see air traffic with more 
precision than radar and other tools allow. By relying on the GPS 
signal, pilots will see precisely where aircraft near them are and will 
know their intentions. Importantly, ADS-B could permit the airspace to 
be more efficiently utilized, increasing capacity and reducing delays 
in the system.
    Looking at all of these exciting new technologies, it is easy for 
me to get very enthusiastic about the future of general aviation, and I 
haven't even mentioned some of our great new training products, 
autopilots, or some of the advances being made by some of GAMA's 
component manufacturers.
    These new technologies will yield both improved margins of safety 
and increased operating efficiencies. The margin of safety will be 
dramatically improved when every paved and lighted airport in our 
nation can offer an instrument approach with vertical guidance. And 
when aircraft can fly on nearly any route they choose, and still be 
assured they remain well-clear of conflicting traffic or terrain, we 
will have achieved a new era of efficiency and safety for both aircraft 
operators and passengers alike. Finally, the safety benefits of timely 
weather information provided to pilots in the cockpit through datalink 
cannot be understated.
    Building on all of these emerging technologies, GAMA believes there 
is a significant role for general aviation in our nation's future air 
transportation system.
   general aviation's role in the nation's future air transportation 
                                 system
    As this committee well knows, general aviation provides critical 
access today to communities not served by air carriers. It connects 
small communities and businesses to the economic mainstream. Without 
access to airports, local officials would not be able to attract new 
business and economic investment in their communities.
    However, if general aviation can be more efficiently utilized, and 
we believe it can, then we can help to solve the capacity problems 
currently facing the air transportation system. With hub airports 
approaching gridlock at an ever-increasing pace, capacity of the 
current system is a legitimate concern. Improvements in the technology 
of general aviation aircraft, avionics and engines will make general 
aviation for a growing number of people an even safer, more reliable 
and affordable alternative to today's commercial air transportation 
system.
    This is also the vision of NASA's Small Aircraft Transportation 
System (SATS). The goal of SATS is to develop an innovative solution to 
air transportation delays. By dramatically increasing the reliability 
and safety of general aviation aircraft, air travel can be transformed.
    SATS is focused on achieving these goals through advancements in 
aviation technologies. These technologies include advanced flight 
controls and innovative avionics for near-all-weather access to any 
airport. In addition to aircraft technologies, NASA is focusing on 
investment in airport infrastructure. The program envisions the safe 
use of general aviation airports without additional control towers, 
radar or additional runway protection zones. Enhancing general aviation 
access to the over 5,000 airports across the nation greatly increases 
the capacity of our air transportation system. Rural counties and other 
areas will economically benefit from the increased access and capacity 
the SATS-developed technologies will bring.
    Another major focus of the SATS program has been to encourage 
smarter manufacturing techniques by drawing on automotive 
manufacturers' expertise. NASA has shown today's manufacturers of 
general aviation aircraft that mass production is possible if we 
incorporate some of the automakers' best practices into general 
aviation manufacturing. And basic economics tells us that increased 
production will drive down costs, making these more efficient, safer 
products more affordable for general aviation pilots.
    SATS also has a goal to reduce pilot training and proficiency 
requirements through increased use of safety-oriented technologies. 
When these technologies are deployed, access to personal aircraft 
travel will increase dramatically.
    I know that there are those who may question whether my vision for 
the future of general aviation is realistic. They may argue that the 
challenges to growing our industry are too great and our resources are 
too few.
    But I would remind those people that, for nearly 100 years, those 
of us in aviation have delighted in proving naysayers wrong. Like the 
Wright brothers themselves, we know that with determination and 
innovation, nothing is impossible.
                               conclusion
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions you might have.

    Senator Allen. Thank you, Mr. Bolen.
    Mr. Deel, you are next on our list.

         STATEMENT OF DENNIS DEEL, PRESIDENT, LOCKHEED 
        MARTIN SPACE SYSTEMS COMPANY, MICHOUD OPERATIONS

    Mr. Deel. Mr. Chairman and Senator Breaux, I am deeply 
grateful for your invitation to appear before your Subcommittee 
hearing today, and I think from the earlier dialog, it is 
obvious that the subject of today's hearing is certainly 
important and timely. As your Ranking Member said earlier, our 
company is located at NASA's Michoud Assembly Facility in New 
Orleans, and our primary product there is the external fuel 
tank for the Space Shuttle. Today it is my privilege to speak 
with you on behalf of the Lockheed Martin Corporation about 
some of the important contributions that NASA makes to our 
national goals, specifically in the areas of aeronautics and 
space research.
    Let me highlight just a few examples of the benefits of the 
long-standing collaborative aeronautics research efforts 
between Lockheed Martin and NASA, specifically some of those 
targeted at NASA's Langley Research Center. The conception, 
development and deployment of the F-16 fighter, currently a 
mainstay in both the United States and the allied air forces, 
has been greatly enhanced by a close relationship between 
Lockheed Martin and the NASA Langley Research Center. The next 
generation air dominance weapons systems, the F-22 Raptor, will 
ensure that the United States can secure and maintain air 
dominance, a prerequisite for a successful military operation. 
We used the results of Langley's research and development to 
achieve enhanced maneuverability and drag reduction on the F-
22.
    In the big-airplane military inventory, NASA's 
contributions are equally impressive. For our military's 
largest transport plane, the C-5, unique wind tunnel assets at 
Langley were used to predict air dynamic interference between 
the wing and engine cells and pylons, and to evaluate effects 
such as wake turbulence and landing power and active load 
alleviation reduction. The world's newest tactical transport, 
the C130-J, uses state-of-the-art liquid crystal flat panel 
flat displays, technology also developed in concert with NASA.
    But over the last several years, the lines of demarcation 
between aeronautics and space research have become blurred. The 
design methods, the modeling techniques and the structures and 
materials developments are often equally applicable in both 
environments. My specific division of Lockheed Martin is 
responsible, as I said, for the design and production of the 
external tank for the Shuttle. I would like to just relate some 
specific examples where Langley and my company have 
successfully worked together in providing specific developments 
that were then made available to this Nation's launch vehicle 
industry and also successfully incorporated into the Space 
Shuttle program.
    NASA Langley played a key role in the development of the 
high-strength, lightweight aluminum alloy called aluminum 
lithium 2195. This material, initially invented by Lockheed 
Martin, is currently flying on our Space Shuttle External Tank. 
In the late 1980s and early 1990s, Langley and Lockheed Martin 
worked together to further develop and to commercialize the 
material, and Langley successfully proved the feasibility of 
using this material for large-scale, expendable launch vehicle 
cryogenic tanks, to improve safety margins and payload delivery 
performance.
    In 1994, NASA's Marshall Space Flight Center decided to 
develop a redesigned External Tank made of this lightweight 
aluminum alloy. That has been executed. It provides the Space 
Shuttle with 7,500 pounds of additional payload capability. It 
has enabled the Shuttle to have the performance to perform the 
mission that it's achieving today, launching the components and 
building the international space station. That was a very cost-
effective change. That saved NASA on the order of $800 million 
of savings from other programs that they would not have to use.
    Today Langley and Lockheed Martin are continuing to work 
together to test applications of state-of-the-art friction stir 
welding technology with applicability to the tank and military 
and commercial aircraft components. Langley has provided 
hardware and development testing and demonstrations to support 
the MSFC decision to implement that technology as a Space 
Shuttle upgrade project.
    So in summary, Lockheed Martin is engaged with NASA on 
several levels that are of national interest, in the 
development of the world's best military defense capabilities, 
to ensure our Nation's future in space. It has been a team 
effort. We recognize that Langley Research Center is an 
invaluable partner for Lockheed Martin and the rest of the 
aerospace industry, as well. Their unique test facilities, 
their proven technical expertise, their development management 
capabilities, are national assets critical to the continued 
advancement of aeronautics and the successful exploitation of 
space.
    We rely on NASA to push the envelope, as Administrator 
Goldin said, in developing the technologies. As a Nation, we 
need a strong commitment to the continuation of this important 
work. I am encouraged to hear that NASA is requesting 
additional budget. I certainly share their concerns that as we 
have continued to do more with less over the last 9 years, we 
have increased the pressure on our key capital resource, our 
people, especially our young people, every year doing more with 
less, and we need to turn the trend around. It is key that we 
support NASA's investment in technology.
    Chairman Allen, I would like to thank you again for holding 
this Subcommittee hearing, and I appreciate your invitation to 
speak, and that concludes my remarks.
    [The prepared statement of Mr. Deel follows:]
  Prepared Statement of Dennis Deel, President, Lockheed Martin Space 
                  Systems Company, Michoud Operations
    Mr. Chairman, distinguished Members of the Senate Science, 
Technology, and Space Sub-Committee, my name is Dennis Deel, President 
of Lockheed Martin Space Systems Company, Michoud Operations. Chairman 
Allen, I am deeply grateful for your kind invitation to appear before 
your Subcommittee's inaugural hearing. The subject of today's hearing 
is certainly important and timely. Our facility is located in the state 
of Louisiana, home of Senator John Breaux, the Ranking Member of your 
Subcommittee, at NASA's Michoud Assembly Facility in New Orleans. It is 
my privilege and honor to speak with you today on behalf of the 
Lockheed Martin Corporation about some of the important contributions 
that NASA makes to our national goals, specifically in the areas of 
aeronautics and space research. I will first discuss Langley's 
importance to our Nation's aeronautics industry and then discuss their 
contributions to the space industry, an industry in which I am 
personally involved.
    An entering condition for our Nation's economic stability and 
prosperity is national security--and providing the tools and means for 
guaranteeing that security is our business at Lockheed Martin. The 
fundamentals of aeronautics obviously apply to all things that fly--be 
they airliners or air dominance fighter planes. Likewise, the 
scientists, researchers, research facilities, world-class laboratories 
and wind tunnels resident at the NASA Langley Research Center provide 
the means for developing, testing and validating innovative 
technological advancements on all classes of aero vehicles, whether 
they are commercial or military.
    Industry by the very nature of business is focused on the nearer 
term. NASA on the other hand, as a government research agency, is like 
an incubator, helping sustain support for the cutting edge research so 
critical to our Nation's security and prosperity. Let me highlight just 
a few examples of the synergistic benefits of the longstanding 
collaborative aeronautics research efforts that are underway between 
Lockheed Martin and NASA, specifically those preformed, or being 
performed, at NASA's Langley Research Center.
    The conception, development, and deployment of the F-16, currently 
a mainstay in both the U.S. and allied air forces, have been greatly 
enhanced by a close relationship between Lockheed Martin Aeronautics 
and the NASA Langley Research Center. NASA researchers and facilities 
helped solve numerous challenges over the years including spin 
recovery, high angle-of-attack stability, flutter clearance and deep 
stall recovery. Additionally, the F-16 deployed ``fly-by-wire'' 
technology and the side stick controller--both key technologies that 
were developed at Langley. In a cooperative program, we developed 
supersonic wing design methods and test processes used in the F-16XL 
supersonic cruise prototype. This research has greatly enhanced the 
development of the next generation air dominance weapons system--the F-
22 Raptor.
    The F-22 Raptor will help ensure that the United States can secure 
and maintain air dominance--a prerequisite for successful military 
operations that we have enjoyed since Desert Storm. We used the results 
of Langley's research and development of thrust-vectoring non-
axisymmetric nozzles and after-body integration to achieve enhanced 
maneuverability and drag reduction on the F-22. Additionally, Langley's 
support of our F-22 high angle-of-attack analysis led to outstanding 
agility and resistance to spin, both of which have been successfully 
demonstrated in the flight test program.
    In the ``big airplane'' military inventory, NASA contributions are 
equally impressive. For our military's largest transport plane, the C-
5, unique wind tunnel assets at Langley were used to predict 
aerodynamic interference between the wing and engine nacelles and 
pylons. In addition, C-5 wake turbulence, landing power, and active 
wing load alleviation effects were explored using Langley facilities. 
Additionally, an enhanced tail structure was recommended as a result of 
Langley parametric tests.
    Finally, we've used Langley developed aerodynamic computational 
codes in configuration development for the various models of the 
venerable C-130 Hercules since the 1950s. Under Langley sponsorship, we 
developed an advanced boron reinforced metal center wing box for the 
airplane and tested a composite center wing box. This development 
provided application expertise that has been crucial in F-22 
manufacture. The world's newest tactical transport, the C-130J, uses 
state-of-the-art liquid crystal flat-panel flight displays--technology 
also developed in concert with NASA.
    Still in the inventory and for years the ``Backbone on the Airlift 
Fleet'', the C-141 Starlifter also relied on NASA developed aeronautics 
technology. We learned about ``T-tail transonic flutter'' in a Langley 
wind tunnel. Together, we discovered, investigated and solved basic 
aerodynamic anomalies including elevator-induced flutter and aileron 
reversal.
    The NASA-Lockheed Martin partnership has equally enhanced the 
quality of systems operated today by the U.S. Navy and allied 
countries. The P-3 Orion, a variant of which recently dominated the 
international news, benefited from tests in the Langley transonic 
dynamics tunnel. Tests identified catastrophic propeller-whirl flutter 
and resulted in engine mount modifications. Additionally, the S-3 
Vikings flutter clearance and spin recovery characteristics were 
evaluated in Langley based tests.
    Longer term, we rely on NASA to ``push the envelope'' in technology 
development. For the past several years, NASA's Advanced Aircraft 
Program has broken new ground in providing key enablers that have 
allowed us to produce superior and survivable aircraft. As a nation, we 
need a strong commitment to continuation of this important work.
    Over the past several years, the lines of demarcation between 
aeronautics and space research have become blurred. The design methods, 
the modeling techniques, and the structures and materials discovery are 
often equally applicable in both environments. My specific division of 
Lockheed Martin is responsible for design and production of the 
External Tank for the Space Shuttle, this nation's first reusable 
launch vehicle. As mentioned earlier, this activity is performed on the 
NASA Michoud Assembly Facility in New Orleans. We have also been 
heavily involved in the X-33/Reusable Launch Vehicle (RLV) programs. On 
the X-33 program, for example, we are responsible for design and 
production of the metal cryogenic propellant tanks and the main 
propulsion system, as well as ground demonstrations of state-of-the-art 
composite liquid oxygen tank technology.
    I would like to relate some specific success stories where Langley 
and my company have successfully worked together in providing 
significant technology developments that were then made available to 
this nation's expendable launch vehicles and successfully incorporated 
into the Space Shuttle and X-33 programs.
    As the original NASA Manned Space Center, Langley Research Center 
has, starting with the Mercury program, decades of successful 
experience supporting the development of this nation's human space 
flight program. Industry recognizes that Langley continues to have a 
key role in supporting NASA's Space Flight and Space Transportation 
activities. Langley is NASA's Center of Excellence for materials and 
structures research. On NASA's Space Launch Initiative and Advanced 
Space Transportation programs, Langley is responsible for managing the 
development of all airframe technologies ranging from cryogenic tanks 
to wings, flight surfaces, and thermal protection systems. We look 
forward to working with Langley on these two exciting programs which 
are aimed at providing safer, more reliable and less expensive launch 
systems to help this country fully realize the commercial potential of 
space.
    NASA Langley played a key role in the initial development of a high 
strength, lightweight aluminum alloy called aluminum lithium 2195. This 
material, initially invented by Lockheed Martin, is currently flying on 
the Space Shuttle External Tank. In the late 1980s and early 1990s, 
Langley and Lockheed Martin worked together, initially on company 
funded basic research and then later on the joint NASA /DOD Advanced 
Launch System (ALS) program, to further develop and commercialize the 
material. Langley's efforts included electron microscopy to 
characterize the elemental structure of the new alloy and refine its 
manufacturing processes. During the ALS program, Langley personnel 
provided technical oversight for the alloy chemistry optimization, 
manufacturing process development, welding process development and 
large-scale component demonstrations. Langley successfully proved the 
feasibility of using this material for large-scale cryogenic expendable 
launch vehicle tanks to improve their safety margins and payload 
delivery performance. Langley also successfully managed the development 
of near net shape technology that proved the feasibility of 
economically forming this material into its final part form minimizing 
costly machining and chemical etching normally required in building the 
part.
    Building on the success demonstrated on the ALS program, in 1994 
the NASA Marshall Space Flight Center decided to develop a redesigned 
External Tank made of the aluminum-lithium material to provide a 7,500-
pound payload increase required for the Space Shuttle to successfully 
deliver key components to the International Space Station. The economic 
significance of this important development was an approximate $800 
million cost savings to NASA by avoiding the completion of other more 
costly shuttle performance enhancement options. NASA Marshall Space 
Flight Center and Lockheed Martin could not have been successful in 
developing the aluminum lithium External Tank within cost and on 
schedule without the direct contributions of key Langley personnel. 
Langley's critical Super Lightweight External Tank development roles 
included design evaluation support and daily technical assistance in 
areas of alloy chemistry, fracture mechanics, thermal mechanical 
properties and hardware certification. These efforts helped the 
Marshall Space Flight Center transition aluminum lithium 2195 from a 
development material into full-scale commercial production.
    Today Langley and Lockheed Martin are continuing to work together 
to test representative applications of state-of-the-art Friction Stir 
Welding technology on both External Tank and military and commercial 
aircraft components. Friction Stir Welding is being incorporated by 
Marshall Space Flight Center on the External Tank program as a part of 
the NASA's Shuttle Upgrades; a program which is aimed at increasing 
safety and improving reliability of key Space Shuttle systems. Langley 
provided demonstration hardware utilized for development testing and 
proof of concept demonstrations leading up to the Marshall Space Flight 
Center decision to implement this important Shuttle Upgrade project.
    In 1995, we became involved in the X-33/Reusable Launch Vehicle 
program. One of the key challenges was to develop lightweight 
structures and tanks that were both robust enough for multiple missions 
but light enough to meet Single-Stage-to-Orbit mass requirements. One 
technology needed to help meet these two requirements was a structural 
health monitoring sensor system. This system provides real time 
feedback and analysis of the structural loads experienced during a 
mission and would be used to help validate that the vehicle airframe is 
safe to fly again which assists rapid turnaround for the next mission. 
We turned to LaRC to help develop a sensor system for the X-33 program 
to satisfy this requirement. Langley engineers successfully qualified 
and provided the structural sensor system to the X-33 program and the 
system has been installed on the X-33 vehicle.
    Langley also provided significant support on the X-33 program in 
the testing and evaluation of combined cycle thermal and mechanical 
loading of reusable cryogenic insulation materials and developed a 
unique test capability that incorporated temperature extremes at 
mission conditions. Langley has since successfully developed and 
commercialized a cryogenic insulation.
    Finally, we have also received significant design review, trade 
study and composite panel testing support from Langley to support our 
composite liquid oxygen tank development activities; activities we have 
performed as part of the X-33 ground demonstration program and the X-34 
composite liquid oxygen development program.
    In summary, Lockheed Martin is engaged with NASA on several levels 
that are all of national interest. From the development of absolutely 
the world's best military defense capabilities to our assuring our 
Nation's future in space, it is team effort. We recognize Langley 
Research Center as invaluable partner for Lockheed Martin and the rest 
of the aerospace industry. Their unique test facilities, proven 
technical expertise and development management capabilities are 
national assets critical to the continued advancement of aeronautics 
and the successful exploitation of space.
    Chairman Allen, I want to thank you again for holding this 
important hearing today and for asking me to participate in it. I am 
ready to respond to your questions.

    Senator Allen. Thank you. We would now like to hear from 
Mr. Roy V. Harris, who is Chief Technical Advisor, NASA 
Aeronautics Support Team.

       STATEMENT OF ROY V. HARRIS, JR., CHIEF TECHNICAL 
      ADVISOR, NASA AERONAUTICS SUPPORT TEAM, HAMPTON, VA

    Mr. Harris. Thank you, Mr. Chairman. The NASA Aeronautics 
Support Team is delighted to have this opportunity to present 
its views on NASA's aeronautics program. We are concerned that 
NASA's aeronautics program has been reduced by about one-third 
in recent years, and that the Bush fiscal year 2002 budget 
proposes additional reductions that could result in a funding 
level of about one-half the 1998 aeronautics program, or, put 
another way, less than 4 percent of NASA's 2002 overall budget.
    We are also aware that NASA is developing, as Administrator 
Goldin alluded to in his remarks, an aeronautics vision for the 
21st century, which will be released by September of this year. 
We applaud this effort and believe that it is a necessary step 
in revitalizing the NASA aeronautics program. However, we also 
believe that the continued reductions in funding for 
aeronautics research are inconsistent with any realistic plan 
to implement the vision. As others have mentioned, 25 years 
ago, the U.S. had 90 percent of the world market for commercial 
aircraft sales. Ten years ago, the U.S. share had dropped to 
about 70 percent. Today, our market share is about 50 percent. 
That sounds like a going-out-of-business curve to me.
    Still, aircraft sales are a large positive contributor to 
the U.S. trade balance, about $41 billion in 1998 and $33 
billion in 1999. It seems incomprehensible to us that while our 
European competition is calling for increased government 
funding for aeronautics research, in order to gain leadership 
over the United States and potentially eliminate the only U.S. 
industry that produces a large positive balance of trade, that 
our government is continuing to reduce its support for this 
investment in our future. Perhaps even more important, the U.S. 
transportation system, as others have pointed out, is headed 
toward a major crisis. The problems we have been experiencing 
with increasing flight delays and near-misses are just the tip 
of the iceberg.
    A safe, effective and efficient national transportation 
system, with ample capacity to keep up with increased demand, 
is essential for the U.S. economy to continue to grow. It is 
also absolutely essential for the continued growth of e-
commerce, since products bought over the Internet must be 
delivered by the transportation system. Throughout their 
history, NASA and its predecessor, the NACA, invested heavily 
in world-class national test facilities, such as wind tunnels, 
structural test facilities, simulators and flight test 
facilities, and have developed a technical staff of scientists, 
engineers and technicians who are second to none in the world.
    Unfortunately, funding for NASA's aeronautics program has 
been reduced to the point that we are losing our depth of 
expertise and the national test facilities are being starved 
for adequate maintenance and desperately needed upgrades. We 
agree with the 1999 report by the Committee on Strategic 
Assessment of U.S. Aeronautics, by the National Research 
Council, which I think you quoted in your introductory remarks, 
and, I quote,

          ``Continued reductions in funding for aeronautics R&D may 
        have irreversible consequences; once the leadership position of 
        the United States in aeronautics is lost, it will be 
        exceedingly difficult to regain, because of the difficulty in 
        reassembling the infrastructure, people and investment 
        capital.''

    The NASA aeronautics budget was reduced by about one-third 
in fiscal 1999 and 2000, almost all work on developing the 
technologies for a future U.S. supersonic airliner were 
terminated. In addition, the advanced subsonic technology 
program was canceled. The Bush fiscal 2002 budget proposes two 
additional major reductions, the elimination of all NASA 
rotorcraft research, and as best we can understand it, 
essentially all NASA-funded military aviation research. This 
effectively severs the long-standing, cost-effective 
partnership between NASA and the DOD, on which the U.S. depends 
for military superiority.
    We understand that the budget pressures faced by NASA and 
which were described by Mr. Goldin, are very severe, and we 
understand the need for the development of new technologies for 
more efficient space launch capability. However, we do not 
believe that the Nation can afford to sacrifice NASA's 
traditional aeronautics research in order to satisfy space 
program demands. We believe that NASA's vision for the 21st 
century will present an exciting picture for the future. 
However, we do not agree that the vision can be realized by 
reinvesting the already subcritical aeronautics budget into a 
few potentially revolutionary new technologies.
    NASA must maintain a complete aeronautics program, 
encompassing all relevant technical disciplines and vehicle 
classes. We believe that this can be accomplished only by a 
doubling of the aeronautics portion of NASA's budget.
    In conclusion, we believe that NASA's overall budget does 
need to be increased in order to provide the funds necessary 
for a world-class aeronautics research program. Our national 
economic well-being depends on it. Our national defense depends 
on it, and it will impact the quality of life of all Americans.
    Thank you.
    [The prepared statement of Mr. Harris follows:]
  Prepared Statement of Roy V. Harris, Jr., Chief Technical Advisor, 
                     NASA Aeronautics Support Group
    Mr. Chairman and distinguished Members of the Subcommittee on 
Science, Technology and Space, the NASA Aeronautics Support Team (NAST) 
is delighted to have this opportunity to present its views on NASA's 
aeronautics program. NAST is a private, nonprofit organization 
advocating for ``the first A'' in NASA--aeronautics research--which we 
believe is essential for a safe and effective U.S. air transportation 
system, superior U.S. military aviation technology, and an 
internationally competitive U.S. civil aircraft industry.
    We are concerned that NASA's aeronautics program has been reduced 
by about one-third in recent years (See attached chart 1.), and that 
the Bush FY02 budget proposes additional reductions that could result 
in funding at a level of about one-half the FY 1998 aeronautics program 
(or, less than 4% of NASA's 2002 overall budget). It should be noted 
that this estimate is based on our own analysis of the of the FY02 
budget proposal. NASA no longer has a line item in its budget for 
aeronautics, making it very difficult for Congress and the public to 
determine how much (or how little) is being spent in this very 
important area. (See attached charts 2 through 5.)
    We are also aware that NASA is developing an aggressive 
``Aeronautics Vision for the 21st Century'' to be released by September 
2001. We applaud this effort and believe that it is a necessary step in 
revitalizing NASA's aeronautics program. However, we also believe that 
the continued reductions in funding for aeronautics research are 
inconsistent with any realistic plan to implement the vision.
    We are encouraged by passage of the amendment offered by VA/HUD 
Appropriations Subcommittee Chairman Christopher Bond (R-MO) and 
Ranking Democrat Barbara Mikulski (D-MD) to increase funding for 
Function 250 by $1.44 billion in FY2002. It is our understanding that 
$518 million of that amount is designated for NASA. We hope that a 
significant portion of these funds will be allocated for aeronautics 
research.
                        u.s. aviation in crisis
    Twenty-five years ago, the U.S. had over 90% of the world market 
for commercial aircraft sales. Ten years ago the U.S. share of that 
market had dropped to about 70%. Today our market share is about 50%, 
and some project that it will reach as low as 30% in the near future. 
Still, aircraft sales are a large positive contributor to the U.S. 
trade balance, 41 billion dollars in 1998 and $33 billion in 1999. 
Aircraft sales have a very high leverage on balance of trade. For 
example, one Boeing 747 sold overseas cancels out ten thousand foreign 
automobiles sold in this country. In addition, civil aviation directly 
employs about 800,000 highly paid workers, and another 2 million 
support workers. We cannot afford to give this lucrative market away to 
our foreign competitors.
    Realizing the societal benefits of this huge potential market in 
which they are gaining the competitive advantage, the European 
Commission has laid out an aggressive plan: In a report entitled 
``European Aeronautics: A Vision for 2020'' they state their two 
ultimate goals--global aeronautics leadership in Europe, and a world 
class European air transportation system that will be copied by the 
rest of the world. It recognizes that ``aeronautics is a particularly 
high-tech business working on long lead times and requiring huge 
capital sums". The report recommends the creation of an ``Advisory 
Council for Aeronautics Research in Europe'' and states that it ``must 
be facilitated by an increase in public funding", and that ``total 
funding required from all public and private sources over the next 20 
years could go beyond 100 billion Euros'' (about $95 billion).
    It seems incomprehensible to us that while our European competition 
is calling for increased government funding for aeronautics research in 
order to gain leadership over the U.S. and eliminate the only U.S. 
industry that produces a large positive balance of trade, that our 
government is continuing to reduce its support for this investment in 
our future.
    Perhaps even more important, the U.S. transportation system is 
headed toward a major crisis. The problems that we have been 
experiencing with increasing flight delays and near misses are just the 
tip of the iceberg. Air traffic will nearly double in the next decade 
and will triple in 20 years. The U.S. transportation system will 
completely choke in about 8 to 10 years if solutions are not found. The 
FAA and the airlines are focused on finding solutions to the very 
significant problems that exist today, while NASA needs to be doing 
more to develop solutions to the vastly more difficult problems looming 
in the future.
    As air travel triples in the next two decades, it will also be 
necessary to make significant improvements in aviation safety and 
environmental impact. Despite an alarming increase in aviation 
accidents in recent years, the aviation accident rate is still very low 
and air travel remains the safest method for long distance travel. 
Nevertheless, even if we can maintain the current low accident rate and 
as air traffic significantly increases in the coming decades, we will 
see a dramatic increase in aviation accidents if the already low 
accident rate isn't significantly reduced. Some have projected that a 
failure to reduce the accident rate will result in a major accident 
every week within the next two decades. In addition, noise and 
pollution problems at our major airports will become significantly 
worse as air travel increases.
    A safe, effective, and efficient national transportation system 
with ample capacity to match the increasing demand is essential for the 
U.S. economy to continue to grow. It is necessary in order to bring 
goods to market, parts and supplies to our factories, and people to all 
points of the globe. It is also absolutely essential for the continued 
growth of e-commerce, since products bought over the internet must be 
delivered via the transportation system. The national airway system is 
the only component of our transportation system (air, rail, highway, 
and sea) that has any hope of expanding to meet the needs of a growing 
U.S. economy. The coming transportation crisis could bring an end to 
U.S. economic expansion and will be a quality of life issue for all 
Americans.
    NASA also has an important role to play in military aviation 
technology. The first NASA (then NACA) aeronautical laboratory at 
Hampton, VA and the first U.S. military aeronautical laboratory at 
Dayton, OH were authorized by the same act of Congress in 1915 (a 
reaction to the realization, after World War I, that Europe was ahead 
of the U.S. in aviation technology). Both facilities initially focused 
on military aviation technology. Thus, a partnership evolved in which 
NACA performed basic research and investigated long-term potential 
applications and DOD focused on development testing and near-term 
applications.
    Numerous aeronautics ``breakthroughs'' have resulted from this very 
cost-effective partnership. Some recent examples include shaping for 
stealth; multi-axis thrust vectoring exhaust nozzles integrated with 
aircraft flight-control systems; fly-by-wire flight control 
technologies; high-strength, high-stiffness fiber composite structures; 
and tilt-wing rotorcraft technology. Many of these advances are now 
finding widespread use in both military and civil aircraft. We believe 
that the U.S. has produced second-to-none U.S. military aircraft for 86 
years as a direct result of this partnership. Now, for the first time, 
NASA's participation in the partnership seems to be threatened.
    In a recent letter to the Secretary of Defense, the NASA 
Administrator stated that: ``This program [the NASA Advanced Aircraft 
Program (AAP)] has been a key element of our partnership with the Air 
Force for many years. Increasing budget pressures over the last several 
years have not abated and have led us to consider terminating the 
AAP.'' It is our understanding that the AAP is zero-funded in FY02.
    Throughout their history, NACA and NASA have invested heavily in 
world class, national test facilities (such as wind tunnels, structural 
test facilities, simulators, and flight test facilities) and have 
developed a technical staff of scientists, engineers, and technicians 
who were second-to-none in the world. NASA has become the national 911 
for both civil and military aviation problems, and is the only federal 
agency with the in-house expertise, experimental test facilities, 
computational tools, and far-term research focus required to provide 
long-term solutions to future civil and military aviation problems. 
Unfortunately, funding for NASA's aeronautics program has been reduced 
in recent years to the point that we are losing our depth of expertise 
and the national test facilities are being starved for adequate 
maintenance and needed upgrades.
    We agree with the 1999 report by the Committee on Strategic 
Assessment of U.S. Aeronautics of the National Research Council stated 
that: ``Aviation is an R&T-intensive industry.'' ``. . . future 
capability rests solidly on today's aeronautics R&T investment.'' ``. . 
. continued reductions in funding for aeronautics R&T may have 
irreversible consequences. Once the [leadership] position of the United 
States in aeronautics is lost, it will be exceedingly difficult to 
regain because of the difficulty in reassembling the infrastructure, 
people, and investment capital.''
    Since the publication of that report, NASA funding for aeronautics 
research has continued to decline. If the current low level of funding 
for NASA aeronautics research continues, it is a certainty that the 
United States will not remain a world leader in aeronautical science 
and technology for either civil or military applications.
                  the nasa aeronautics budget picture
    As mentioned earlier, the NASA aeronautics budget was reduced by 
about one-third in FY99 and FY00. Almost all work on developing the 
technologies for a future U.S. supersonic airliner was terminated. In 
addition, the Advanced Subsonic Technology Program, which was focused 
on developing the pre-competitive technologies that would ultimately 
make U.S. aircraft more efficient, improve noise and emissions, and 
reduce ticket prices, was also cancelled. We believe that both of these 
classes of aircraft will be very important to U.S. civil and military 
competitiveness in the future, and that new technologies unique to 
NASA's expertise and test capability will be required. Although some of 
the work from these programs has continued in other programs, we 
believe that much more work is needed.
    In FY01, the aeronautics budget essentially remained stable with 
respect to FY00. The Bush FY02 budget proposes two additional major 
reductions. The elimination of all NASA rotorcraft research and, as 
best we can understand it, essentially all military aviation 
technology. This effectively severs the long-standing, cost-effective 
partnership on which the U.S. depends for military superiority. 
Although we believe the Aviation System Capacity program, the Aviation 
Safety program, and the Small Aircraft Transportation System program 
are adequately funded in FY02, the net effect is an additional 20% 
reduction to the overall NASA aeronautics program.
    We understand that the budget pressures facing NASA are severe, and 
we understand the need for the development of new technologies for more 
efficient space launch capability. However, we do not believe that the 
nation can afford to sacrifice NASA's traditional aeronautics research 
role to satisfy space program demands.
    regaining u.s. preeminence in aeronautics through nasa research
    The good news is that NASA has the capability to solve most of the 
nation's aeronautics problems. Research currently underway can be 
expanded to capitalize on the expertise and national test facilities 
already existing at the NASA Aeronautical Research Centers. NASA has 
programs underway that are aimed at making improvements in many of the 
key areas. These programs can be significantly expanded and other new 
programs can be developed to meet the long-term national technology 
needs for civil and military aviation.
    Aeronautics is not a mature science and many new concepts are 
emerging from NASA research that could revolutionize aviation. Some 
examples are: very-large blended-wing-body aircraft for both civil and 
military missions; a transpacific supersonic airliner that is both 
economically viable and environmentally friendly; an aero-space plane 
that can fly cheaply to space; technologies for advanced unpiloted 
military aircraft; aircraft that can change their shape seamlessly in 
flight; advanced rotorcraft or tiltrotor aircraft that can offload the 
runways at our hub airports; a new generation of safe and easy-to-fly 
personal aircraft; advanced cockpits with synthetic vision, satellite 
navigation, and highway-in-the-sky technology; and, reduced runway 
spacing requirements and vortex control technology to increase hub 
airport throughput.
    We believe that NASA's ``Aeronautics Vision for the 21st Century'' 
will agree with the problems facing U.S. aviation that we have outlined 
here, and that NASA can provide the solutions that are so desperately 
needed. We do not agree that the vision can be realized by reinvesting 
the already sub-critical aeronautics budget into a few potentially 
revolutionary new technologies. NASA must maintain a complete 
aeronautics program encompassing all of the relevant aeronautical 
disciplines and vehicle classes. Funding needs to be restored to the 
pre-1998 levels and the program revitalized to provide the desperately 
needed long-term technology solutions to America's civil and military 
aviation needs.
    We believe that this can be accomplished only by a doubling of the 
aeronautics portion of NASA's budget over the next 4 years, from about 
730 million dollars in FY01 to about 1,400 million dollars in FY05. 
(See attached charts 6 through 9.) This is not an unreasonable 
increase, considering the fact that NASA's aeronautics budget in FY98 
was about 1 billion dollars in terms of FY01 dollars.
    In conclusion, we believe that NASA's overall budget needs to be 
increased to provide the funds necessary for a world-class aeronautics 
research program--that, as a result, it will no longer be necessary to 
rob aeronautics in order to pay for space projects--and that the U.S. 
will regain its historic position as the world leader in both civil and 
military aviation. Our national economic wellbeing depends on it, our 
national defense depends on it, and it will impact the quality of life 
of all Americans. As we approach the one hundredth anniversary of the 
Wright brothers first flight at Kitty Hawk, NC in 2007, let it be said 
of this Congress that they had the wisdom to invest in the systematic 
research methods first demonstrated by Orville and Wilbur and practiced 
by NASA, that maintained U.S. world leadership in both aeronautics and 
space.




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Senator Allen. Thank you, Mr. Harris. We will ask you 
questions after everyone has completed their remarks.
    Mr. Swain is next, Mr. David Swain, Senior Vice President 
for Engineering and Technology, and President, Phantom Works, 
the Boeing Company.

      STATEMENT OF DAVID O. SWAIN, SENIOR VICE PRESIDENT, 
   ENGINEERING AND TECHNOLOGY; PRESIDENT, PHANTOM WORKS, THE 
                         BOEING COMPANY

    Mr. Swain. Thank you very much, Mr. Chairman and Senator 
Breaux, for letting me testify today. I want to start by making 
three main points; first, that aerospace research serves an 
important public good. It is a foundation for our national 
security and a key element in the economic growth of our 
country. Also, a robust program is key in attracting, 
developing and retaining the intellectual capital on which our 
Nation will depend for global aerospace leadership.
    Second, the Boeing Company strongly endorses Administrator 
Goldin's goal to reinvigorate NASA's role as an enabler of 
breakthrough aerospace research and technology. Over the years, 
NASA's leadership and investment has significantly advanced 
aerospace technologies and reduced the cost of application. 
These enabling technologies produce significant public benefits 
by improving the safety, efficiency, and environmental 
performance of aerospace products and services.
    Third, the last several years have seen a decline in 
government investment in aerospace technology, both in NASA and 
at the Department of Defense. I view this trend with concern, 
knowing the challenges that lie ahead of us and the competition 
from our competitors abroad. Aerospace research and technology 
and NASA's contribution over the years have been a strong 
component to our national security posture. The quickened pace 
of technology development and movement around the world in the 
future global environment that is uncertain, makes it even more 
important today to have a strong technology base that provides 
future options for our defense than it did ever before.
    Looking back, that technology base has led to products that 
we see today and emerging products, such as the unmanned air 
vehicles that are now readying for development in our defense. 
Aerospace research contributes both to the national and 
economic security and the pursuit of safer, more reliable, 
lower-cost access to space. Our defense is getting more 
critically dependent on space, as well as economic development.
    In the age of instant global communications, our economy is 
very dependent on space and its ability to use it when needed. 
Fundamental technology challenges remain in this area, 
including lightweight, low-cost airframes, propulsion system 
breakthroughs, and health management systems. I do agree with 
Mr. Goldin that many of these same technologies are as 
applicable to aeronautics as to space. Aerospace research and 
technology have significant implications for air 
transportation, which is the basic enabler to our current 
economic growth. First among the challenges is our national 
aviation system, which is approaching the limits of its 
capacity at the same time traveler demand is increasing.
    The situation, underscored by passenger delays, increases 
serious economic implication on the airlines--is approaching a 
crisis that demands a comprehensive effort with the highest 
national priority. Another dimension to air transportation is 
the demand for environmentally responsible aviation, including 
control of noise emission and more efficient airplanes and 
airplane operation. As mentioned earlier, the European 
aerospace vision identifies approximately $90 billion over the 
next 20 years to take them to aerospace leadership.
    Over this same period, our company will not stand still. We 
will invest over $50 billion in research and development, but I 
have to admit most of this is product-specific and not research 
and technology. We will invest about 10 percent, or closer to 
$5 billion, in basic research and technology, which is small, 
certainly compared to the European commitment. So as critical 
as before, it is important to our industry and our country that 
the government take a critical role, particularly in research 
and technology, that is focused on breakthroughs that can lead 
us into the next generation of vehicles and support systems.
    In addition to NASA's role as the innovation engine, we 
strongly support focused NASA efforts to integrate breakthrough 
technology for systems solutions. Each of Boeing's top 
aeronautical and research technology programs demand and 
benefit from the synergies of an integrated approach and are 
well-aligned with the NASA budget that is before this 
Subcommittee; these are air traffic management; 21st century 
vehicle technology; and a space launch initiative.
    I understand budget constraints. I live with those every 
day in our business. I am not optimistic we can make huge 
budget changes in this year, but I think it is important that 
the dialogs be started; that we understand the impact the trend 
has had to date and what the impact of continuing to reduce 
budgets over time will mean, relative to our competitive 
position and our ability to have a strong defense.
    It is time to start a dialog. I thank this Subcommittee for 
beginning that dialog, where both government and industry and 
universities interchange and develop a plan that will ensure 
that we have a robust program that will support our national 
security and will support our commercial aviation business in 
the future.
    Mr. Chairman, thank you for your time and listening.
    [The prepared statement of Mr. Swain follows:]
Prepared Statement of David Swain, Senior Vice President of Engineering 
      and Technology; Chief Technology Officer, The Boeing Company
    Thank you Mr. Chairman and Members of the committee. I am David 
Swain, Senior Vice President of Engineering and Technology and Chief 
Technology Officer for the Boeing Company. I am pleased to testify in 
support of robust aerospace research and development funding and NASA's 
Aerospace Technology Enterprise.
    I want to leave three points with you this afternoon.
    <bullet> First, aerospace research serves an important public good. 
It is a foundation for national security and economic growth, not least 
because of the role of aerospace research in attracting, developing, 
and retaining the intellectual capital on which the nation will depend 
for global aerospace leadership.
    <bullet> Second, the Boeing Company strongly endorses Administrator 
Goldin's goal to reinvigorate NASA's role as the enabler of 
breakthrough aerospace research. Over the years, NASA leadership and 
investment have significantly advanced aerospace technologies and 
reduced the risk of application. These enabling technologies have 
produced significant public benefits by improving the safety, 
efficiency, and environmental performance of aerospace products and 
services.
    <bullet> Third, the last several years have seen a decline in 
government investment in aerospace technology, especially funding 
related to aeronautics in NASA and the DoD. I view this situation with 
concern in view of the challenges that lie ahead of us in a future 
characterized by uncertainty and change.
    Aerospace research is important to national security and economic 
growth.
    Aerospace research and NASA's contribution over the years have been 
a strong component of our national security posture. The quickening 
pace of technology development around the world and a future global 
environment that is quite uncertain make it even more important to 
invest in technology research that reduces risk and enables options for 
future needs. Looking back, it is exactly this type of research, 
conducted by NASA in concert with the Department of Defense, that has 
advanced options such as unmanned air vehicles, which are ready today 
to transition into development.
    Aerospace research contributes to both our national and economic 
security in its pursuit of safer, more reliable and lower cost access 
to space. The military is critically dependent today on space based 
assets, and is expected to become more dependent in the future. In the 
age of instant global communications, our economic well being is also 
dependent on space based systems. Fundamental technology challenges 
remain in this arena, including light weight, low cost airframes, 
propulsion, and health management systems.
    Aerospace research has significant implications for air 
transportation, which is a basic enabler for economic growth. First 
among the challenges is our national aviation system, which is 
approaching limits in its capacity at the same time that traveler 
demand is increasing. This situation, under-scored by passenger delays 
with increasingly serious economic implications, is approaching a 
crisis that demands a comprehensive effort with the highest national 
priority. As you are aware, Boeing has established a new business unit 
dedicated to air traffic management, and we are working with NASA, the 
FAA, and other stakeholders to define a new operational concept to 
improve safety, increase capacity and reduce delays.
    Another dimension of air transportation is the demand for 
environmentally responsible aviation, including control of noise, 
emissions, and more efficient airplanes and airplane operations. NASA 
pre-competitive research is addressing this public good with focused 
programs that involve all the stakeholders.
    Boeing strongly supports NASA's role as the enabler of breakthrough 
aerospace research.
    The European Aerospace vision identifies $90B or so from public and 
private sources over the next 20 years for aerospace research and 
technology. Over the same period, Boeing will invest $40B-$50B in 
Research and Development. Most of this will be product focused, with 
about $4B-$5B related to long term research and technology. Even then, 
longer-term research must satisfy certain business constraints. It is 
therefore critical that government, and particularly NASA, continue its 
historical role of supporting break-through, pre-competitive research 
that has a longer time horizon than industry can support--10 years or 
more--before it is mature enough to be considered for transition to 
product development.
    In addition to NASA's role as an innovation engine, we strongly 
support focused NASA efforts that integrate breakthrough technologies 
for system solutions. Each of Boeing's top aeronautics research and 
technology priorities demand and benefit from the synergies of an 
integrated approach, and are well aligned with the NASA budget that is 
before the Subcommittee. They are air traffic management, 21st century 
air vehicle technology, and the space launch initiative.
    Projected air travel threatens to overwhelm an already congested 
air traffic network calling for a new, system level approach 
incorporating space-based assets integrating accurate navigation and 
information technologies. Research and technology investments are 
needed in modeling and simulation, architecture studies and tools.
    NASA's long-term investments for aeronautics research and 
technology will be applied to 21st century commercial and military air 
vehicles. The goals for 21st Century air vehicle technologies are 
increasing performance, maintaining an outstanding safety record, 
improving reliability, and reducing development and production cost and 
cycle time. Breakthrough 21st Century air vehicle technologies will be 
pursued with an integrated (wings, propulsion, and fuselage) approach 
within a 10 to 20 year vision.
    Similarly in the space launch arena, NASA's long-term investments 
provide an opportunity for technology breakthroughs that will change 
how we think about meeting the safety, reliability and affordability 
goals for future commercial and military access to and use of space.
    Funding for US aerospace research is declining in a competitive 
global environment.
    Notwithstanding the significant implications of aerospace research 
for national security and economic growth, there are some who question 
the government's role in this arena. This is not the case with our 
aerospace competitors in Europe and Asia. Europe, for example, prizes 
global aerospace leadership and a world class transport system as a 
goal by 2020. The goal is underpinned by a supportive public, favorable 
policy regulation, and a rigorous research agenda. To quote from the 
European Vision: ``European aeronautics has grown and prospered with 
support of public funding, and this support must continue if we are to 
achieve our objective of global leadership.''
    More troublesome than the actions of our global competitors are 
recent trends in funding for aerospace related science and technology 
in NASA and in the DoD. Industry associations, including the Aerospace 
Industries Association, and concerned aerospace professionals have 
documented these trends. Statistics of particular concern to me are the 
amount of national funding going into aerospace research and 
development, which has halved over the past 20 years, and NASA's 
investment in aeronautics research, which has declined 40% in the last 
6 years. These trends put in future jeopardy the aerospace industry's 
position as the most positive contributor to the trade balance of any 
industry in the United States. The trends are already manifest in 
declining global market share for US aerospace companies, and translate 
directly into fewer American jobs and reduced US tax revenues.
    Budget constraints mean fewer technology initiatives and fewer 
prototype demonstration programs in DoD and NASA. This has translated 
into fewer opportunities to develop and transition leap ahead 
technologies to address national needs, and importantly, fewer 
opportunities to attract and engage a new generation of aerospace 
talent on which our nation will depend. A strong ``base research and 
technology program'' in aeronautics and aerospace is essential for 
providing the foundation on which to build a wide array of specific 
applications that serve the national interest.
    Given today's constraints on federal resources, I do not expect the 
funding gap for aerospace research and technology will be closed in a 
significant way this budget year. However, I do strongly recommend that 
the Congress, at a minimum, fully support the NASA aerospace research 
and technology budget. Moreover, I recommend that the Administration 
and the Congress take a long-term view of the nation's investments in 
aerospace technology and the return on those investments to the 
American taxpayer. This view should consider the benefits that have 
resulted from past investments in aerospace technology, and what the 
consequences to national security and economic growth will be from not 
investing in the future.
    Mr. Chairman, it has been some time since Boeing has testified in 
support of aerospace research and technology funding. I sincerely 
appreciate your initiative in providing us this opportunity. My hope is 
that today's proceedings are the start of a national dialog on this 
important subject.
    Thank you.

    Senator Allen. Thank you, Mr. Swain, Mr. Deel, Mr. Bolen, 
and Mr. Harris for your testimony. I am going to ask a few 
questions. Most of the questions I was going to ask, each and 
every one of them, you all actually addressed in your 
statement. Clearly, each and every one of you, in a variety of 
ways, you understand and certainly strongly support NASA. As 
far as the aerospace, aeronautics aspect of it, Mr. Harris, in 
particular, NASA Langley, but clearly hearing from Mr. Deel, as 
far as Lockheed, from the Michoud; is that how you would 
pronounce it? Michoud? Michoud?
    Senator Breaux. Michoud.
    Senator Allen. C'est bon.
    [Laughter.]
    Senator Allen. At any rate, your comments are important, 
and how that affects Lockheed really does mean a great deal, I 
think, to all of us. We are beginning a dialog. That was the 
whole purpose of this hearing, was to learn more, not just from 
NASA, but from those who work with NASA, whether it is general 
aviation or big, big companies such as Boeing and Lockheed. The 
question I asked Mr. Goldin, which I think is very important 
for all of us, is to find ways--and you do it in the private 
sector all the time--to measure your investment.
    Research and development does not always have a quick 
turnaround, and each of your companies has a certain amount 
allocated for research and development, but to the extent we 
are going to be investing more taxpayers' money logically, so 
we keep that competitive edge for our national security, make 
sure we have the industrial infrastructure for aviation in the 
future, and the next generations, using times evolutionary and 
revolutionary, but all the advances, it is absolutely essential 
for our Nation, for our economy, for our quality of life, for 
our environment, for jobs and obviously for our national 
security, as well. But as we make these investments, it is very 
important--and if any of you can share with us ways to measure 
it--Administrator Goldin at least said, ``Here are our set 
goals, here is what we want to do in reduction and delays, and 
lost time or accidents, or capacity and fuel efficiency and so 
forth.''
    To the extent that you could share with me and with us, 
ways that we can see we are getting that bang for the buck, 
that return on the investment for the taxpayers, I think is 
absolutely essential, because you do not want to squander the 
taxpayers' money. I think everyone recognizes, who has a 
scintilla of knowledge, how important this is for our country 
and our future. But nevertheless, spending money alone is not 
the only answer. Spending it intelligently, and also with the 
credibility that you are getting a return, and that is why I 
like measurement or some performance guidelines. If any one of 
you all or each of you could share with me what sort of 
performance measurement could we look at over the years as we 
go forward with the future appropriations, say here are going 
to be our benchmarks, here are our measurements, what would you 
all utilize or suggest that we utilize for those performance 
measurements?
    Mr. Bolen.
    Mr. Bolen. Mr. Chairman, the General Aviation Manufacturers 
Association has a subcommittee that meets with NASA on a 
regular basis, and we discuss the programs that relate to 
general aviation specifically. I think we have been pleased 
over the past several years about the progress we are making. 
Administrator Goldin talked a lot about the goals that he has, 
and I think everyone who has worked in NASA or worked with NASA 
or worked with Mr. Goldin in any capacity, knows that the goals 
that he sets are not easily achieved. He makes you stretch and 
stretch often. Nevertheless, I think his vision is very 
positive and it does drive us.
    What we are trying to do at GAMA is make sure that when 
NASA begins a research program and works through a multi-year 
research program, that we find out whether scientific research 
will yield anything of positive value to the companies, and are 
the companies willing to invest in it? The general aviation 
programs have a private sector match, which I think is very, 
very positive. It means put your money where your mouth is in 
terms of the research, and I think that is very good. I think 
it is very important that we make sure that once a program is 
started, that it does not just continue and take on a life of 
its own; that every year, during the appropriations process, we 
talk about the progress that is made and we talk about whether 
the funding that we decided 5 years ago was necessary is maybe 
too much or too little, should be stopped or should be 
accelerated.
    It is very difficult sometimes with basic research to map 
things out over a long-term period. Sometimes things come 
quicker, sometimes they take more time. But I think there is a 
general feeling in industry when things are going in the right 
direction and when we are on the right track. I will commit to 
you and to this Subcommittee, to be available to you and share 
with you what our Subcommittees are finding as we try to work 
through NASA's programs. And I would just expand that a little 
bit more. We do not just work with NASA. When we are following 
a technology, following research, we are also trying to work, 
as NASA is, with the FAA, to make sure whatever it is we get is 
something that is certifiable and can be part of our national 
air transportation system.
    Mr. Swain. I would like to add measurement in this area is 
difficult. I think the most important thing is to set 
breakthrough goals, which the administrator talked about, and 
then a research agenda that is focused on those goals; then we 
could measure periodically are we making progress or not? When 
you set breakthrough goals, and I remind myself of my own job, 
some percentage of the research projects we start I am going to 
stop, because they will not work out, because you do not know 
exactly what was the combination of technologies, when put 
together, that will yield the 35 or 50 percent improvement.
    So I think we have to set goals, a research agenda, and 
then track to see if the overall agenda is heading in a 
direction to meet the goals. If you try to measure any one 
particular program, if we got a robust program, I think half 
will fail. If all succeed, we are not stretching and we will 
find no breakthroughs. So there is the dichotomy we are all 
faced with. When we get to investing in a new product, it is 
very clear. We are confident of the technology, the research is 
done, we have got have a good internal rate of return, but the 
fundamental research up front, we have just got to ensure 
ourselves we have got a portfolio that will give us the 
outcomes that we hope for and we set enough challenges that 
will require new ways of thinking, real breakthroughs that will 
come from our scientists and engineers.
    Senator Allen. Thank you.
    Senator Breaux, do you have any questions?
    Senator Breaux. Thank you very much. I thank the panel for 
being with us this afternoon. Let me ask Mr. Deel a question. 
You heard the exchange I had with Mr. Goldin on the X-33, and 
you heard his response. Do you think we still need to be 
pursuing that? Do you agree with his assessment as to why it 
was canceled?
    Mr. Deel. We agree that NASA made a pragmatic decision 
because of budget pressures. What I heard Mr. Goldin say was 
the technology was a challenge, it was a stretch. It was a 
program that was started with an intent to revolutionize the 
launch business, to increase the reliability of the launch 
vehicle and significantly reduce the cost. That fits the 
criteria of the stretch program.
    Senator Breaux. I heard what he said. I was wondering what 
Lockheed Martin thinks about that.
    Mr. Deel. The program encountered a failure and a setback. 
NASA reduced the funding. I would say that Lockheed Martin is 
encouraged by NASA's willingness to work with the DOD, so that 
the money that has been invested and the technologies that are 
being put in place can have an opportunity to fly and 
demonstrate their usefulness as they go further.
    Senator Breaux. What do you think we got out of the money 
that was spent at NASA on the X-33?
    Mr. Deel. We have got lightweight tank structures. We have 
gotten a linear aerospike engine that is being tested at 
Stennis. The proof of that engine's performance capabilities is 
demonstrated when it flies, not on the ground. We have got 
vehicle health monitoring systems embedded in the system. It is 
a revolutionary concept. We certainly were disappointed when 
the program was not funded. We certainly would welcome an 
opportunity to pursue it.
    Senator Breaux. What is a ballpark split between the amount 
of tax dollars contributed to what was developed, versus the 
amount the private sector contributed?
    Mr. Deel. I believe the numbers were a NASA commitment on 
the order of $900 million and we had, I believe, about $300 
million of company investment in the program to date.
    Senator Breaux. A 3:1 split.
    Mr. Harris, talk to me about some of your concerns. You 
raised concerns about a lot of issues that you feel are not 
going to be done. You talked about upgrading wind tunnels and a 
number of other areas. If NASA does not do this, who does it?
    Mr. Harris. If NASA does not do it, it will not be done.
    Senator Breaux. In the areas that you mentioned, would it 
not be done because there is just not an economic short-term 
benefit for the private industry to move into this? It is like 
it is pure research as opposed to applied research? I mean, if 
it is important and it is good technology, why does not the 
private sector do it themselves?
    Mr. Harris. Well, specifically with regard to test 
facilities, such as wind tunnels, the government has something 
like $3 billion invested in government-owned wind tunnels that 
were designed primarily for aeronautics research. They are also 
used very heavily in the space program. The space launch 
vehicles are all tested in those wind tunnels. The shuttle, in 
its development phase, was one of the heaviest users of NASA's 
wind tunnels.
    Senator Breaux. If you listen to what Dan Goldin was 
saying, he said, ``Look, NASA wants to look at the long-term.'' 
Certainly, it would seem to me that wind tunnels are short-
term. We are testing models that we have out there now, and 
basically doing the same type of planes, fixed-wing aircraft. 
It seems that is more short-term. Why wouldn't the 
manufacturers of the planes that are going to be utilizing wind 
tunnels, why wouldn't they build their own wind tunnels?
    Mr. Harris. The idea of the morphing airplane that Mr. 
Goldin talked about, those things have to be tested in wind 
tunnels. They can be also tested analytically and models of the 
revolutionary new concepts will have to be tested in wind 
tunnels. The development of prediction capability, in order to 
predict the performance of the radically new kinds of vehicles, 
those computational tools have to be calibrated by tests in 
wind tunnels and structural labs and other kinds of facilities.
    Senator Breaux. From a global standpoint, I am always 
interested in the amount of cooperation, both legislatively and 
financially, between foreign governments and their private 
sector manufacturers, particularly in aerospace activities. It 
would seem to me that when NASA moves away from some of that 
type of assistance, it makes our companies less competitive 
from a global standpoint. Look at the close relationship 
between governments and some of the things that are happening 
in Europe, with their operations with government, joint-venture 
type operations. Do you agree with that? Can we be competitive 
if NASA does not take the lead in some of these types of 
research programs?
    Mr. Harris. Well, it seems to me the handwriting is on the 
wall. If you read the European report, their vision for 2020, 
they State the compelling economic reasons to invest in 
aeronautics, and what the payoff is to their governments and 
their society for doing that. I think that it is clear that 
they realize that the benefits that the United States has had 
in the past, because we dominated the world in aeronautics, and 
they see an opportunity to gain that lead, and have those 
benefits for themselves in the future.
    Senator Breaux. I think when you add it all up, the 
favorable financing terms that are provided sometimes by 
governments, the financial investment--the Airbus program is an 
example of all those things coming together--it makes it very 
difficult for our companies to compete, and I am concerned. It 
seems like our biggest competitors are moving in the opposite 
direction than we are right now. It gives me some concern for 
the future.
    Ed Bolen, private sector research; I mean, you talk about 
how important it is that NASA do some of the things that 
benefits your general aviation manufacturers. Do you have any 
comparison, Ed, from what your GAMA members were spending on 
these type of activities, say, 5 or 10 years ago, as opposed to 
what they are spending now on the type of research that is 
necessary to develop the aircraft for the future? Are you 
spending more? Are you spending less? Are you spending about 
the same?
    Mr. Bolen. Several years ago, in the 1980s and early 1990s, 
the general aviation industry was really on its back. We had 
gone from manufacturing about 17,000 aircraft a year in 1979, 
down to less than 1,000 in 1994. So we went through a period of 
time when simply surviving was all we were concerned about. 
There was not a lot of investment in new products. There was 
only a hope that tomorrow you would be there in existence, and 
maybe the day after.
    That turned around in 1994. We passed product liability 
legislation that has led to increased investment in the general 
aviation industry. Sales have tripled, and we have begun 
investing much, much more in new technologies. We went through 
a period of time between 1995 and the year 2000 where, in that 
5 years, we brought more new aircraft models to the market than 
we had in the 15 years previously.
    We are seeing new engine technologies and great 
breakthroughs in terms of avionics, which are helping us with 
our situational awareness. So we think we are making quantum 
leaps forward. For the first time, we are beginning to see 
brand-new aircraft companies that are coming into general 
aviation, that are certifying new airplanes, and we are seeing 
that both at the entry-level with piston aircraft and also at 
the far end, where Boeing now has a business jet. So all across 
the general aviation spectrum, we are seeing investment.
    We are seeing investment in new aircraft models, in new 
engine technology, some of those that have been directly 
related to investment by NASA. We are certainly seeing it in 
terms of avionics. So I think in terms of what is happening in 
general aviation, it is nothing really short of a revolution 
that we have seen over the past 5 years.
    Senator Breaux. I guess the final point--I do not want to 
belabor it--is how much is all of this new activity in terms of 
new aircraft, new frames, new engines, and new avionics is 
coming from the industry and the private sector, versus how 
much is help from government tax dollars through NASA or 
through other Federal programs?
    Mr. Bolen. Well, I think it is very much a team approach, 
and let me give you one example. NASA had general aviation 
program called GAP, the General Aviation Propulsion Program, 
which worked with a couple of different companies at investing 
in revolutionary, breakthrough technologies in terms of engine 
propulsion. What we are seeing in that, which was a program 
that had a 50-50 match between NASA and industry, is we are 
seeing a breakthrough turbine technology by Williams 
International, a substantially new--radical new propulsion 
system, that is leading to a new aircraft company being formed 
that is going to build a platform around that engine.
    So I think what we are seeing is the NASA dollars are 
having an impact there. It is having an impact with the 
established manufacturers, like Cessna, who are adopting new 
technologies on their aircraft, but we are also seeing NASA's 
investment reflected in new airplanes manufactured by companies 
like Cirrus Design and Lance Air, which did not exist 5 years 
ago. So we are seeing it both in terms of technologies, and in 
terms of spurring entirely new companies that see the potential 
in the technology and are willing to make a business investment 
in it.
    Senator Breaux. I thank the panel. Thanks, Ed.
    Thank you, Mr. Chairman.
    Senator Allen. Thank you. Let me add one final question, 
and this is for Mr. Harris. I obviously understand and agreed, 
even in my opening remarks, with some of the concerns, the 
competitiveness. You obviously do not feel that the Commission 
on the Future of the U.S. Aerospace Industry, as required last 
year by the defense authorization bill, is properly structured 
to support the concerns of the aeronautical community. That was 
one thing that I got from it. You say that some of what needs 
to be done is we need to double the aeronautics budget. We do 
not, I do not think, have a plan to compete with Europe's plan, 
their vision for 2020, and so forth.
    One thing Mr. Goldin--I tried to do, is to get him to say 
what are the priorities in there--and obviously, Mr. Harris, 
you have a great deal of expertise. Your philosophy seems to be 
very close in looking at the facts, is the way I look at it. If 
we are going to have this expected aeronautics vision for the 
21st century that NASA will be releasing this fall, which 
research programs do you think will be necessary to ensure that 
America either has a continued leadership role, or at least a 
good competitive role in aeronautics? Where would you see the 
key priority areas being?
    Mr. Harris. I think certainly among them, a research 
program to solve the problem of efficient supersonic flight.
    Senator Allen. By that, what do you mean efficient? Fuel-
efficient?
    Mr. Harris. I am talking about aerodynamic efficiency, fuel 
efficiency and structural weight efficiency, the whole thing. I 
think that one of the big reasons that Boeing made the decision 
not to proceed with the supersonic transport was that the 
technology simply was not ready at the time to produce an 
efficient machine that could meet all the environmental 
constraints.
    There are a lot of things that impact when a company like 
Boeing can proceed with an airplane. The technology has to be 
ready, No. 1; the market has to be ready, and then financing 
and other things all have to be ready, and all of those things 
have to come into alignment. But the financing and the market 
are not really NASA's concern. It seems to me NASA's concern is 
to take the leadership in developing the key technical 
solutions that make the technology ready, so that when a 
company decides that their market is ready, the technology will 
be in hand to proceed with confidence. So I think the 
supersonic technology certainly would be high on my list.
    I think another one that would be high on my list is NASA's 
support of military aviation technology. I think that area has 
been reduced significantly in recent years. It is one where I 
think that the partnership between NASA, the NASA laboratories, 
and the DOD laboratories, has been one of the keys to our 
success in military aviation technology.
    Senator Allen. Although NASA cannot do that suasponte, or 
on their own; right?
    Mr. Harris. It is a partnership. I mean, it is interesting 
that the same act of Congress that established the first NACA 
laboratory--that same act of Congress established the first 
Army Air Corps research laboratory at Wright Field, and that 
partnership begin in 1917 and has existed until today. It has 
been a very important one.
    Another area, that I would put high on my priority list 
would be a revitalization of NASA's experimental test 
facilities. I think Dan Goldin, he did not say it today, but he 
has said it in other fora, that we need to take a look at the 
national test capability and what is really needed. There were 
several studies a few years back that looked at this issue. I 
think a lot has changed since those studies were done and we 
need to revisit those studies. What is the national capability 
that we really need and how can we best attain that capability? 
Maybe some of it is by modifying existing facilities. Maybe we 
need to build some new facilities, and with that, maybe we can 
actually close some of our older facilities and get cost 
offsets by doing that.
    And then I think there is one final area that I would put 
high on my priority list, and I am encouraged by looking at--in 
the fiscal 2002 budget, there is some funding for this in the 
NASA budget, but I would go beyond what they are proposing to 
do, and that is in expanding the idea of university centers of 
excellence in the technical disciplines, coupled with the NASA 
research centers. We have lost so much of our talent in recent 
years, due to retirements and also due to the fact that we have 
been unable to hire young people in recent years.
    One way to regain that quickly is by forming an alliance 
with the universities, where graduate students and professors 
can be brought in to work with the NASA laboratory people, to 
help that situation. I think those would be my top priorities.
    Senator Allen. Thank you, Mr. Harris.
    I want to thank all the panelists, Mr. Swain, Mr. Deel, Mr. 
Bolen, Mr. Harris. Thank you for your insight and waiting 
through this long hearing. But this is a very, very important 
Subcommittee hearing, and we all look forward to working with 
you, not just when there is a hearing. Our doors and offices 
are always open to you all. Thank you all so very, very much. 
Hearing adjourned.
    [Whereupon, at 4:47 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Prepared Statement of the Aviation R&D Task Force of the Aerospace 
 Division, Environment and Transportation Group Council on Engineering
    Mr. Chairman and Members of the Subcommittee:
    The Aerospace Division of the American Society of Mechanical 
Engineers (ASME International) welcomes this opportunity to present our 
views on the nation's critical aeronautics research and development 
needs.
    ASME is the premier organization for promoting the art, science and 
practice of mechanical engineering in the world. It conducts one of the 
world's largest technical publishing operations, holds some 30 
technical conferences and 200 professional development courses each 
year, and sets many industrial and manufacturing standards. This 
testimony represents the considered judgment of the Aviation R&D Task 
Force of the Aerospace Division of the Council on Engineering, and is 
not necessarily a position of ASME as a whole.
    We are concerned that a national commitment to sustain U.S. 
leadership in aviation research and technology has been lacking. While 
public demand for aviation transportation services is expanding, 
federal funding for civil and military aviation research is declining. 
Since 1998, the combined National Aeronautics and Space Administration 
(NASA) and Department of Defense (DoD) investment in aeronautics 
research and technology programs has been reduced by one-third, and 
there is concern that this trend will continue. Advanced technologies 
are needed to assure public safety and on-time flight schedules. 
Without stable investment in aviation R&T, U.S. market share in 
aviation products and services will decline, as will employment in the 
nation's aviation industry.
    Specifically, we are concerned that a lack of long-term, stable 
federal funding for aviation research will jeopardize the nation's 
leadership in providing the technologies needed to develop the next 
generation aircraft, improve aviation safety, and reduce risk in the 
U.S. air transport infrastructure. In addition, a decline in federal 
support for NASA aeronautics research will diminish our universities' 
ability to attract and train the next generation of aeronautical 
engineers. In our view, NASA's aeronautics research and technology 
programs are essential to maintaining and strengthening U.S. global 
markets in air transportation products and services.
                    the economy and balance of trade
    In February 2000, the National Research Council reported that the 
U.S. has been losing ground in world aerospace market share, falling 
from over 70 percent in the 1980s to 55 percent in 1997. Today this 
situation continues, as U.S. aerospace industries are being severely 
challenged by the European aerospace industry, which is garnering a 
significant portion of the U.S. market as well as of the world market. 
As reported in the March 2001 issue of U.S.A. Today, the European 
Airbus A380 555- passenger jet is expected to surpass the Boeing 747 in 
civil air transport markets. As a nation, are we spending our resources 
wisely to protect this vital segment of our economy? The present 
direction of decreased federal investment in aviation engineering, 
research, and development programs weakens the future economic 
competitiveness of the U.S. aviation industry.
    Our international competition is certainly not subscribing to this 
course of action. In fact, according to a recently released report from 
the European Commission, efforts are well underway to overtake us in 
global air transportation markets.
    In January 2001, European Research Commissioner Philippe Busquin 
unveiled a strategy paper called ``European Aeronautics: A Vision for 
2020.'' The strategy document, prepared by a group of 14 high-ranking 
individuals called the ``Group of Personalities,'' charts the path for 
the European Union to become a global leader in aeronautics. It is a 
high priority on the European agenda.
    The European Commission is proposing a strong dynamic program to 
achieve their vision of becoming a world leader in transport 
technologies, products and services. The Vision 2020 report--which 
presents goals in the present tense as if they have already been 
accomplished--states:
    <bullet> ``In 2020, European aeronautics is the world's number one. 
It's companies are celebrated brands, renowned for the quality of 
products that are winning more than 50% shares of world markets for 
aircraft, engines and equipment. Though coming in all sizes from 
multinational corporations to small and medium-sized enterprises, their 
position is built on formidable competitiveness in all areas, from 
research to design, from product development and support to 
manufacturing, operation and maintenance.''
    <bullet> ``In 2020, European leadership will be evident on aircraft 
throughout the world. The industry in Europe is the leading developer 
and supplier of avionics systems and its engines and systems are simply 
the best. Its prowess also extends to air traffic management (ATM). 
Such has been the success of the ``European solution'' for ATM, that a 
de facto world standard has been created.''
    Clearly, our European colleagues intend to replace us as the 
world's leader in aeronautics. How will they finance this plan? As the 
report states:
    <bullet> ``Gradual realization of our ambitious vision must be 
facilitated by an increase in public funding. Although it is a 
preliminary estimate, total funding required from all public and 
private sources over the next 20 years could go beyond $95 billion.''
    While support for NASA aeronautics research is declining, this 
strategy plan calls for increasing European Union funding. We would 
argue that the U.S. has no comparable long-range plan for aeronautics 
research. In order to remain competitive, a clearly articulated vision 
for aviation research and technology is required.
    In the National Science and Technology Council report cited 
earlier, an outline for the next generation Global Air Transportation 
System is articulated. However, the report does not consider issues 
related to the design of the next and future aircraft. What new and 
advanced technologies will be required to maintain and build the U.S. 
market share in this fiercely competitive and evolving global market? 
These issues and a host of others must be considered if the U.S. is to 
remain a major player in the ever-expanding international aviation 
enterprise.
    The United States commercial aviation industries, faced with ever 
increasing global competition, are driven to focus the vast majority of 
their research dollars on projects that can affect near-term profits. 
The total global market for aviation-related products and services is 
estimated to be greater than $1.6 trillion over the next 20 years. The 
U.S. market share in this industry and the U.S. investment in advanced 
aviation R&D both continue to decline. In 1999, Airbus received 52% of 
the market share of orders for commercial jets seating over 100 
passengers, exceeding Boeing for the first time. Yet in this same time 
period, $280 million was cut from the NASA aeronautics portfolio.
    The cost to develop a new product such as a large transport 
aircraft can approach or exceed $15 billion. In the past, large 
investments in evolutionary significant-risk technologies, such as the 
transition to commercial jet aviation, have been accomplished through a 
partnering among industry, NASA (or its predecessor NACA), DOD and the 
FAA. These partnerships have proven to be an efficient means for 
maintaining the past U.S. lead in aeronautical technology with 
concomitant economic benefits. We are not suggesting that the 
government share the cost of specific commercial aviation developments, 
as has been the case in other countries. Rather, we recommend that NASA 
undertake high-risk, potentially high-payoff R&D, which then can become 
the basis for commercial enterprises. In our view, NASA must resume its 
intellectual and financial support for partnerships that sustain mid- 
and long-term innovative basic research in propulsion, materials and 
new structural concepts applicable not only to spacecraft, but also to 
future aircraft designs. Recent NASA/Boeing/University partnering in 
Blended Wing Body (BWB) technology and aerodynamics is a positive 
example. We encourage that adequate support be given for a robust 
aeronautics budget. These may well become the next big competitive 
arenas for the international aviation industry and the U.S. should be 
prepared to lead. What is certain is that government-private sector 
partnerships are essential to meeting these growing challenges.
             the u.s. aeronautics infrastructure is at risk
    I would like to call the Subcommittee's attention to reports 
appearing in the Aviation Week & Space Technology. The editorial in the 
March 2000 issue makes the point that, ``Aeronautics has become NASA's 
Stepchild,'' noting that ``some of (their) readers advocate removing 
the aeronautics from NASA.'' The editorial goes on to reject this 
notion, stating that ``the immediate answer is for the Administration 
to request, and Congress to grant, higher funding for NASA to make 
aeronautical research a higher priority.''
    We heartily endorse this view.
    The impending risk to the nation's aeronautics infrastructure 
engendered by this decline in federal support for aviation R&D has been 
the subject of several recent studies. A February 2000 report from the 
National Research Council points out that the aeronautics segment of 
the economy ``is becoming less competitive.'' The report notes that 
``the U.S. share of world aerospace markets fell from over 70 percent 
in the mid-1980s to 55 percent in 1997.'' In a report released in 
January 2000, the Air Force Association poses the question, ``Does the 
Air Force have the resources and resolve to create the technological 
solutions that may be needed in another 20 or 30 years?'' They answer 
this question by noting that ``the paucity of S&T funding has helped 
erode traditional Air Force technology strengths. . . .'' Again 
returning to the Aviation Week analysis, ``NASA has virtually abandoned 
its research in military aviation, a heritage that goes back some 82 
years'' (italics added for emphasis).
    In our judgment, these trends clearly should raise a flag in 
Congress.
  nasa's critical role in nurturing aeronautics research and education
    For the past 75 years, American universities have provided 
creative, skilled engineers for national defense and aeronautical 
commerce. The development of an efficient global air transportation 
system has been driven by American engineering. Students who have come 
from American university campuses to industrial and governmental 
facilities have been the source of an undisputed American commercial 
success; sales of aircraft and aircraft equipment accounts for one of 
the largest single positive balance of trade with other nations. 
According to a recent study of the Aerospace Industries Association, 
aerospace products accounted for nine percent of total U.S. merchandise 
exports in 1999. While the nation's total balance of trade has been 
negative since 1970, the aerospace industry's contribution to U.S. 
trade balance has been positive over this period of time, increasing by 
a factor of 20 (from $3.4 billion in 1970, to $62.4 billion in1999.) 
The partnership in the aerospace industry among the Federal government, 
industry, and universities has been one of the great success stories of 
the 20th century. In our view this is changing. And sadly, not for the 
better.
    The commuter aircraft industry is dominated by foreign firms such 
as Bombardier in Canada, and Embraer in Brazil. In short, foreign 
countries believe that it is in their interest to establish and 
maintain a healthy, broad-based aircraft industry. The heart of this 
industry is a healthy academic source for workers and ideas; many of 
these engineers are educated in the United States. Our educational base 
has been declining and will continue to erode if we do not nurture and 
support basic aeronautics research in the United States.
    While the aeronautics commercial enterprise has changed 
significantly over the past 50 years, so too have the investment 
requirements of the academic educational and research enterprise 
accompanying this industrial evolution. New technologies responsible 
for enormous increases in aircraft performance and system efficiency 
have required research universities to invest heavily in new faculty, 
new equipment and new computing resources. Some of these resources 
become obsolete after only a few years, requiring cyclical renewal. 
Both private and state supported universities have launched development 
programs to ensure the availability of best facilities and best 
teachers, but other budget demands have made modernization difficult.
    Over the past several years, de-emphasis of long-term aeronautical 
research in both NASA and DOD has impaired U.S. universities' ability 
to maintain vibrant aeronautical engineering programs. As such, these 
universities are finding it increasingly difficult to contribute to 
near- or long- term progress in aviation R&D. As this situation 
continues, the nation is experiencing a diminishing pipeline of 
qualified aeronautical engineering students at both the undergraduate 
and graduate levels. Engineers and scientists do not consider aerospace 
a growth industry. Bomber and fighter design experience is vanishing. 
University students are attracted to high-paying new growth industries. 
Computer and Internet companies are stripping the aerospace industry of 
skilled personnel with information technology experience. We are very 
concerned about this issue and look to NASA leadership to make a course 
correction for the future.
                              conclusions
    <bullet> We recommend the establishment of a National Aviation R&T 
initiative to develop an action plan to define the research and 
development programs and resources required to ensure sustained U.S. 
world leadership in civil and military aviation.
    <bullet> The decline of U.S. global market share in air 
transportation products and services over the past two decades, 
combined with European determination to become the dominant supplier of 
such products and services within the next two decades, should be of 
major concern to U.S. policy makers.
    <bullet> U.S. aviation industry competitiveness and the balance of 
trade must not suffer due to lack of federal support for the 
historically proven government-industry partnership in appropriate 
advanced aeronautics research that has continually produced a positive 
trade balance for the nation.
    <bullet> Research in aviation safety must be a NASA priority.
    <bullet> The national aeronautics Research and Technology (R&T) 
infrastructure has deteriorated and needs to be reestablished.
    <bullet> NASA must continue to be a critical factor in the support 
of University-level aerospace education and R&D.
    <bullet> The question of adequate funding for NASA and DOD aviation 
R&T must be addressed, not only with respect to the FY 2002 budget, but 
also--and even more significantly--with respect to the preservation of 
U.S. capability and leadership in long term aeronautics research and 
technology, as required by law.
    <bullet> It is essential that the aeronautics R&T programs at the 
key mission agencies (NASA, DOD and FAA) be clearly identified and 
adequately funded within the ``Aerospace Research and Technology.'' 
category.
    <bullet> We strongly urge that the duties of the congressionally 
authorized Commission on the Future of the U.S. Aerospace Industry be 
broadened to include intensive consideration of NASA and DOD research 
in aviation.
    As we approach the centennial of the Wright Brothers' first flight, 
it is more important than ever that America renews her national 
commitment to leadership in aviation. In order to do so, we must ensure 
the strength and stability of the nation's aviation infrastructure by 
formulating and committing to a national aviation research and 
technology policy that incorporates adequate federal funding for long-
term aviation research.
    This concludes our statement. Thank you for providing us with an 
opportunity to present our views at this important hearing.
                                 ______
                                 
        Prepared Statement of Hon. John W. Douglass, President, 
           Aerospace Industries Association of America, Inc.
    Chairman Allen, Sen. Breaux, and Members of the Subcommittee, I 
appreciate the opportunity to submit my testimony on behalf of the 
Aerospace Industries Association of America to assist you as you 
investigate the NASA's aeronautics programs. As you know, AIA is the 
trade association representing the nations leading manufacturers of 
aviation and space products.
    Mr. Chairman, the aerospace industry, the crown jewel of heavy 
manufacturing in the United States, is being seriously challenged by 
overseas competition. This important sector of our economy directly 
provides nearly 800,000 jobs for American workers, is the number one 
net positive contributor to the nation's international balance of 
payments, and produces the advanced weapons needed to defend our 
country. It is the backbone of our industrial base.
    The world's most advanced technology, in the hands of skilled 
American workers, has allowed the U.S. aerospace industry to develop 
and produce high quality, affordable products and services and has been 
the key to the industry's enduring strength. Our national investment in 
aerospace research and development has provided the technology, which 
in-turn has fueled the dramatic accomplishments of the aerospace 
industry during the first century of manned flight. It has enabled the 
industry to remain the world's leading producer in the face of 
stiffening global competition. It has produced a highly potent military 
air force, a world class aviation transportation system, and the 
world's most sophisticated space related capabilities.
    Over the past decade there has been a dramatic decline in 
investment in aerospace research and development spending. The 
aerospace share of national research and development investment has 
declined from a high of 25% in 1987 to below 6.4% in 1998, and is still 
declining. There are critical technologies that are not being pursued 
because of inadequate funding, such as hypersonics, supersonic 
combustion ramjets, and ultra-light ultra-strength materials that could 
provide the next breakthrough benefiting both military and commercial 
sectors.
    The toll of this decline is beginning to show. Reduced investment 
in aerospace research and development has already caused talent to 
leave the industry. During the past 2 years, there has been a 30% 
decline in the scientists and engineers addressing aerospace 
challenges--the lowest level recorded since the early days of the 
industry. Fresh talent is harder to recruit. Over the past 7 years, the 
number of recent college graduates (ages 25 to 34) employed in the 
industry has fallen from 27% to 17% of the workforce. Innovation is, no 
doubt, suffering. Masked by record sales, the U.S. aerospace industry's 
competitiveness is also suffering. The industry's share of global sales 
has fallen from 72% in 1985 to 52.4% in 1999.
    It is time for the nation to turn its attention to this growing 
problem. Unless the federal government, in partnership with the 
aerospace industry, increases and sustains a robust investment in 
aerospace research and development, we can expect to see our 
international leadership further challenged and the margin of our 
military superiority narrowed. Strong investment in aerospace research 
and development is critical to the nation's national security, economic 
well being and international competitiveness.
                  examples of leading edge technology
    As the National Research Council noted last year in its report, 
Recent Trends in U.S. Aeronautics Research and Technology, aeronautics 
is a research and technology intensive enterprise. Today you are 
receiving a broad overview of the potential for the U.S. aeronautics 
industry to continue in its historic leadership role in aviation. In my 
statement today I would like to focus on a few leading edge 
technological areas that are being addressed by NASA, the FAA, the 
Defense Department and other government agencies in cooperation with 
industry. I want to emphasize that these examples, while important, 
merely scratch the surface of the vital aviation research and 
development needs of the aviation industry.
Environment
    Aircraft noise and engine emissions are among the greatest 
challenges that we face as an industry. The public rightly expects our 
industry to act responsibly and act aggressively in minimizing the 
effects of aviation on the environment. We will have to meet this 
challenge if the industry is to have a healthy and growing future. One 
important program underway is the Ultra Efficient Engine Technology 
Program (UEET). This program points toward a future with lower total 
engine emissions, thus reducing production of greenhouse gasses in 
flight and reducing smog producing nitrogen oxides emissions around 
airports. Additional improvements will be achieved by developments in 
combustor technology. UEET funding was originally envisioned at a level 
of $50 million in FY `01, but that has been reduced in the 
Administration's proposed FY `01 budget to only $35 million. We believe 
that $100 million is required. Programs are also underway in search of 
additional improvements in aircraft noise reduction technologies. This 
involves engine noise as well as airframe noise.
    Breakthrough technologies to achieve significant reductions in 
aircraft noise and emissions will enable the industry to meet increased 
demand with minimal impact on noise and environmentally sensitive 
areas, while also lowering direct operating costs for the airlines by 
reducing fuel burn.
Synthetic Vision
    Another area of significant work is the development of synthetic 
vision. This will enable a pilot to fly in instrument conditions or 
darkness but look out of the cockpit onto a virtual skyscape that she 
would see if it were a sunny day. Virtual skyways superimposed on this 
skyscape will provide a visual flightpath that the pilot can follow to 
avoid other aircraft, ground obstacles, etc. This will provide 
significant safety improvements in the areas of controlled flight into 
terrain and approach and landing, which today are major accident 
categories. In addition, synthetic vision will contribute to more 
efficient airspace utilization in connection with aircraft separation 
minima. On the ground, synthetic vision will enable the pilot to know 
his precise location intuitively, thus providing a significant safety 
enhancement by reducing the potential for runway incursions. The risk 
of an incursion resulting in an accident will be further reduced 
because the pilot will also be able to ``see'' and avoid other 
airplanes and vehicles on the ground.
Turbulence
    The leading cause of serious injury among cabin crews is 
turbulence. Today, there is no technology available that enables us to 
detect turbulence in clear air. We are convinced of the need for 
continued significant research efforts aimed at discovering a means to 
detect clear air turbulence and provide sufficient warning for the crew 
to secure the cabin before aircraft encounters the turbulence. This is 
a significant safety issue. A related issue is wake vortex detection 
and amelioration. Wake vortices are like horizontal mini-tornadoes that 
stream off the wing tips as the aircraft moves through the air. They 
have been known to flip a following airplane on its back, sometimes 
with catastrophic results if the encounter is too close to the ground 
to permit recovery. Research in this area involves two efforts. Like 
other kinds of turbulence, wake vortices are easy to see if, for 
example, the airplane flies through smoke which is set in motion by the 
vortex. But in clear air they cannot be seen. Thus, detection is 
important in order to establish safe procedures for following aircraft, 
especially on approach to the airport. Another intriguing possibility 
is the development of a means to counter the formation of the vortex at 
its origin. If wake vortices could be eliminated or significantly 
reduced in strength, then aviation safety could be improved and airport 
capacity could be increased using existing runways because the aircraft 
separation minima could be safely reduced, permitting more flights per 
hour onto a given runway.
Human Factors Research
    There are major efforts underway at NASA, the FAA and the 
Department of Defense on the broad area of human factors research. 
Broadly speaking, these can be divided into areas such as man-machine 
interface on the flight deck, how humans behave in the maintenance and 
repair environment, decision-making, crew interaction, etc. Human 
factors research addresses two questions. First, how can we reduce 
human errors? Second, since we cannot eliminate all human error, how 
can we design, produce and maintain systems that will tolerate errors 
without resulting in an accident? Much work remains to be done in 
understanding these human interactions. We are working to develop ways 
to detect errors, analyze them, and identify strategies to reduce their 
occurrence and effect. This effort is critical to this government/
industry partnership effort to improve safety in both general and 
commercial aviation. In addition, greater understanding in this arena 
will give us improved operational procedures that will result in 
greater efficiency.
Non-Destructive Testing and Inspection
    Over the years, there have been accidents that could have been 
avoided if the warning signs of existing physical problems could have 
been seen. Examples include engine disk failure and airframe structural 
failure. There are programs in place to develop new and improved 
techniques to perform tests and inspections to reveal these physical 
flaws without causing damage to the area being examined. Aspects under 
development include new hardware, as well as looking at the human 
dimension to address human factors such as boredom or fatigue that 
could lead a technician to miss a problem. New efforts are underway in 
areas such as wiring and electrical components, looking for ways to 
inspect in non-accessible areas where the very act of removal of wire 
bundles for inspection could cause damage and more problems that 
otherwise would not exist. These efforts in non-destructive test and 
inspection are leading to further improvements in aviation safety, as 
well as better system reliability and a reduction in unnecessary 
repairs.
Rotorcraft Technology Program
    Runway independent aircraft, such as helicopters and tiltrotors, 
offer great potential for improving air system capacity and reducing 
congestion and delays -particularly in the case of stage lengths of 300 
miles or less.
                we are in danger of losing our r&d edge
    As I emphasized in my opening remarks, we are at a critical point 
regarding the long-term health of the aviation industry in the United 
States. This is an industry that depends upon knowledge to maintain its 
competitive edge. Knowledge, of course, is ever changing. It is 
impossible to maintain that edge by restricting the flow of knowledge. 
It is only possible to maintain our leading edge by continuing to 
invest in a robust and comprehensive research and development program 
that enables our industry to develop new technologies and bring them to 
market before our competitors. It is a challenge without end.
    Yet we are putting U.S. aeronautical leadership at risk by our 
miserly treatment of aviation, and indeed aerospace, R&D at a time of 
growing budget surpluses. For example, there is not enough money in 
many NASA Aeronautics programs to produce technology demonstrators, 
which means there is no bridge between technology development and 
technology insertion. In some programs there is not enough money to 
ensure contractor participation, which is also necessary to bridge 
technology development and technology insertion. Infrastructure is 
aging. Our companies frequently must go abroad to conduct wind tunnel 
testing.
    Bit by bit, we as a nation have allowed our commitment to a robust 
technological research base in aeronautics to erode. Our workforce is 
an example. It is becoming increasingly difficult to attract and retain 
the best talent in aeronautics. To young people who are making career 
choices and want challenge and excitement, our industry increasingly is 
seen as old hat. So today we stand at a crossroads. In the report I 
cited at the beginning of my statement, the National Science and 
Technology Council warned that decisions are being made ``without an 
adequate understanding of the long-term consequences.'' The committee 
went on to recommend that ``the federal government (should) analyze the 
national security and economic implications of reduced aeronautics R&T 
funding before the nation discovers that reductions in R&T have 
inadvertently done severe, long-term damage to its aeronautics 
interests.''
    Today you are hearing about the exciting opportunities that lie 
ahead of us if we as a nation make a decision to reinvest in research 
and development, the seed corn of this industry; if we as a nation make 
a decision to attack the hard technological problems, looking for the 
breakthroughs and providing the competitive and challenging environment 
that attracts the young engineers and scientists; if we as a nation 
make a decision that we will maintain our preeminent position as the 
world's greatest manufacturing and exporting industry. For make no 
mistake about it, our trading partners and competitors recognize the 
potential of aerospace to contribute to their national well being, and 
have made investments accordingly. Today, our future and that of our 
children is in our own hands. There is still time to rebuild our 
aviation and space research and development capability to become again 
the standard against which all others measure themselves. But not a lot 
of time. We must seize the opportunity now, or we shall surely regret 
it tomorrow.
                                 ______
                                 
     Responses to Written Questions Submitted by Hon. George Allen 
                          to Daniel S. Goldin
    Question 1. You have mentioned that NASA will reduce the design 
cycle time from its current 9-plus years to 3 or 4 years, while 
increasing the quality of design. Can you elaborate on the key aspects 
of this reduction program and overall impact to the aeronautical 
industry?
    Answer. We are making great strides in our ongoing program to 
reduce design and analysis time. For example, based on detailed 
industry assessments, the NASA developed National Propulsion System 
Simulation (NPSS) capability cuts more than 50% off propulsion 
simulation time over the life cycle of an engine. Similar 
accomplishments have been achieved in control systems, aerodynamics and 
structures. And we will continue to increase the fidelity and 
efficiency of these tools.
    But we are also embarking on a new effort in engineering for 
complex systems to dramatically increase our understanding of 
integrated system complexity and risk very early in the design cycle. 
Much of the current time and resources in product development is to 
manage risk. A number of iterative design cycles are planned in advance 
to systematically increase the fidelity of the system model and to 
drive out risk over time. However, aerospace systems are extremely 
complex and often risks are not adequately understood until late in 
development, adding significant time and cost. Therefore, we are 
beginning an effort to pioneer new tools that will allow us to more 
fully understand aerospace system complexity in the context of its 
environment and mission. This complex system modeling capability will 
integrate discipline-based computational tools to achieve a high-
fidelity understanding of the total system and more precisely identify 
risk. The goals are to fully simulate the system performing its mission 
in its environment over the life cycle of the system.
    This capability applied to NASA missions will allow us to better 
manage complex, one-of-a-kind systems and increase our success rate. 
For industry, such a capability will allow reduced cycle time and 
numbers of design cycles for new systems, leading to dramatically 
improved responsiveness to market, transportation and military 
requirements.
    Question 2. You mentioned in your written testimony that about 7 
percent of each dollar collected by the domestic airlines or about $4.5 
billion per year is due to delays. You further state that this amount 
is expected to increase to about $13.8 billion by 2007. Can we expect a 
similar increase in the percentage of ``each dollar collected'' due to 
delays?
    Answer. As we get closer to the capacity limits of the system, 
delays rise rapidly. Left unchecked, delays will increase much faster 
than demand growth. So, while demand will somewhat less than double 
from the 1998 baseline referenced in the testimony, delays will triple. 
Therefore, we would expect delay as a percentage of airline or traveler 
cost to increase significantly. Fortunately, the FAA's Operational 
Evolution Plan (OEP), to which NASA is contributing key technologies, 
will mitigate some of this delay increase. However, most experts agree 
that the OEP alone will not fix the problem, nor will it eliminate the 
already substantial delays. The bottom line is that serious 
inefficiencies that effect our economy and quality of life continue to 
grow unless more action is taken over the long-term.
    Question 3. There have always been questions about the role of the 
federal government in basic R&D. What specific advantages does NASA 
have in conducting experimental research that private companies do not 
have?
    Answer. There are two fundamental reasons for federal investment. 
First, markets tend to force under-investment in long-term research. 
Market forces for near-term performance on investment makes it 
difficult to for private firms to invest in long-term research. This is 
especially problematic in fields such as aerospace that have very long 
horizons that often create a difficult investment environment for even 
evolutionary product development. Another factor in this regard is the 
difficulty in fully capturing the benefits of basic research. This is 
generally known to as ``appropriability'' and refers to the difficulty 
in economically ``appropriating'' the benefits of the widely available 
nature of basic research findings. Other firms can often take advantage 
of research performed by a single firm, putting the investing firm at a 
disadvantage. Additionally, the market does not fully price 
``externalities'' such as noise and emissions impacts. In other words, 
there is a social cost associated with noise and emissions, but since 
there is no natural market mechanism for including those costs the 
socially optimal level of investment will not be achieved. Regulation 
is often the policy mechanism for forcing these costs on the market. 
However, in aviation, which is characterized by complexity, long 
horizons and exacting safety standards, regulation is often difficult 
in the absence of an established technology base.
    Second, there are distinct federal government roles in aerospace. 
For example, the operation of the National Airspace System, the 
provision of National defense and the operation of the civil space 
program. Because the federal government takes such a strong role in the 
aerospace sector, maintaining a healthy research program is of critical 
importance. Additionally, for purposes of efficiency, to reduce 
barriers to entry and to ensure long-term industry viability, the 
federal government has provided some of the large, common facilities, 
such as wind tunnels, that are necessary in aerospace. NASA's Aerospace 
Technology Enterprise serves as a National asset in providing long-
range technology development and world-class capabilities that cut 
across many applications in aerospace. This capability has been brought 
to bear in the solution of many urgent and difficult problems. For 
example, the F-18 E/F was in jeopardy of being canceled due to the 
difficulty posed by severe uncommanded aircraft maneuvers caused by 
massive separated flow over the wing until our engineers devised a 
porous fairing that acted as an ``air dam'' and prevented the problem.
    NASA has the breadth of capability and long-term outlook to address 
these issues. NASA programs focus on R&T areas most subject to under-
investment in industry--basic research, applied research and technology 
validation. The total cost of aerospace research and technology is 
lower by having National assets available to all industry. And because 
of differing incentives, NASA can be more patient and accept more risk 
in awaiting payoffs from R&T investments.
    Question 4. Can you elaborate on NASA's role in performing 
revolutionary versus evolutionary aeronautical research? How do you 
distinguish between the two?
    Answer. We refer to evolutionary research as research that is 
targeted at providing incremental improvements to current, state-of-
the-art aerospace systems. NASA's role in evolutionary research is to 
focus on the long-term public good issues where there is insufficient 
industry incentive, as articulated in the response to the previous 
question. For example, issues of safety, noise, emissions, and capacity 
would be included. NASA's job is to drive the state-of-the-art faster 
and farther than would otherwise occur and ensure a National capability 
in these areas. Priorities are generated based on the criticality of 
the issues, especially in the face of growth and development. For 
example, NASA has placed significant priority on the partnership with 
the FAA to improve airspace operations due to the current and 
increasing severity of delays.
    Revolutionary research is focused on enabling totally new ways of 
performing aerospace missions, enabling new missions that have not been 
reasonable or possible in the past, and enabling new functionality for 
aerospace systems. For example, automated, vehicle self-separation of 
aircraft within the National Airspace System would be a new approach to 
performing the air traffic management mission that is not an 
incremental change to the current system. Another example is a 
spacecraft that has some ability to self-repair structural damage. This 
is a new functionality that does not exist today, but that could 
significantly improve the resiliency and reliability of spacecraft. 
NASA's role in revolutionary research is to provide pioneering 
leadership for the Nation. In most cases, existing operational 
organizations are resistant to such ideas and therefore reluctant to 
make the necessary investments. Therefore, NASA has a primary 
responsibility to fill this critical role in aerospace.
    Question 5. What can NASA do to further assist in increasing the 
supply of engineers and scientists that will be needed for this new 
vision for aeronautical research?
    Answer. NASA has traditionally had a significant role in supporting 
the development of the next generation of scientists and engineers. As 
we look to the future, we see a unique period of discovery during which 
we can match traditional disciplinary strengths with emerging 
technology areas, such as nano-technology and biologically-inspired 
technologies, to produce a new era in aerospace. But to make this 
happen we need to both inspire a new generation of technologists and 
then train them in new multi-disciplinary fields. Therefore, NASA is 
moving out on a new partnership with academia to create Research, 
Education and Technology Institutes (RETIs). The goal of this new 
university partnership is to strengthen NASA's ties to the academic 
community through long-term sustained investment in areas of innovative 
and long-range technology critical to NASA's future. The RETIs will 
also enhance and broaden the capabilities of the nation's universities 
to meet the needs of NASA science and technology programs. These RETIs 
will be focused on new technology areas such as biotechnology, 
nanotechnology and information technology, with a focus on aerospace 
applications in materials, structures, aeropropulsion, computing and 
power.
    Question 6. What do you see as challenges to U.S. aeronautics 
research? What can Congress do to ensure continued American leadership 
in the aeronautics R&D?
    Answer. As I indicated in my written testimony, aviation has gone 
through significant changes and faces serious problems. Breaking 
through barriers posed by capacity constraints, environmental issues or 
the need for greater mobility will ultimately not be solved by 
incremental change to current systems. New business and operational 
models built upon advanced concepts and technologies are required. The 
challenge to U.S. aeronautics research is to lead this transition. This 
will require that we integrate across traditional ``stove-piped'' 
discipline areas; that we embrace new technology pathways; and that we 
foster strong leadership to develop the new concepts that can meet the 
transportation needs of a new century. I would encourage Congress to 
lead the way by getting involved in the debate and demand that all of 
us with responsibility for aeronautics research and aviation to not 
accept limitations and barriers that could negatively impact our 
Nation.
                                 ______
                                 
Responses to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Daniel S. Goldin
    Question 1. Measured both by market share and technological 
benchmarks (speed, emissions. noise). Has the competitive position of 
the U.S. aerospace industry increased or decreased over the past 
decade?
    Answer. The European Community has achieved parity with the United 
States in market share. The most visible aspect of this competition is 
between Boeing and Airbus in the civil transport market. Airbus has 
achieved a full family of technologically advanced civil transports 
that rival Boeing's products. Future dominance of the industry could 
very well be decided by the success of the very different strategies 
being pursued by the two companies. Airbus is developing a very large 
civil transport, the A380 that would emphasize the use of very large 
transports between large hubs on international routes. Boeing's Sonic 
Cruiser emphasizes speed and frequency to an increasing number of 
domestic and international destinations. Given the exceedingly high 
development costs for these vehicles, their relative success could very 
well dictate market dominance for the foreseeable future. This outcome 
will likely have ripple effects across the aerospace sector, including 
military aviation and space launch systems, as the civil transport 
segment is the dominant element of the aerospace market.
    Question 2. Have foreign government subsidies to their aircraft 
industries been increasing or decreasing in the past decade, and has 
that affected foreign aerospace companies competitiveness vis a vis the 
U.S. aerospace industry?
    Answer. NASA does not track government subsidies and therefore does 
not have the data to answer this question specifically. However, it is 
well established and documented through international agreements that 
other governments do support their aerospace industries with direct R&D 
and product subsidies. The major effect of such subsidies is to reduce 
the cost and risk for product development, leading to technology 
insertion at lower cost than would otherwise be possible through the 
market. However, the long-term effects of such subsidies could be 
detrimental to a foreign economy if government investments were made in 
non-competitive technologies or propped up non-competitive enterprises.
    Question 3. Over the past 20 years what has been the trendline in 
NASA aeronautics budget as a percentage of global aeronautics R&D 
spending'?
    Answer. NASA does not track global aeronautics R&D spending and 
therefore does not have the data to answer this question specifically. 
However, a recent study by the National Academy of Engineering 
documented NASA's as well as military and industrial aeronautics 
spending over the past decade. Based on this report, industrial and 
military aeronautics R&D spending have declined continuously for the 
past decade. Over the past 20 years, NASA's aeronautics funding, in 
terms of inflation-adjusted dollars, has remained level. NASA 
aeronautics funding significantly increased in the early 1990s but has 
since returned to levels ($5-$600 million per year) consistent with 
annual spending levels for NASA aeronautics since the early 1970s when 
adjusted for inflation.
    Question 4. The President's 2002 budget proposal calls for 
terminating certain aeronautics programs that had previously been 
deemed worthy of funding. Do these cuts reflect a new perception of the 
worthiness of these programs or are these programs that, while 
potentially promising, simply cannot be funded within existing 
budgetary limitations?
    Answer. The Administration cancelled the Rotorcraft Program at NASA 
because it is not a high civil aeronautics research priority and 
because the Department of Defense should fund military aircraft 
research.
    NASA has an ongoing program, the Aviation System Capacity Program 
(funded at $101 million in the President's FY 2002 Budget, a 47 percent 
increase over FY 2001), to develop technologies that could help 
alleviate congestion and crowding in the Nation's airports. NASA has 
regularly reviewed the potential for various technology investments to 
address these congestion and crowding issues. In the current aviation 
system environment with its critical capacity issues, NASA has ranked 
other technology investments higher than investments in rotorcraft.
    Question 5. How great a threat does declining student interest in 
aerospace engineering programs pose to the health of the U.S. aerospace 
industry, and what measures if any does NASA's aeronautics program 
include to address that problem'?
    Answer. Over the long-term, the greatest threat to the future of 
the aerospace industry is the potential lack of appropriate expertise. 
Fewer defense and commercial research and development projects and 
reduced enrollments at universities could lead to future design teams 
that lack the experience of today's engineers. Leadership is required 
to reverse this trend. We, in partnership with the academic community, 
must begin developing a new generation of scientists and engineers that 
blend traditional competencies, such as aerodynamics, material and 
structures, and guidance and controls, with the emerging competencies 
in nanotechnology, biotechnology and information technology. We must 
also develop the design tools and environments that will allow us to 
integrate fewer and more specialized scientists and engineers into 
effective teams capable of designing highly complex integrated 
aerospace systems. NASA is in the process of awarding new University 
Research, Engineering and Technology Institutes (URETI) to increase our 
University partnerships and focus them on the critical skills needed 
for the future of aerospace.
                                 ______
                                 
Responses to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Roy V. Harris, Jr.
    Question 1. As a former Director for Aeronautics at Langley, how 
has the Center improved its research over the years?
    Answer. There are three elements to maintaining excellence in any 
aeronautical research organization: The first is to attract, retain and 
motivate a well qualified research staff of scientists, engineers and 
technicians; the second is to acquire and maintain world-class test 
facilities, laboratories and computational tools; and the third is to 
have leading-edge research programs that encompass all of the relevant 
disciplines and vehicle classes. During my tenure as Director for 
Aeronautics, we tried to focus on all of these elements.
    Langley is the only NASA Center that covers all of the aeronautical 
disciplines involved in airframe design (aerodynamics, controls, flight 
dynamics, structures, materials, propulsion integration, and flight 
systems), and we worked hard to coordinate our research with the other 
NASA Centers. We encouraged our researchers to publish their work in 
the major national technical journals and to attend technical 
conferences where they can present their work and interact with their 
peers in industry and the universities. We worked across the spectrum 
of vehicle classes from very low speed rotorcraft and general aviation 
aircraft, to long range transports, to high performance military 
aircraft, and to supersonic and hypersonic cruise vehicles. We 
maintained both formal and informal interactions with the ultimate 
industry users of our technology for planning, execution and evaluation 
of our programs and test operations.
    In more recent times, however, the Aeronautics Centers have been 
severely limited, due to declining aeronautics budgets, in the ability 
to maintain their experimental facilities in world-class condition and 
to support adequate travel budgets for researchers to interact with 
their peers. Program funding has been reduced to the point that some 
important areas of research that are required to maintain future U.S. 
competitiveness have been eliminated.
    Question 2. If additional funding for aeronautics at NASA were 
available, what areas would you recommend for investment?
    Answer. First let me reiterate that we believe that, in order to 
regain U.S. world preeminence in aeronautics, it is necessary to double 
the aeronautics portion of NASA's budget over the next 4 years from 
about $730 million in FY 01 to about $1,400 million in FY 05. To 
accomplish this we recommended, in my written testimony, that the NASA 
aeronautics budget be increased by $155 million a year over the 4-year 
period. This would result in a recommended FY 02 budget for aeronautics 
of $885 million.
    Contrary to this, the Bush FY 02 budget proposes significant 
reductions from the FY 01 aeronautics budget that could result in 
funding being reduced to about $570 million, or to about one-half of 
the FY 98 budget and some $315 million below our recommended level. It 
should be noted that this estimate is based on my own analysis of the 
FY 02 budget proposal. NASA no longer has a line item in its budget for 
aeronautics, making it very difficult for Congress and the public to 
determine how much (or how little) is being spent in this very 
important area.
    The most critical needs in FY 02 are for two programs the 
administration proposes to eliminate, and for several important 
research efforts that are not now funded at all. These programs, along 
with the recommended level of FY 02 funding are as follows:

    Restore FY 02 Proposed Cuts
    Rotorcraft Research--$32.0 million
    Advanced Aircraft Program (specific, classified military effort)--
$27.0 million
    Top Priority Augmentations to FY 02 Budget
    Supersonic Transport Research--$40.0 million
    High Performance Military Aircraft Research--$20.0 million
    Test Facility Upgrades & Operations--$50.0 million
    University Centers of Excellence--$40.0 million

    The Aviation System Capacity program, the Aviation Safety program, 
and the Small Aircraft Transportation System program are all well 
funded in the FY 02 budget. In addition, significant funding is 
provided for Noise and Emissions research. Although these programs need 
to continue to grow over the next 3 years to almost twice their current 
funding, no additional funds are needed for these programs in the 
coming fiscal year.
    It should also be noted that NASA has proposed a smaller ($4.0 
million) university program called Research, Education, and Training 
Institutes in FY 02. However, we believe that the problem of bringing 
on new talent to replenish the depth of expertise that has been lost at 
the Aeronautics Centers is so critical that it needs to be larger by an 
order of magnitude.
    Question 3. Do you have any thoughts on having industry invest in 
upgrades to government-owned aeronautical research facilities?
    Answer. It has been accepted U.S. policy for the past 86 years, 
that long-term, high-risk aeronautical research for civil and military 
aviation is a government responsibility. The government investment in 
this research and the required experimental facilities has paid off 
handsomely to our economy, to national defense, and to the quality of 
life of all Americans. Although we believe that the government has an 
obligation to maintain its primary aeronautical facilities in world 
class condition, we see no objection to having industry invest in 
upgrades to government owned research facilities.
    Industry has, in fact, done this in the past at fairly modest 
levels of funding. One example from a few years ago involved the Low 
Turbulence Pressure Tunnel at the Langley Research Center. A private 
company paid over $1 million to install a suction system in the tunnel 
to facilitate a test in which they had an interest. The addition of the 
suction system greatly improved the capability of the tunnel, and after 
the test, they gave the equipment to NASA. It is also not uncommon for 
industry to build test models for specific tests in NASA wind tunnels 
at a cost of $1 million to $2 million and, after the test, make the 
models available at no cost to NASA for use in NASA research programs.
    Question 4. Measured both by market share and technological 
benchmarks (speed, emissions, noise), has the competitive position of 
the U.S. aerospace industry increased or decreased over the past 
decade?
    Answer. It is clear that we have lost ground in terms of civil 
aircraft market share. A decade ago the U.S. had about 70% of the world 
market in commercial aircraft sales. Today our share has dropped to 
about 50%, and some experts project that it will reach as low as 30% in 
the foreseeable future. This drop in U.S. market share is indicative of 
the fact that foreign-built aircraft have become more competitive in 
their performance parameters such as speed, fuel efficiency, emissions, 
and noise.
    The U.S. is still producing the best military aircraft in the 
world. However, this is a result of the substantial investments in 
research that were made a decade or more ago. The competitiveness of 
our future military aircraft will depend on the research that we are 
doing today. The quality of our future military aircraft will certainly 
be compromised if we continue to reduce our national investments in 
military aviation research. Both NASA and DOD play vital roles in 
developing advanced technology for future high-performance military 
aircraft.
    Question 5. Have foreign government subsidies to their aircraft 
industries been increasing or decreasing in the past decade, and has 
that affected foreign aerospace companies competitiveness vis a vis the 
U. S. aerospace industry?
    Answer. We are certain that government subsidies in the early days 
helped our major European competitor, Airbus Industrie, establish 
itself in the world commercial aircraft market. We cannot say whether 
the subsidy has increased or decreased over the past decade, since 
access to this kind of data is not available. There have been reports 
in the press that the European governments are considering phasing out 
the subsidies to Airbus now that they have gained an equal market share 
with Boeing. We believe that their market success, however, is due to 
the fact that they now can produce very good aircraft at competitive 
prices, with or without a subsidy.
    Question 6. Over the past 20 years, what has been the trendline in 
NASA aeronautics budget as a percentage of global aeronautics R&D 
spending?
    Answer. It is impossible to give a precise answer to this question 
since the amount of global aeronautics R&D spending is really an 
unknown. However we know that NASA's aeronautics budget did increase, 
in terms of 2001 dollars, over the period from the mid-1980s until 1994 
and remained about constant through 1998. It took a precipitous decline 
in 1999 and 2000 to a value of about \2/3\ of its 1998 level. During 
this period of declining NASA funding, our European competitors and the 
Japanese have been increasing their investment in aeronautics R&D. The 
European Commission has now announced a new plan to significantly 
further increase their government funding for aeronautics research. 
They estimate that the total funding, public and private, could exceed 
100 billion Euros (about $95 billion) over the next 20 years. In spite 
of this, the Bush Administration is proposing additional significant 
reductions to NASA's aeronautics research budget in Fiscal 2002.
    Question 7. The President's 2002 budget proposal calls for 
terminating certain aeronautics programs that had previously been 
deemed worthy of funding. Do these cuts reflect a new perception of the 
worthiness of these programs, or are these programs that, while 
potentially promising, simply cannot be funded within existing 
budgetary limitations?
    Answer. These programs are very important to the competitiveness of 
the U.S. aeronautics industry and should not be terminated. Rotorcraft, 
for example, are essential for almost all military operations and are 
extensively utilized for civilian medical evacuations and for search 
and rescue. Tiltrotor technology has the potential to off-load commuter 
aircraft from the runways of our hub airports and significantly 
increase the capacity of these already over-crowded airports. The 
Advanced Aircraft Program is a very productive, classified NASA/DOD 
cooperative program that has and continues to produce new innovations 
for military aviation technology. It is our opinion that these 
terminations are the result of a continuing de-emphasis on aeronautics 
within a fixed overall NASA budget that is stressed by program failures 
and cost overruns within the space program.
    Question 8. How great a threat does declining student interest in 
aerospace engineering programs pose to the health of the U.S. aerospace 
industry, and what measures if any does NASA's aeronautics program 
include to address that problem?
    Answer. NASA, DOD and Industry depend on American universities to 
provide creative, skilled engineers and scientists as a critical 
resource for maintaining U.S. preeminence in civil and military 
aeronautics. Yet the recent de-emphasis on long-term aeronautical 
research in both NASA and DOD has significantly impaired our 
universities' ability to maintain vibrant aeronautical engineering 
programs. As a result, students are attracted to other areas of study 
and the nation is experiencing a diminishing pipeline of qualified 
aeronautical engineering students at both the undergraduate and 
graduate levels. The problem is a serious one that could have grave 
consequences to our future competitiveness in both civil and military 
aviation.
    As stated earlier, in answer to a previous question, NASA has 
proposed a $4.0 million university program called Research, Education, 
and Training Institutes in its FY 02 budget request. We believe that 
the problem in the U.S. universities is so great, and the problem of 
bringing on new talent to replenish the depth of expertise that has 
been lost at the NASA Aeronautics Centers is so critical, that the 
program needs to be larger by an order of magnitude.
                                 ______
                                 
Responses to Written Questions Submitted by Hon. John D. Rockefeller IV 

                             to Dennis Deel
    Question 1. Can you give some specific examples of how Lockheed, as 
a defense contractor, has utilized the research at Langley for national 
security purposes?
    Answer. Heritage Lockheed Martin Corporation (LMC) companies and 
NASA Langley Research Center (LaRC) have been technology development 
partners for more than 25 years--working together to enhance the 
survivability of military aircraft. This relationship started in the 
late 1970s and early 1980s when Ben Rich, the then Head of the Lockheed 
``Skunk Works'', approached Roy Harris and asked that NASA work with 
Lockheed to develop technologies that have now enabled or improved 
aircraft developed or fielded by Lockheed Martin. These include the F-
117 Nighthawk and the F-22 Raptor. These technologies are products of 
the NASA Advanced Aircraft Program (AAP) and many were key ``firsts'' 
delivered by the LaRC AAP team. While the details of these efforts are 
classified, both partners brought their best assets to the table: 
people, facilities and dollars. Only in the past 10 years have these 
collaborations taken on more formal terms. The NASA LaRC Advanced 
Aircraft Program (AAP) team continues to work very closely with the 
Lockheed Martin Aeronautics--Palmdale. The focus is on high-risk, high-
payoff research to enable superior survivability. Continuation of 
programs like AAP is critical to maintaining our military's 
technological superiority. Also looking to the future, NASA LaRC and 
LMC are teamed on the Revolutionary Concepts in Aeronautics (RevCon) 
Smart Vehicle Phase I Project where we will take 4-5 control effector 
concepts to flight validation. These concepts have all been screened by 
the LaRC/LMC team to ensure they enable a survivable solution--one 
which delivers the desired aerodynamic performance while not 
compromising the survivability aspects necessary for proposed advanced 
military aircraft. LMC has made extensive use of LaRC facilities 
(Compact Radar Range, materials labs and wind tunnels). In many cases, 
initial empirical data has been obtained in the LaRC facilities. At one 
point in the 1980s LMC products were undergoing tests in the National 
Transonic Facility (NTF), Full Scale, 12 Foot, Pilot Compact Radar 
Range, as well as several other smaller facilities--simultaneously. The 
high-speed supercruise capability and excellent low/high speed 
maneuverability of the F-22 are founded on the groundwork laid by LaRC 
in Propulsion/Airframe Integration research into 2-D nozzle 
installations and in-flight thrust vectoring. We are currently 
evaluating engine nacelle installation options for the potential re-
engining of the C-5 Galaxy with NASA. As we continue to develop the 
Joint Strike Fighter, NASA's various wind tunnels and flight simulation 
facilities are invaluable.
    Question 2. A former NASA Administrator has said that the lack of 
attention to NASA's aeronautics funding is due to the fact that the 
country can postpone investment in R&D without suffering any ill 
effects for a decade or so. Would you please comment on the veracity of 
this statement? What effects do you believe will result from the 
decline in NASA's basic aeronautic research?
    Answer. There has been a great deal of print recently dedicated to 
the concept of ``skipping a generation'' of technology in military 
systems--that we can use this time of apparent peace and stability to 
that end. But, that revolutionary technology must still be developed. 
The NASA LaRC AAP team's primary charter is to work high-risk, high-
payoff challenging research. Much of this work entails developing the 
basic physical insight to phenomena to then developing a technical 
approach to a solution. This process takes years and the products are 
generally not implemented until years later. Many of the new 
breakthroughs (and they truly have been enabling) have not been fielded 
or demonstrated any earlier than 10 years--so any ill effects of not 
pursuing an idea or solution is not felt for a decade or more. At that 
point, we could face at least 10 years of catching up to other nations, 
especially in having to rebuild the infrastructure systems sufficient 
to allow research at the same prior levels. The implosion in the 
aerospace industry and the budget challenges in the space segment of 
NASA have contributed to the near term focus in aeronautics research. 
We could surmise that this trend is the reason for the technological 
gain of aerospace competitors like Airbus. In simple terms--we've 
stopped planting the seed corn.
    Question 3. You have mentioned Langley's unique test facilities in 
your statement. There was some discussion a few years ago of combining 
some of these facilities with other Defense facilities. In your 
opinion, do you believe this would be a prudent decision?
    Answer. NASA Langley unique facilities, such as the National 
Transonic Facility (NTF), Transonic Dynamics Facility (TDT), and Spin 
Tunnel, by definition of uniqueness, can't be combined with 
counterparts since there are no others like them. The one possible 
exception is the Spin Tunnel. The U.S. Air Force has a similar 
facility, but the technical expertise to utilize the facility resides 
at LaRC. There is a similar facility in Europe, but since the majority 
of the testing in the Spin Tunnel has national security implications, 
it seems prudent that the U.S. not to lose this capability. NASA and 
DOD are considering combining some facilities that are not unique and 
that is appropriate.
    Question 4. Your testimony highlights a number of important 
military programs from the F-22 Raptor to the most recent version of 
the C-130 that have benefited from Lockheed's cooperation with both 
NASA and the Department of Defense. How have cutbacks in NASA's 
aeronautics research budget affected this partnership?
    Answer. NASA has certain obligatory commitments for its classified 
military funding. With a reduced research budget, the dollars remaining 
to pursue revolutionary challenges has dwindled to where they 
essentially do not exist. We have seen the non-dollar resources shrink 
as well. Many key researchers (in NASA and the aerospace industry) have 
retired, died, transferred or moved to other activities. The cost to 
operate and maintain real property and facilities has taken more and 
more of the limited budgets. All the while, facilities remain key 
assets, not to market for reimbursable dollars but as part of the 
toolbox needed to make discovery and find solutions. By the very nature 
of business motivation, industry will not do the basic research needed 
to enable revolutionary breakthroughs. For example, if we are to build 
self-repairing aerospace materials and structures, it will take the 
best minds in academia to understand the underlying principles, the 
best minds in NASA to develop the enabling technology, and the best 
minds in industry to apply and field that technology. This development 
chain is only as strong as the weakest link. NASA's ability to bring 
its research strength to bear has definitely suffered over the past 
several years.
    Question 5. Measured both by market share and technological 
benchmarks (speed emissions, noise), has the competitive position of 
the U.S. aerospace industry increased or decreased over the past 
decade?
    Answer. According to the Aerospace Industry Association (AIA), the 
U.S. commercial aerospace market share has significantly declined. As 
for military applications, it is superior capability that counts. The 
discovery and maturation of enabling technologies and advanced 
processes and materials have given the U.S. the historical edge. 
Unfortunately, superiority must be maintained and the competition is 
not standing still. An illustration--our F-22, C-130J, and Joint Strike 
Fighter all make advantageous use of composite materials--used for 
superior strength and reduced weight. While we have fielded flaps and 
tail sections, Airbus has already built an entire aircraft wing made of 
these same materials. The next generation fighter plane might rely on 
self-repairing carbon nano-tube structure. The bottom line is that we 
must continue our technology development or fall behind.
    Question 6. Have foreign government subsidies to their aircraft 
industries been increasing or decreasing in the past decade, and has 
that affected foreign aerospace companies competitiveness vis-a-vis the 
U.S. aerospace industry''?
    Answer. Unfortunately, we do not have the data to definitely 
determine the foreign government subsidy trend. It is apparent, 
however, that in the case of Airbus Industries, the historical subsidy 
level has been significant. Perhaps the more important metric on the 
military side is the quality of foreign produced aircraft--more capable 
wins.
    Question 7. Over the past 20 years, what has been the trendline in 
NASA aeronautics budget as a percentage of global aeronautics R&D 
spending?
    Answer. Again, we do not have a good picture of the global spending 
trend, but we do know that NASA's aeronautics budget has been flat at 
best with a down trend nearer term. Showing some modest gains through 
the 1980s, from 1994 through 1998 the aeronautics budget remained 
relatively constant in real terms, but declined rapidly in 1999 and 
2000 to approximately 2/3 of the 1998 level. It is significant to note 
that this is exactly the time that our European and Asian competitors 
increased their investment.
    Question 8. The President's 2002 budget proposal calls for 
terminating certain aeronautics programs that had previously been 
deemed worthy of funding. Do these cuts reflect a new perception of the 
worthiness of these programs, or are these programs that, while 
potentially promising, simply cannot be funded within existing 
budgetary limitations?
    Answer. While determining funding priorities (and hence programs) 
is an internal NASA responsibility, we are concerned about the overall 
level and health of basic aeronautics research. This research is the 
foundation for advances in the associated disciplines. Historically, 
the level base research has been directly proportional to the programs 
supported. In stands to reason that as the emphasis within NASA shifts 
away from aeronautics (as evidenced by program cancellation), so will 
the support for basic research.
    Question 9. How great a threat does declining student interest in 
aerospace engineering programs pose to the health of the U.S. aerospace 
industry, and what measures if any does NASA's aeronautics program 
include to address that problem?
    Answer. The lack of interested and qualified aerospace (and 
supporting discipline) graduates is a challenge for NASA and for the 
industry. Today's student weighs the prospects of a tough academic 
program against the salary and job security prospects in the aerospace 
industry and turns to other pursuits. Like NASA, we have relied on 
intern programs and rotational assignments to foster interest. NASA 
programs like the recently cancelled Intelligent Synthesis Environment 
(ISE) have historically been perfect vehicles for the collaborative 
work of academia, NASA, and industry. As the number and scope of 
programs diminish, so do the opportunities to reach inside the academic 
institutions.
  

                                <greek-d>

</pre></body></html>
